                                             foreword
	
	       As the Principal Deputy Inspector General of the Department of Defense (DoD), I am pleased to submit
this Semiannual Report to Congress for the six-month period ending March 31, 2006.  During this period two
major operations have demanded the attention of the DoD and the Office of Inspector General (OIG).  One is the
ongoing Global War On Terrorism (GWOT) including operations in Iraq and Afghanistan.  The other has been the
participation of the DoD in the response to the devastation resulting from Hurricane Katrina and other storms that
hit the Gulf Coast.  

	       Chapter 1 of this report provides an overview of the extensive efforts by auditors, investigators, and
inspectors in the DoD to monitor tax dollars expended in support of the GWOT.  The fight against terrorism is
a long-term commitment and the DoD oversight community has an important role in promoting the efficient
and effective use of resources devoted to this effort.  In this chapter, we discuss the recent initiative by the OIG to
increase its presence in Southwest Asia by opening a field office in Qatar.  DoD investigative elements have been
participating with the FBI in Joint Terrorism Task Forces.  Initiatives by inspectors general at the combatant
commands demonstrate that oversight is taking place across the services and at every level within the Department.

	       The Gulf Coast of the United States was the target of several major tropical storms during 2005, most
notably, Hurricanes Katrina, Rita and Wilma.  The DoD has a significant role in assisting with hurricane recovery
and relief efforts.  Chapter 2 discusses how the OIG and other DoD audit and investigative agencies are working to
ensure effective oversight in the utilization of resources for relief and recovery efforts.

	       This report also discusses other audits, investigations, and inspections that address the major management
challenges faced by the DoD.  Significant accomplishments resulting from these efforts include almost $1.4 billion
in monetary benefits identified in audit reports issued by the OIG and the service audit agencies.  Further,
investigations conducted by the Defense Criminal Investigative Organizations resulted in monetary recoveries
totaling $126.4 million.  

	       I want to recognize the efforts of the men and women in the OIG for their commitment to promoting
integrity, accountability, and efficiency within the DoD.



                                                  Thomas F. Gimble
                                          Principal Deputy Inspector General
                         table of contents


chapter 1 — Global war on terrorism                                                       5

chapter 2 — Hurricane Katrina								                                                    15

chapter 3 — management challenges						                                                  19
	 Joint Warfighting and Readiness									                                               19
	Homeland Defense											                                                             21
	Human Capital											                                                                23	
	Information Technology Management								                                               28
	Acquisition Processes and Contract Management							                                    31
	Financial Management										                                                          33
	Health Care												                                                                 39
	Logistics												                                                                   41
	Infrastructure and Environment									                                                 44

Chapter 4 — oig components								                                                       49
	 Deputy Inspector General for Auditing								                                          49
	 Deputy Inspector General for Investigations								                                    52
	 Deputy Inspector General for Intelligence								                                      56
	 Deputy Inspector General for Policy and Oversight							                               58
	Office of Communications and Congressional Liaison 						                               62

appendices
	Appendix A — Reports Issued by Central DoD Internal Audit Organizations			              65
	Appendix B — OIG Reports Issued Containing Quantifiable Potential Monetary Benefits     75
	Appendix C — Followup Activities									                                               76
	Appendix D — Contract Audit Reports Issued							                                       78	
	Appendiz E — Status of Action on Significant Post-Award Contract Audits				             79
	Appendix F — Status of OIG Reports More Than 12 Months Old With Final Action Pending	   80	
								
           Inspector General Act Reporting Requirements

The Table below cross-references the specific pages in this semiannual report to the reporting requirements
prescribed by the Inspector General Act of 1978 (Public Law 95-452), as amended.


  IG Act                                               Reporting Requirements                                                    Page
 References
Section 4(a)(2)    “review existing and proposed legislation and regulations...make recommendations...”                          62-64

Section 5(a)(1)    “description of significant problems, abuses, and deficiencies...”                                            19-48

Section 5(a)(2)    “description of recommendations for corrective action...with respect to significant problems, abuses,         19-48
                   and deficiencies...”
Section 5(a)(3)    “identification of each significant recommendation described in previous semiannual reports on which          49-51
                   corrective action has not been completed...”
Section 5(a)(4)    “a summary of matters referred to prosecutive authorities and the prosecution and convictions which           19-48
                   have resulted..”
Section 5(a)(5)    “a summary of each report made to the [Secretary of Defense] under section 6(b)(2)...” (instances where        N/A
                   information requested was refused or not provided”
Section 5(a)(6)    “a listing, subdivided according to subject matter, of each audit report issued..” showing dollar value of   65-74, 75
                   questioned costs and recommendations that funds be put to better use.
Section 5(a)(7)    “a summary of each particularly significant report...”                                                        19-48

Section 5(a)(8)    “statistical tables showing the total number of audit reports and the total dollar value of questioned          76
                   costs...”
Section 5(a)(9)    “statistical tables showing the total number of audit reports and the dollar value of recommendations           76
                   that funds be put to better use by management...”
Section 5(a)(10)   “a summary of each audit report issued before the commencement of the reporting period for which no             76
                   management decision has been made by the end of reporting period...”
Section 5(a)(11)   “a description and explanation of the reasons for any significant revised management decision...”              N/A

Section 5(a)(12)   “information concerning any significant management decision with which the Inspector General is in             N/A
                   disagreement...”
Section 5(a)(13)   “information described under Section 804 [sic] of the Federal Financial Management Improvement Act             N/A
                   of 1996...” (instances and reasons when an agency has not met target dates established in a remediation
                   plan)
Section 5(b)(2)    “statistical tables showing the total number of audit reports and the dollar value of disallowed costs...”      77

Section 5(b)(3)    “statistical tables showing the total number of audit reports and the dollar value of recommendations           77
                   that funds be put to better use by management agreed to in a management decision...”
Section 5(b)(4)    “a statement with respect to audit reports on which management decisions have been made but final             80-101
                   action has not been taken, other than audit reports on which a management decision was made within
                   the preceding year...”
Section 8(f)(1)    “information concerning the number and types of contract audits...”                                             78
chapter 1 — global war on terrorism
           Between September 11, 2001, and September 2005, the United States has
           obligated $268 billion in support of the Global War on Terrorism (GWOT).
           Overseeing these expenditures, the acquisition of massive amounts of materiel
           and equipment involved to support actions in Afghanistan and Iraq, and the
           extensive logistics to move these resources poses tremendous challenges for the
           services. The work of the Department of Defense (DoD) oversight commu-
           nity has been and will continue to be critical to the outcome of the DoD-wide
           GWOT efforts.

           The continuing efforts of the services, incorporating the lessons learned of
           Operations Iraqi Freedom, Enduring Freedom, and Noble Eagle focus on the
           flexible support that is crucial to helping the armed forces meet all threats, the
           traditional and the unconventional. The efforts at transformation to achieve
           this flexibility also include changes in the overseas presence of United States
           forces, such as altering the footprint of our installations and activities globally
           to better position our forces to address the evolving threat environment.

           The DoD Office of the Inspector General (OIG) opened a field office in
           Qatar in March 2006. The staff in the Qatar office has been assigned to con-
           duct audits, inspections, and investigations as required in Iraq, Afghanistan,
           Kuwait, and Qatar to support the operational commanders. The reviews done
           by this staff will cover critical issues that are important to the Department in
           the areas of readiness, logistics, force management, contracting, and financial
           management.

           The DoD OIG continues to support the development of a strong anti-cor-
           ruption system within the Iraqi government. A viable Inspector General (IG)
           system is one of the three pillars of the Iraqi Anti-Corruption program. The
           DoD OIG provided a senior advisor to the Iraq Ministry of Defense (MoD)
           IG to train, mentor, and assist the organizational and policy development of
           this fledgling program essential to the stability and accountability of the new
           government. In November 2005, the DoD OIG deployed a two-person mobile
           training team to Iraq to train 38 Iraqi MoD and Ministry of Interior OIG
           staff members in IG principles and procedures for inspections and assistance.
           Additional mobile training teams are planned to teach audit and investigation
           procedures. As the Iraqi IGs build their organizational capacity, they are help-
           ing the MoD promote principled governance, anti-corruption programs and a
           transparent rule of law process. On January 5, 2006, the DoD and Department
           of State Inspectors General co-hosted representatives from several other federal
           Offices of Inspector General to discuss how, as a community, we can further
           enable capacity-building within the Iraq IG system as a key element in their
           Anti-Corruption program.


                                                               Office of the Inspector General 
Global War on Terrorism

                             Audits   To sustain the strong bond created by the effective coordination among the
                                      DoD audit community, the DoD OIG continues to actively participate in the
                                      Readiness/Forces Management Joint Planning Group with the Military Service
                                      audit agencies and the Government Accountability Office. Service audit agen-
                                      cies greatly support the GWOT through recommended efficiencies and cost-
                                      effective measures. Audits that identify funds that can be put to better use are
                                      critical to the support of the GWOT and the warfighter.

                                      At this time, there are a total of 155 auditors assigned to GWOT related initia-
                                      tives: 20 in DoD OIG, 58 in Army Audit Agency (AAA), 49 in Naval Audit
                                      Service (NAS), and 28 in Air Force Audit Agency (AFAA). Since FY 2002,
                                      the DoD OIG has issued 33 reports related to GWOT. From March 2004
                                      through April 2005, 25 DoD OIG auditors provided support to the Coalition
                                      Provisional Authority Inspector General and the Special Inspector General for
                                      Iraq Reconstruction.

                                      The DoD OIG is conducting audits in the Southwest Asia region launched from
                                      both the Qatar field office and from the Continental United States (CONUS).
                                      Those audits include the Commander’s Emergency Response Program (CERP),
                                      Equipment Status of Deployed Forces, Information Operations in Southwest
                                      Asia, Joint Service Small Arms Program, and Management of the Iraq Security
                                      Forces Fund.

                                      The DoD OIG Qatar staff is in the process of reviewing the administration
                                      of the CERP in Afghanistan. The CERP enables local commanders in Iraq
                                      and Afghanistan to respond to urgent humanitarian relief and reconstruction
                                      requirements within their areas of responsibility.

                                      An audit of the Equipment Status of Deployed Forces is being conducted to
                                      determine whether units deployed to Iraq have been equipped in accordance
                                      with mission requirements. This audit began in December 2005 and the team
                                      has made their first trip into the theater to include Kuwait, Bahrain, and Qatar
                                      and is leaving again for Afghanistan and Iraq in early May 2006.

                                      An evaluation of information operations in Southwest Asia, specifically the
                                      activities of the U.S. Central Command (USCENTCOM) and U.S. Special
                                      Operations Command (USSOCOM), will look at the role of private contrac-
                                      tors in conducting information operations activities.

                                      The Joint Service Small Arms Program will be reviewed to evaluate the initiatives
                                      to support and sustain the warfighter in the current operating environment.




 Semiannual Report to the Congress
                                             Global War on Terrorism

The Management of the Iraqi Security Forces Fund is being reviewed to deter-
mine whether the $5.7 billion provided in the FY 2005 supplemental for the
equipping, facility and infrastructure repair, renovation and construction, sup-
plying, and training of the Iraq security forces was used for the intended pur-
poses and whether transfers to other DoD appropriations followed congressio-
nal intent and applicable appropriation law.

The AAA reported existing control weaknesses related to handling military
interdepartmental purchase requests and nonconstruction contract payments,
making Iraqi vendor payments, and performing fund status reviews. AAA also
identified at least $12.4 million in unused payroll funds that should be used to
offset other budget requirements.

The NAS has audited Emergency Action/Continuity of Operations Planning in
the intelligence community and fund controls in classified programs. NAS also
assisted in oversight of intelligence, compartmented programs, sensitive activi-
ties, and controls over communication security equipment and the Navy Small
Arms Program. NAS also completed an audit on Demand on Equipment. The
United States Marine Corps initiated a study of Stress on Equipment due to
operations related to the GWOT. Other reports include: Models Used by the
Marine Corps to Determine Requirements and Budget for Ammunition. At
the request of the Deputy Commandant for Programs and Resources, NAS
audited the reliability of the conventional ammunition model; H-1 Upgrades
Program. NAS is continuing a series of audits in the anti-terrorism and force
protection area and also has scheduled audits of classified and intelligence-
related contracting and small arms controls in the Marine Corps.

The AFAA currently has two ongoing and two planned GWOT-related audits
requested by the United States Central Command Air Forces (CENTAF) in the
overseas Area of Responsibility (AOR): (1) an ongoing audit of U.S. Central
Command Air Forces Deployed Locations Cash Management; (2) an ongo-
ing audit of U.S. Central Command Air Forces Deployed Locations Blanket
Purchase Agreements; (3) a planned audit of U.S. Central Command Air
Forces AOR Contract Management; and (4) a planned audit of U.S. Central
Command Air Forces AOR Ground Fuel Management.

Audits not in the AOR include: (1) an ongoing audit of Civilian Deployments;
(2) a planned audit of Homeland Security, Civil Air Patrol; (3) An ongoing audit
of Weapons of Mass Destruction Emergency Medical Response Capabilities;
and (4) a planned followup audit of Weapons of Mass Destruction Emergency
Response Equipment.




                                                  Office of the Inspector General 
Global War on Terrorism

                    Investigations As the criminal investigative arm for the DoD OIG, the Defense Criminal
                                      Investigative Service (DCIS), as part of a Department of Justice Task Force, is
                                      involved in the review of allegations regarding matters that have occurred in
                                      Iraq. Beginning in May 2003, DCIS provided two special agents to conduct
                                      criminal investigations in support of the Coalition Provisional Authority (CPA)
                                      in Baghdad. Investigative support to the CPA resulted in numerous recover-
                                      ies and dismantling of criminal operations, to include a multi-million dollar
                                      counterfeiting operation involving the Iraqi dinar, and the multiple seizures of
                                      weapons and explosive devices destined to be used against coalition forces.

                                      DCIS and its military criminal investigative counterparts continue to provide
                                      criminal investigative support within their respective authorities to investi-
                                      gate major frauds, corruption, thefts, and other compromises of DoD assets
                                      in Afghanistan, Iraq, and other countries in that theater. DCIS agents deploy
                                      from Europe and CONUS with investigation partners (e.g., FBI) into theater
                                      to conduct investigative operations, such as gathering evidence and conducting
                                      interviews when crimes are reported. However, the bulk of their investigative
                                      activities occur in CONUS where corporate headquarters of DoD contractors,
                                      key evidence, and Department of Justice prosecutive support are located. With
                                      the deployment of the OIG Qatar Field Office, DCIS expects a significant
                                      increase in criminal fraud referrals and a concomitant increase in investigator
                                      presence in the area.

                                      DCIS also conducts investigations of the illegal diversion, theft, or movement
                                      of strategic technologies and U.S. Munitions List items to proscribed nations,
                                      and to terrorist organizations that pose a threat to national security. Technology
                                      Protection-related investigations have grown to encompass approximately
                                      20 percent of DCIS’ active caseload. DCIS is currently recognized by the
                                      Department of Homeland Security, Federal Bureau of Investigation (FBI), and
                                      various members of the Intelligence Community as the primary DoD criminal
                                      investigative element supporting the on-going battle against counter-prolifera-
                                      tion and illicit technology transfer.

                                      The Military Criminal Investigative Organizations (MCIOs), composed of
                                      the U.S. Army Criminal Investigation Command (USACIDC), the Air Force
                                      Office of Special Investigations (AFOSI), and the Naval Criminal Investigative
                                      Service (NCIS), also play an active role in the GWOT by providing top-notch
                                      investigative support and valuable intelligence information to the combatant
                                      and Service component commanders. They also actively participate in world-
                                      wide joint terrorism task forces, sharing and acting on information, and relying
                                      on the unique skills and investigative specialties of the participating organiza-
                                      tions to ensure no potential threat goes unchecked.



 Semiannual Report to the Congress
                                               Global War on Terrorism

Special agents from DCIS and the MCIOs are assigned to Federal Bureau of
Investigation-led Joint Terrorism Task Forces (JTTFs) located throughout the
country. These task forces are comprised of small groups of highly trained,
locally based investigators, analysts, linguists, and other specialists who inves-
tigate DoD-related leads, gather evidence, make arrests, provide security for
DoD-related special events, conduct training, collect and share DoD-related
intelligence, and respond to threats and incidents related to the DoD. JTTFs
throughout the country are considered the nation’s “front line” in battling ter-
rorism, and have been instrumental in breaking up terrorist cells such as the
“Portland Seven,” the “Lackawanna Six,” and the Northern Virginia Jihad.
In addition to participation in JTTFs, the Defense Criminal Investigative
Organizations (DCIOs), comprised of the MCIOs and DCIS, share infor-
mation with other federal law enforcement and intelligence agencies involved
in the GWOT, such as the Department of Homeland Security, the Defense
Intelligence Agency, and the DoD Counterintelligence Field Activity (CIFA).

Since September 11, 2001, each DCIO has embarked on unique programs
to lend their assets and provide support to the GWOT. Following are some
examples of those efforts.

Worldwide, USACIDC agents and support personnel are providing crucial
investigative, intelligence and protective services to the U.S. Army in support
of the GWOT. USACIDC has over 120 agents currently deployed to Iraq,
Afghanistan, and elsewhere in the world in support of the GWOT and the U.S.
Army Forces committed to that campaign. This latest rotation of about 120
agents continues the proactive posture of the USACIDC command and the
constant forward deployment of its assets since 9/11 in the GWOT. Almost 90
percent of all reserve agemts – over 320 – as well as about 70 percent or 550 of
all active duty agents in the field have been deployed since 9/11. These agents
have conducted sensitive site exploitations of suspected terrorist habitations in
Afghanistan and Iraq, have investigated and interviewed suspected terrorists in
preparation of judicial proceedings, and have collected and preserved evidence
to assure successful prosecutions.

USACIDC leads the Criminal Investigation Task Force (CITF), a joint enter-
prise of criminal investigators from all MCIOs, whose major task is to inves-
tigate and develop prosecutable packets against terrorists held at Guantanamo
Bay, Cuba. Additionally, CITF agents in Iraq are actively supporting the
Central Criminal Court of Iraq by investigating and assisting in the prosecu-
tion of terrorists under the Iraqi judicial system. They have had over 60 success-
ful prosecutions, with 3 resulting in death sentences and another 12 resulting
in life confinement sentences.



                                                   Office of the Inspector General 
Global War on Terrorism

                                       USACIDC has joined with U.S. Army military intelligence to close the gaps
                                       and seams that existed between foreign and counterintelligence information
                                       and law enforcement and domestic criminal intelligence. In order to further
                                       bolster the integration of law enforcement information into the fight against
                                       terrorism, USACIDC is in the process of expanding its criminal intelligence
                                       capabilities to better provide commanders with the force protection informa-
                                       tion they need to protect and defend the personnel and vital assets under their
                                       commands.

                                       Because of the increased threat from terrorists, the number of DoD officials
                                       being protected by USACIDC agents, in the United States and abroad, has
                                       almost doubled. Further, because of the need for increased and more in-depth
                                       protection, the number of protective service personnel assigned to the various
                                       principals has dramatically increased. These protective service agents perform a
                                       vital mission in safeguarding those DoD leaders who are directing the GWOT,
                                       from the Pentagon to field commands in Afghanistan and Iraq.

                                       The NCIS forensic exploitation of non-improvised explosive devices and related
                                       items involves two separate but interconnected efforts. First, in November
                                       2005, NCIS developed an evidence collection-training program designed for
                                       the unique Iraqi environment. Second, in January 2006, NCIS established
                                       the Latent Print Laboratory – Camp Fallujah (LPL-CF), as a pilot forensic
                                       latent print laboratory to examine collected evidence related items. The project
                                       was designed to improve the timeliness of evidence recognition, thus enabling
                                       the investigative and prosecutorial process, as well as gathering intelligence for
                                       future identification of terrorists. To date, the program has resulted in:

                                       	       · Detainees’ identities being confirmed or denied in 48 hours or less,
                                       	         thus enabling the retention of detainees if warranted.

                                       	       · Interview techniques being enhanced.

                                       	       · Results meeting requirements for acceptance into the U.S. legal
                                       	         system, which is serving as the model for the developing Iraqi legal
                                       	         system.

                                       	       · Forward commanders having information to make proactive
                                       	         operational decisions and the intelligence community providing 	
                                       	         improved link analysis and targeting packages.

                                       The NCIS also has established a Middle East Field Office (MEFO) Threat
                                       Mitigation Unit (TMU). The TMU is tasked with providing expeditionary
                                       support to “big deck” ship visits for selected ports in the U.S. Naval Central


10 Semiannual Report to the Congress
                                                             Global War on Terrorism

              Command’s (NAVCENT) area of operation; establishing a network of overt
              sources and informational contacts at these ports; and conducting operations
              designed to identify pre-incident indicators of possible terrorist actions and
              foreign collection activities.

              Caring for special agents assigned to hostile areas and their families is a prime
              concern of the MCIOs. Responding to that concern, in March 2005, AFOSI
              developed a Deployment Stress Management Program (DSMP) that aims to
              reduce the psychological impact on OSI members and their families being
              deployed to high threat areas by providing education and support prior to, dur-
              ing, and after deployment.

Inspections   The DoD OIG is conducting a follow-up evaluation of the DoD/Department
              of State (DoS) Interagency Assessment of Iraq Police Training. The original
              report focused on improving the effectiveness of the U.S. funded Iraqi police
              training program and accelerating the transition of training responsibility to
              the Iraqi government. Several of the recommendations of that report already
              have been implemented.

              Inspections are a key component to maintaining readiness at the individual
              service level. The Army, Navy, Marine Corps and Air Force each have an IG
              responsible for inquiring into and periodically reporting on the discipline, effi-
              ciency, economy, morale, training, and readiness of their respective military
              programs and forces. Examples of some of the initiatives taken by military IGs
              follow.

              The Army IG conducted a special follow-up inspection on detainee opera-
              tions. The team inspected 33 locations and interviewed over 1,000 leaders
              and soldiers involved in detainee operations. The follow up inspection had
              four objectives: (1) assess the distribution and execution of established policies
              and authorities for interrogation from the point of capture to the internment/
              resettlement facilities; (2) assess the distribution and execution of established
              policies and authorities for the capture, care, and control of detainees from the
              point of capture to the internment/resettlement facilities; (3) assess detainee
              operations training for personnel operating internment facilities, interrogation
              facilities, collecting points, and points of capture; and (4) assess the conditions
              of collecting points and detention facilities. The final report is expected to be
              released during April 2006.

              The Army IG’s Technical Inspection Division conducted Army-wide Nuclear,
              Biological, and Chemical Surety inspections and assessment to validate compli-
              ance with DoD and Army surety policies. These policies contain systems of
              control measures that provide protection to the local population, workers, and


                                                                 Office of the Inspector General 11
Global War on Terrorism

                                       the environment by ensuring that biological and chemical agent operations are
                                       conducted safely; that agents are secure; and that personnel involved in these
                                       operations meet the highest standards of reliability.

                                       The Air Force IG, through a top-to-bottom rewrite of all Air Force inspection
                                       guidance, has emphasized the changing threats in today’s wartime environment.
                                       As an example, the Ability to Survive and Operate phase now consists of split
                                       Mission-Oriented Protective Postures (MOPP) levels, transitioning procedures
                                       from contaminated to sterile environments, and asymmetrical attacks – situa-
                                       tions the Airman may encounter while deployed in the GWOT.

                                       The Air Force IG currently is coordinating the draft USAF Counter-Biological
                                       Warfare Concept of Operations to better focus on chemical or biological attacks.
                                       This new guidance will establish inspection criteria specific to biological war-
                                       fare. Additionally, the Disease Containment Plan is scheduled for release in
                                       the summer of 2006. This instruction outlines the Air Force’s approach to
                                       preparing for and responding to contagious disease outbreaks, whether natu-
                                       rally occurring or the result of deliberate attacks. This document is cross-func-
                                       tional and directs all Air Force installations to develop, exercise, and maintain a
                                       Disease Containment Plan.

                                       The Air Force IG also is revising the emergency management guidance (pre-
                                       viously the full-spectrum threat response, or FSTR, program) to include
                                       requirements and standards for individual protective equipment, as well as
                                       opportunities for joint training and exercises employing Chemical, Biological,
                                       Radiological, Nuclear and Explosive (CBRNE) scenarios. The incorporation
                                       of new biological defense and emergency response guidance into inspection
                                       criteria ensures that Air Force installations are well prepared to respond to all
                                       biological threats, including biological warfare, biological terrorism, and natu-
                                       rally occurring disease outbreaks.

                                       On the combatant command level, IGs also play an important role in improv-
                                       ing operational readiness, operational command and control systems, force
                                       protection, and intelligence oversight. Examples of some of their most recent
                                       efforts follow.

                                       The North American Aerospace Defense Command (NORAD) and the U.S.
                                       Northern Command (USNORTHCOM) IG:

                                       	       • Conducted regular no-notice, live-fly Alert Force Evaluations of all 	
                                       	        alert fighter sites and squadrons under Operation Noble Eagle, to
                                       	        include exercising command and control links and conferences with
                                       	        assessors for scenarios in both Canadian and U.S. airspace.


12 Semiannual Report to the Congress
                                          Global War on Terrorism

	     • Monitored, tracked, analyzed, and observed vulnerability
	      assessments on DoD installations and facilities.

	     • Conducted regular exercises for potential terrorist threats and
	      consequence management where unbiased observers, such as the 		
	      Joint Warfare Fighting Center were sequenced and positioned
	      to gain qualitative, first-hand data and provide feedback to the
	      Commander.

	     • Inspected the intelligence components of NORAD and
	      USNORTHCOM to verify compliance with intelligence oversight
	      guidance and law. The IG has taken the lead in promulgating
	      operating procedures that help commanders monitor incoming data
	      without hindering information sharing.

	     • Initiated development of procedures for receiving, handling,
	      tracking, and purging when appropriate, the material currently
	      termed “sensitive information” which might arrive in DoD channels
	      and which must be analyzed to determine if it has a terrorism nexus.

The U.S. Special Operations Command (USSOCOM) IG:

	     • Maintained high standards for the Special Operations Forces (SOF)
	      through rigorous and continuous verification of command policies 		
	      and procedures.

	     • Implemented an aggressive joint inspection program at all Theater
	      Special Operations Commands under the Unified Combatant
	      Commanders. Recent inspections at Special Operations Command
	      Europe (SOCEUR) and Special Operations Command Central
	      (SOCCENT) ensured training and equipment needs were adequate
	      for theater Special Operators as they prosecute the GWOT.

	     • Ensured training and equipment needs were adequate for theater
	      Special Operators as they prosecuted the GWOT.

The U.S. Pacific Command (USPACOM) IG:

	     • Conducted command and control inspections on sub-unified and
	      component commands focusing on the units ability to handle,
	      transmit/receive, store, and secure classified messages/data while
       maintaining communications with USPACOM Emergency 	
	      Operations Center (EOC) on a 24/7 basis.


                                              Office of the Inspector General 13
Global War on Terrorism

                                       	      • Monitored intelligence efforts and activities of sub-unified and
                                       	       component commands, required reports of readiness, and checking
                                       	       for consistency with regard to existing policies, programs and
                                       	       procedures specifically focusing on intelligence gathering activities 		
                                       	       both internal and external to the U.S.

                                       	      • Conducted inspections on Security Assistance Organizations,
                                       	       focusing on personnel security and force protection measures
                                       	       consistent with each country’s threat level and future known and
                                       	       anticipated threats.

                                       Classified information and information on the DoD intelligence agencies’ over-
                                       sight of GWOT can be found in the classified annex to this report.




14 Semiannual Report to the Congress
 chapter 2 — hurricane katrina
                                                                          The Department of Defense (DoD) has been an active
                                                                          participant in the disaster recovery and relief efforts
                                                                          for areas of the Gulf Coast devastated by Hurricanes
                                                                          Katrina, Rita, and Wilma this past Fall. As a result,
                                                                          the DoD Office of the Inspector General (OIG)
                                                                          has been working in close coordination with other
                                                                          Inspectors General through the President’s Council
                                                                          on Integrity and Efficiency (PCIE) to ensure effective
                                                                          oversight in the utilization of resources in the relief
                                                                          and recovery efforts.

                                                                          Within DoD, the OIG, the Army Audit Agency
                                                                          (AAA), the Naval Audit Service (NAS), the Air Force
                                                                          Audit Agency (AFAA), the Defense Contract Audit
                                                                          Agency (DCAA), the Defense Criminal Investigative
                                                                          Service (DCIS), and the Army Criminal Investigation
                                                                          Command (USACIDC) have employed a cadre of
An Air Force senior airman nails a cover on a roof of a home damaged by
                                                                          about 150 auditors, investigators, and inspectors who
Hurricane Katrina.
                                                                          have provided professional oversight of contracts and
                                                                          operations related to Hurricane Katrina relief and re-
                                                                          covery efforts.

                                 Audits       The DoD OIG has 11 ongoing audits related to Hurricane Katrina. These au-
                                              dits cover contracts on ice, water, temporary roofs, subsistence, and construction
                                              capabilities; expanded micro-purchase authority for purchase card transactions;
                                              effects on information technology resources in affected areas; accounting and
                                              oversight of obligations and expenditures related to DoD Hurricane Katrina ef-
                                              forts; and the use of DoD resources supporting recovery and relief efforts.

                                              Further, the AAA, the NAS, and the AFAA have provided audit oversight. These
                                              audit agencies currently have 13 ongoing audit projects that cover the areas of
                                              contracting, financial accounting and reporting, contract data reporting, and
                                              purchase cards.

                                              For example, the NAS reported on its review of the contract process used to
                                              award and administer four contracts involving chartered cruise ships to support
                                              Hurricane Katrina relief efforts. The review determined that the Military Sealift
                                              Command (MSC) met the requirements of Federal Acquisition Regulation,
                                              DoD, and Department of Navy policies. However, the review did disclose
                                              opportunities to improve the methods MSC uses to administer vessel preoc-
                                              cupancy inspections and invoice certification. MSC took actions to improve its
                                              methods in these areas during the audit.


                                                                                                 Office of the Inspector General 15
Hurricane Katrina

                                       DCAA is supporting both the Federal Emergency Management Agency (FEMA)
                                       and the Corps in its Hurricane Katrina recovery efforts. DCAA’s support to
                                       FEMA is focused on FEMA’s four largest reconstruction contractors: Bechtel,
                                       CH2M Hill, Fluor Federal, and Shaw Environmental. The audit effort has
                                       included forward pricing reviews, reviews of costs billed under Government
                                       contracts and preaward accounting system surveys, as well as support of Source
                                       Selection Evaluation Boards.

                                       DCAA also has provided direct support to the Corps emergency response mis-
                                       sion. DCAA provides professional advice on accounting and financial matters
                                       to assist in the negotiation, award, administration, repricing, and settlement of
                                       contracts. DCAA has been involved primarily in the Corps missions related
                                       to installation of temporary roofing (Blue Roof Mission) and debris removal
                                       (Debris Mission). This effort involves verifying contractor compliance with
                                       the terms and conditions of the contract. DCAA conducts audit steps such as
                                       on-site visits, physical observations, and verification of contractor records to
                                       ensure compliance with contractor policies and contract terms. For the Blue
                                       Roof Mission, DCAA’s findings have included lack of initial estimates on Right
                                       of Entry forms, claimed quantities in excess of actual physical roof area, incom-
                                       plete certified payroll records, and safety violations. For the Debris Mission,
                                       DCAA’s findings have included the need for improved observation tower loca-
                                       tions at dump sites, lack of standard procedures for determining the amount of
                                       debris hauled to dump sites, lack of controls over the billing process, and safety
                                       violations.

                                       These observations and recommendations are recorded and reported to the
                                       Corps on a real-time basis. The Corps has taken corrective action on an ongo-
                                       ing basis or is in the process of taking corrective actions with the responsible
                                       contractors.

                   Investigations In addition to audit coverage, DCIS has received 21 criminal allegations re-
                                       lated to Hurricane Katrina. Of the 21 allegations, 8 were determined to be
                                       unfounded; 3 were declined for prosecution; 3 were referred to other federal
                                       agencies; 1 is being examined to determine if a case initiation is warranted; and
                                       6 resulted in opened cases. The opened cases deal with bribery, kickbacks, and
                                       possible product substitution; three of these cases relate to debris removal, and
                                       one relates to blue roofs. The allegations originated from Government agencies,
                                       subcontractors, and private citizens.

                                       DCIS has also conducted 34 mission or fraud awareness briefings. Currently,
                                       DCIS is working joint investigations with the U.S. Army Criminal Investigation
                                       Command and the Federal Bureau of Investigation. In addition, DCIS is sup-
                                       porting the following groups:


16 Semiannual Report to the Congress
                                                                                                                Hurricane Katrina

                                                                                           · The Hurricane Katrina Fraud Task Force
                                                                                           Command Center, headquartered in Baton
                                                                                           Rouge, which consists of senior law enforce-
                                                                                           ment and U.S. Attorney’s Office personnel.
                                                                                           This group coordinates investigations and col-
                                                                                           lects and analyzes criminal investigative data.

                                                                                           · The joint law enforcement and U.S. Attorneys’
                                                                                           Offices working group headquartered in
                                                                                           Covington, Louisiana, and the Joint Criminal
                                                                                           Investigative Task Force headquartered in
                                                                                           Mississippi—both of which are looking into
                                                                                           hurricane-related fraud and corruption.
DCIS agents deployed to New Orleans, LA from September 5-18 to provide law
enforcement support to disaster relief operations pose after a long shift patrolling the
                                                                                     USACIDC, the Navy Criminal Investigative
city streets.
                                                                                     Service, and the Air Force Office of Special
                                                   Investigations have been performing missions in support of law enforcement
                                                   and military personnel and the overall Force Protection of DoD military and
                                                   civilian personnel involved in the relief efforts. Additionally, USACIDC is per-
                                                   forming general crimes investigations.

                                Hotline            In support of the Department of Homeland Security and the PCIE community,
                                                   the DoD OIG established the Hurricane Relief Fraud Hotline on October 4,
                                                   2005. The Hotline functions as a channel for logging, relaying, and tracking
                                                   incoming complaints and allegations of wrongdoing. These complaints come
                                                   to the Hotline through calls to an established toll free telephone number or via
                                                   fax, regular mail service, or e-mail. Staff from the Defense Hotline and detailees
                                                   from other Federal Agencies operate the Hotline.

                                                   Between October 5, 2005, and March 19, 2006, the Hurricane Relief Fraud
                                                   Hotline reported 9,664 total contacts, which include calls, email, letters, and
                                                   faxes. Of those total contacts, 5,017 cases were opened and forwarded to the
                                                   Department of Homeland Security for further review.

                                                   On March 20, 2006, control of the Hurricane Relief Fraud Hotline passed from
                                                   the DoD OIG to the Hurricane Katrina Fraud Task Force Command Center in
                                                   Baton Rouge, Louisiana.




                                                                                                           Office of the Inspector General 17
chapter 3 — management challenges
                      The Department of Defense (DoD) Office of Inspector General (OIG)
                      annually assesses the most serious management and performance chal-
                      lenges faced by the DoD based on the findings and recommendations of
                      audits, inspections, and investigations conducted during the year. The
                      Inspector General (IG) Summary of Management Challenges is included
                      in the DoD Performance and Accountability Report. In the Fiscal Year
                      2005 Performance and Accountability Report, the following challenges
                      were identified:

                      	       •   Joint Warfighting and Readiness
                      	       •   Homeland Defense
                      	       •   Human Capital
                      	       •   Information Technology Management
                      	       •   Acquisition Processes and Contract Management
                      	       •   Financial Management
                      	       •   Health Care
                      	       •   Infrastructure and Environment

                      United States forces continue to transform to meet the threats of the 21st cen-
joint warfighting     tury and beyond.  The continuing efforts of the Services, incorporating the
and readiness         lessons learned of Operations Iraqi Freedom and Enduring Freedom, focus
                      on evolving the armed forces to meet all threats, the traditional as well as
                      the unconventional.  The transformation efforts also include tailoring the
                      overseas presence of U.S. forces, and changing the footprint of our instal-
                      lations and activities globally to better position our forces to address the
                      evolving threat environment.  Furthermore, the United States finds itself
                      asking the armed forces to perform another new mission, conducting peace-
                      keeping and stabilization operations.  Although other management chal-
                      lenges encompass areas that directly affect joint warfighting and readiness
                      issues, these continuing challenges, combined with the other management
                      challenges, will determine the extent to which the United States will be able
                      to achieve its national objectives through joint operations.

             Audits   DoD OIG audits assessed enhanced operational movement and mobility
                      requirements in support of Joint Operations in the U.S. Pacific Command.
                      One report determined that U.S. Air Force bases lacked sufficient quantities
                      of airfield damage repair materials to conduct crater repair, and that stan-
                      dardized testing procedures had to be established and implemented before
                      serviceability of airfield runway repair materials could be determined. A
                      second report concluded that movement and mobility resources for ground
                      operations designated for the Korean Theater of Operations were not suffi-
                      cient. These resource limitations could subject U.S. forces to an unplanned
                      pause in operations that could jeopardize achievement of strategic and

                                                                     Office of the Inspector General 19
Management Challenges


                                                             operational plan objectives. Recommended improvements
                                                             will correct weaknesses identified in the reports.

                                                             The objective of another DoD OIG audit was to assess the
                                                             controls over the export of Joint Strike Fighter technol-
                                                             ogy. The audit determined that contractors were allowed
                                                             to: (1) designate personnel who had not received required
                                                             training as certifiers of exports; (2) avoid audits designed to
                                                             detect unauthorized releases of technology; and (3) disregard
                                                             assessments on the quality of export training. Consequently,
                                                             Joint Strike Fighter contractors incorrectly certified exports
                                                             to foreign companies, which may have resulted in foreign
                                                             companies gaining unauthorized access to Joint Strike Fighter
                                                             technology. Improving oversight controls as a result of the
                                                             audit will decrease the risk of contractors disclosing controlled
                                                             unclassified technical information to unauthorized foreign
                                                             companies.

                                                                     An Air Force Audit Agency (AFAA) report revealed that Prime
                                                                     Base Engineer Emergency Force (BEEF) personnel did not
                                                                     always receive required training to perform emergency and
                                                                     wartime duties. Specifically, 970 Prime BEEF personnel
                                                                     did not receive 5,404 of the 12,359 required training events
A Lockheed Martin X-35A Joint Strike Fighter concept demon-          needed to operate equipment, perform tasks, or defend them-
strator receives fuel from a U.S. Air Force KC-135 Stratotanker      selves. Additionally, Prime BEEF units were not completely
during a test mission over California’s Mojave Desert
                                                                     equipped to support contingency related operations. Twelve
                                                      of 18 units had equipment shortages for 606 of 5,337 assets valued at
                                                      $510,173. Finally, a survey of 545 recently deployed Prime BEEF person-
                                                      nel indicated that the Air Force needed to provide additional training in
                                                      specific areas and identified problems with equipment and supplies.

                                              A second AFAA report concluded that planners did not properly assess base
                                              capabilities to support wartime and contingency operations. Although plan-
                                              ning officials accomplished site plans for all but 2 of 11 locations reviewed,
                                              these plans were inaccurate and incomplete, and included discrepancies
                                              such as overstatements of available resources. Additionally, Air Force offi-
                                              cials did not adequately use the Logistician’s Contingency Assessment Tools
                                              (a system enabling automated, employment driven, agile combat support
                                              planning) to develop and oversee individual site plans. Auditors performed
                                              system implementation reviews at 11 locations and found that only 7 sites
                                              had installed the system, only 1 of the 7 sites was using critical system com-
                                              ponents, and only 5 of the 7 maintained their site plans in the system as
                                              required.


20 Semiannual Report to the Congress
                                                                 Management Challenges


homeland defense     The Department defines a threat as any circumstance or event with the
                     potential to cause harm. The Global War on Terrorism continues to height-
                     en the level of threat from adversaries of the United States. Direct threats to
                     the homeland infrastructure are obvious, and we have made a tremendous
                     effort to anticipate, prepare, and prevent those threats; however, a serious
                     challenge that continues to warrant our vigilance is that of chemical and
                     biological threats.

            Audits   Because Homeland Defense is a top priority area within the Department,
                     DoD OIG is reviewing how the Department is deterring, intercepting, and
                     defeating threats at a safe distance. Additionally, to make sure that the coor-
                     dination among the DoD audit community continues to be a strong bond,
                     DoD OIG continues to actively participate in the Homeland Defense Joint
                     Planning Group with the military service audit agencies and the Government
                     Accountability Office.

                     An Army Audit Agency (AAA) report found that the Army’s policy for pro-
                     gramming and budgeting for contract security guard requirements will be
                     effective at the Army’s ammunition installations. U.S. Army Field Support
                     Command used an acquisition process generally based on supportable
                     force protection requirements in order to supply force protection services
                     at installations.

                     AFAA performed an audit on contract security guards. Although it was
                     determined the guards were properly equipped, staffing requirements and
                     services received were not accurately validated, the security guards were not
                     all trained and licensed, and they did not always have proper background
                     checks. A review of 558 contract security guards disclosed that 154 had not
                     completed required training prior to starting work, 93 were not weapons
                     qualified, and 169 were neither state armed security guard certified nor had
                     they completed prerequisites required to be state certified and licensed. In
                     addition, contractors had not completed 253 pre-employment background
                     checks, 160 National Crime Information Center checks, and 87 National
                     Agency Checks.

                     An AFAA report stated that a review disclosed that fund managers did not
                     effectively control intelligence contingency funds (ICF). Although auditors
                     did not identify any evidence of inappropriate expenditures by Air Force
                     personnel, ICF managers did not: (1) authorize or adequately document
                     and support all ICF expenditures at 9 of 10 locations, (2) prepare and main-
                     tain complete and accurate quarterly management reports at 7 of 10 loca-
                     tions, and (3) control, account for, and safeguard ICF gift inventories at 4
                     of 5 locations.


                                                                    Office of the Inspector General 21
Management Challenges


                      Investigations   The Defense Criminal Investigative Organizations (DCIOs) actively partic-
                                       ipate in worldwide joint terrorism task forces, sharing and acting on infor-
                                       mation, and relying on the unique skills and investigative specialities of the
                                       participating organizations to ensure no potential threat goes unchecked.
                                       Examples of the DCIO’s mission initiatives and investigative accomplish-
                                       ments pertaining to the Global War on Terrorism are detailed in Chapter 1.
                                       Examples of DCIO efforts related to Homeland Defense follow.

                                       Focusing on critical national security related issues, the Defense Criminal
                                       Investigative Service (DCIS) created its National Security Program to pro-
                                       vide oversight of technology protection and homeland security/terrorism-
                                       related efforts and to conduct liaison with federal, state, and local agencies
                                       that share investigative jurisdiction over these matters in order to promote
                                       interagency cooperation and the exchange of criminal intelligence.

                                       DCIS also continues to build upon its newly developed criminal intelligence
                                       capability in furtherance of the National Criminal Intelligence Sharing Plan,
                                       which serves as a guide for the law enforcement and intelligence communi-
                                       ties to ensure the sharing of information and to “connect the dots.”

                                       In September 2005, DCIS hosted an Interagency Technology Protection
                                       Conference for members of the federal law enforcement and intelligence
                                       communities, as well as representatives from various Defense agencies with
                                       export control-related functions, to discuss matters of mutual concern relat-
                                       ed to the illegal transfer of DoD strategic technologies and U.S. Munitions
                                       List items to proscribed nations, criminal enterprises, and terrorist organiza-
                                       tions. Conference attendees received advanced training concerning export
                                       enforcement authorities and responsibilities, as well as training designed to
                                       enhance their ability to conduct investigations and operations in the pro-
                                       tection of designated DoD technologies and technical information from
                                       foreign and domestic threats.

                                       In May 2005, the Air Force Office of Special Investigations (AFOSI) began
                                       an aggressive campaign to interdict contraband and narcotics being smuggled
                                       aboard military transportation systems. Operation RUTHLESS RAVEN
                                       is an initiative to counter this smuggling threat. A task force comprised
                                       of agents, analysts, and data miners, was formed to identify vulnerabilities
                                       and indications of illegal smuggling activity. In addition to the task force,
                                       AFOSI organized a federal level working group consisting of the Military
                                       Criminal Investigative Organizations and other key federal law enforcement
                                       agencies to conduct liaison, share narcotics intelligence information, and
                                       conduct joint narcotics operations in an effort to detect and deter narcotics
                                       smuggling within the DoD. In October 2005, AFOSI conducted 17 flight


22 Semiannual Report to the Congress
                                                             Management Challenges


                inspections over a six-week period. Although no narcotics were found, the
                liaison established with other law enforcement agencies will be extremely
                helpful as AFOSI continues to target smuggling in the future.

                Examples of investigations involving Homeland Defense issues are high-
                lighted below.

                Erika Jardine, a non-DoD civilian, was sentenced to 6 months incarcera-
                tion, 3 years probation, and 500 hours of community service resulting from
                her guilty plea relating to illegal exportation of a munitions list item without
                a license and unauthorized sale of U.S. property. Jardine’s conviction was the
                result of a joint undercover operation that discovered that Jardine illegally
                exported Small Arm Protective Insert (SAPIs) body armor that she acquired
                from U.S. military members. Subsequent to her arrest, Jardine provided
                information that led to the arrest of nine U.S. Marines and the recovery
                of 104 SAPI plates, 14 Outer Tactical Vests, and other military equipment
                valued at $63,100.

                Arif Durrani, an employee of the Aerospace Logistics Services S.A. de CV,
                Mexico, was convicted of four counts of exporting defense articles without
                a license, and one count of conspiracy to commit offenses against the U.S.
                A joint investigation developed information that Durrani, a Pakistani native
                and legal resident of Mexico, was shipping General Electric J-85 jet engines
                from the United States without the required export license. Durrani’s sen-
                tencing is scheduled for June 2006.

                Kal Nelson Aviation, Inc., a major DoD contractor, pled guilty to violating
                the Arms Export Control Act and agreed to pay a one million dollar fine. An
                investigation of the California company was initiated based upon the com-
                pany’s alleged shipment of International Trafficking in Arms Regulations
                (ITAR) controlled F-5 Tiger fighter aircraft components to a company
                located in Southeast Asia without required export licenses. The investiga-
                tion revealed that additional ITAR controlled F-14 fighter aircraft and LQ-
                5 military missile parts were shipped to the same location in Asia without
                required licenses.

Human Capital   The premier challenge with human capital is to make sure that DoD civilian
                and military work forces are sized appropriately, well trained and motivated,
                held to high standards of integrity, and able to function in an integrated
                work environment and handle the emerging technologies and threats of the
                21st century. The Department employs more than 3.28 million civilian
                and military personnel. The challenges of managing such a large work-
                force, to include oversight of contractor personnel, highlight the need for


                                                                Office of the Inspector General 23
Management Challenges


                                       DoD to identify and maintain a balanced level of skills to sustain core
                                       defense capabilities and meet the ever evolving challenges and threats of the
                                       21st century.

                                       The DoD is designing a new civilian human resources management sys-
                                       tem to better support its critical national security mission. The National
                                       Security Personnel System will change how DoD hires, evaluates, pays, and
                                       disciplines its civilian workforce in order to more closely resemble personnel
                                       practices in the private sector.

                             Audits    Because human capital is a critical area within the Department, the DoD
                                       OIG human capital audit team is conducting a review of the Personnel
                                       Security Clearance process. Additionally, to make sure that the DoD audit
                                       community is well coordinated, DoD OIG continues to actively participate
                                       in the Human Capital Joint Audit Planning Group with the military service
                                       audit agencies and the Government Accountability Office.

                                       AAA reported that unnecessary inactive time could not be minimized
                                       because training installations generally were not accurately or consistently
                                       recording the time soldiers spent in an inactive status in the Army Training
                                       Requirements and Resources System. Lacking reliable data, managers were
                                       not able to determine whether the size and average length of time their
                                       soldiers spent in an inactive status was efficient when compared with other
                                       schools. In addition, the lack of reliable data prevented senior leadership
                                       from identifying schools that were having problems managing inactive ini-
                                       tial entry training soldiers or schools with efficient processes that could be
                                       benchmarked and applied elsewhere.

                                       A Naval Audit Service (NAS) audit determined that the methodology used
                                       to conduct Enlisted Community Reviews was reasonable, valid, and con-
                                       sistently applied. The methodology provided a vertical view of manpower
                                       requirements and listed military billets for civilian substitution or outsourc-
                                       ing. Four enlisted communities totaling 20,777 billets were audited to vali-
                                       date the Department of Navy reviews. The reviews identified 1,434 billets
                                       that could be studied for possible outsourcing or civilian substitution for
                                       a potential $113 million of funds put to better use over the Future Years
                                       Defense Plan.

                                       An AFAA audit concluded that all 236 minority and female pilot candidates
                                       reviewed were afforded an equal opportunity of selection, and pilot selec-
                                       tion boards ranked candidates based on a “whole person” concept; therefore,
                                       gender and ethnicity did not influence pilot candidate selection. However,
                                       pilot selection methods did not always obtain the best qualified pilot can-


24 Semiannual Report to the Congress
                                                              Management Challenges


                 didates. In addition, pilot selection methods did not help to lower pilot
                 training attrition rates and therefore costs. Specifically, 227 of 944 candi-
                 dates selected for undergraduate pilot training during FY 2004 did not meet
                 the minimum Pilot Candidate Selection Method score of 50 required for
                 Officer Training School pilots, and 17 of the 944 candidates did not meet
                 the minimum required Air Force Officer Qualifying Test score of 25. By
                 implementing a minimum Air Force Officer Qualifying Test score of 50,
                 the Air Force could lower its pilot training attrition rates and put more than
                 $4 million in pilot training costs currently lost to attrition to better use over
                 the six-year Future Years Defense Plan.

                 An AFAA report identified no issues with the Undergraduate Pilot Training
                 curriculum or training methods that would have increased attrition.
                 However, a survey of 39 candidates eliminated from Undergraduate Pilot
                 Training in FY 2004 and a records review of 89 candidates eliminated from
                 Undergraduate Pilot Training during FYs 2004 and 2005 indicated that the
                 Introduction to Flying Training program did not adequately screen pilot
                 candidates to identify individuals with the greatest chance of completing
                 the training. This would have decreased overall pilot training attrition. The
                 report also disclosed that pilot training methods did not have a negative
                 impact on diversity. Although FY 2004 female attrition rates were compa-
                 rable to males, a significant disparity in attrition still existed between minor-
                 ity and non-minority groups. However, the auditors could not attribute the
                 higher minority attrition to pilot training methods.

Investigations   Started in March 2005, the AFOSI Deployment Stress Management Program
                 (DSMP) aims to reduce the psychological impact on AFOSI members and
                 their families being deployed to high threat areas by providing education
                 and support prior to, during, and after deployment. During this report-
                 ing period, approximately 74 returning AFOSI members went through the
                 Redeployment Center at Ramstein AB, Germany, where they spent 2 days
                 decompressing and reintegrating with the assistance of a clinical psycholo-
                 gist. A new initiative of the DSMP involved arranging meetings at various
                 locations in the continental U.S. and overseas, with AFOSI members who
                 deployed prior to the start of the DSMP in 2005. These “Lessons Learned”
                 sessions were designed to provide education on post-deployment stress and
                 Post-Traumatic Stress, as well as to elicit suggestions and information to
                 make the DSMP better and more helpful to AFOSI members deploying in
                 the future. The AFOSI DSMP is not meant to replace other services avail-
                 able in the USAF, such as Family Support and Life Skills, but to supplement
                 these services and ensure members are aware of available services and are
                 referred as needed.



                                                                 Office of the Inspector General 25
Management Challenges


                                       An Air Force assessment following the publicity pertaining to sexual
                                       assault incidents at Sheppard Air Force Base, Texas, highlighted concerns
                                       about timely evidence processing/examination at the U.S. Army Criminal
                                       Investigations Laboratory (USACIL). In response to these concerns, the
                                       Vice Chief of Staff, Headquarters U.S. Air Force, directed that efforts be
                                       undertaken to reduce the length of time it takes to process/examine DNA
                                       evidence in sex-related cases. The Air Force is providing approximately 1
                                       million dollars annually to fund 10 scientific analyst positions at USACIL
                                       to help improve evidence processing timeliness. In addition, the Air Force
                                       hired a contractor representative to help facilitate procedural and processing
                                       improvements for Air Force evidence sent to USACIL.

                        Inspections    Evaluation of DoD’s Voting Assistance Program (VAP). On March 31, 2006,
                                       the DoD OIG released its annual VAP report. The IGs of the Military
                                       Departments reported that the calendar year 2005 DoD voting assistance
                                       programs were effective generally in accordance with Section 1556, Title
                                       10, United States Code. Based on surveys, interviews, analyses of respective
                                       Service’s reports, and the results of unannounced visits to 10 DoD installa-
                                       tions, the evaluation team concluded that there are opportunities to improve
                                       how voting information and materials are provided to absentee voters. Since
                                       communications and availability of voting information and materials are key
                                       elements for an effective voting program, the team recommended that the
                                       Federal Voting Assistance Program Office and the military services improve
                                       their voting assistance web sites.

                                       Revolving Door-Post Government Service Employment Survey. Compliance
                                       with restrictions on post-government employment activities is a challenge
                                       the Department faces as it strives to maintain a high standard of integrity
                                       and public confidence. Disclosure of a Pentagon’s acquisition official’s viola-
                                       tion of post-employment guidelines prompted members of Congress and
                                       senior level DoD officials to question whether current training and informa-
                                       tion provided to employees are sufficient to prevent similar irregularities.
                                       The Government Accountability Office issued an April 2005 report on the
                                       “Defense Ethics Program: Opportunities Exist to Strengthen Safeguards for
                                       Procurement Integrity,” which stated the DoD lacks information to evalu-
                                       ate the DoD training and counseling process. The DoD OIG, in partner-
                                       ship with a civilian contractor, recently completed a Web based survey to
                                       measure the awareness and attitudes of DoD senior officials and acquisi-
                                       tion force regarding post-Government service employment restrictions. The
                                       DoD OIG will publish the findings in its next Semiannual Report to the
                                       Congress.




26 Semiannual Report to the Congress
                                            Management Challenges


Evaluation of DoD Safety Program. Beginning in 2001, the Secretary of
Defense launched an executive assessment of the DoD safety program and
challenged the senior leaders to reduce in 2 years the accident mishap rate
by 50 percent. Overall responsibility for the project was tasked to the Under
Secretary of Defense for Personnel and Readiness, who subsequently char-
tered the Defense Safety Oversight Council (DSOC) to facilitate oversight
of DoD’s efforts to achieve the Secretary’s goal. In late 2004, DSOC delib-
erations concluded the 50 percent reduction goal may not be achievable.
Recognizing this possibility, the Deputy Under Secretary of Defense for
Readiness requested the DoD IG’s assistance to conduct an evaluation/review
of the DoD safety program. In November 2004, the DoD OIG announced
an evaluation plan that addresses all aspects of the safety program—culture,
leadership, policies, organization structure, resources, exceptional practices,
and lessons learned. To achieve the evaluation objectives, the DoD OIG
team partnered with the National Safety Council, the Services’ safety cen-
ters, the Reserve Component safety offices, and many safety experts in and
out of government. Over 90 interviews have been conducted with DoD
civilian and military leaders. During the evaluation process, the team has
communicated interim reports to program stakeholders and the DSOC. In
March 2006, the Assistant Inspector General for Inspections and Evaluations
briefed the DSOC and recommended program improvements that can be
implemented now and before the final report is published.

Follow-up Evaluation of DoD’s Chaplain Program. On November 10, 2004,
the DoD OIG published their “Evaluation Report on the DoD Chaplain
Program.” As a follow-up effort to that report, the DoD OIG conducted
an evaluation of the implementation of the report’s recommendations. As
described in a February 28, 2006, management letter to the Under Secretary
of Defense for Personnel and Readiness, management has fully implemented
all but one of the recommendations.

Alcohol Abuse and Prevention Study. At the request of the Vice Chief of
Naval Operations (VCNO), the Naval Inspector General (NAVINSGEN)
conducted a review of the Navy’s Alcohol Abuse and Prevention Program.
NAVINSGEN found in the DoD Survey of Health Related Behaviors
from 1980 to 2002, alcohol abuse in the Navy declined 25 percent, but
still showed 40 percent of Navy personnel classified as moderate/heavy and
heavy drinkers in 2002. The decline was reported to be primarily a result of
the changing socio-demographics (e.g., more females, slightly older, more
married) of the Navy and not the Navy’s program efforts. Results of the next
DoD survey are scheduled to be released in 2006. Navy internal data shows
an increase in alcohol related incidents from 2002 to 2005. NAVINSGEN
found the Navy’s primary alcohol prevention tools are education and train-


                                               Office of the Inspector General 27
Management Challenges


                                       ing which are dated and ineffective. Current research indicates that educa-
                                       tion and training alone are costly and ineffective in reducing alcohol abuse.
                                       From this study, numerous recommendations are currently being staffed for
                                       implementation by the Navy, including creating a comprehensive alcohol
                                       abuse prevention strategy with clear lines of responsibilities, establishing
                                       disciplinary guidelines when misconduct occurs due to alcohol abuse, and
                                       updating training to meet current research guidelines.

                                       Navy’s Family Ombudsman Program Study. At the request of the VCNO,
                                       NAVINSGEN conducted a review of the Navy’s Family Ombudsman
                                       Program and made recommendations on how the Navy can improve the
                                       current program. NAVINSGEN reaffirmed that the Ombudsman Program
                                       plays a key role in Navy family and mission readiness, and that for the most
                                       part the program is successful. The study found that the vast majority of
                                       deployable units have an Ombudsman Program in place, but that a signifi-
                                       cantly lower percentage of non-deploying (e.g., shore based, staff, Reserve,
                                       Recruit) units had a program. The study also found that although the Navy
                                       views the program as vital to the success of family (and therefore mission)
                                       readiness, the Navy, as a whole, does not fully understand nor appreciate the
                                       resources and capabilities the Ombudsman Program can provide to Navy
                                       families. The primary contributing factors negatively affecting the success
                                       of the Ombudsman Program include lack of adequate command leadership
                                       knowledge of the program’s capabilities, poor orientation to Sailors and their
                                       families to the program, and strained resources for program management and
                                       unit-level execution. From this study, the Navy is staffing numerous recom-
                                       mendations for implementation, including increasing training of leadership,
                                       improving outreach, program visibility and knowledge of ombudsman capa-
                                       bilities to Navy families, and efforts to ensure all Navy families have access
                                       to an ombudsman.

Information                            The DoD Components use information technology (IT) to support all mis-
                                       sion functions of the Department, including business, warfighting, intelli-
technology                             gence, and enterprise infrastructure. Effective planning for IT investments
management                             has emerged as a priority of the President’s Management Agenda for expand-
                                       ing electronic government. Improving IT security as part of IT management
                                       is one of the highest priorities of the Office of Management and Budget
                                       (OMB). The DoD OIG plans to continuously audit and monitor IT man-
                                       agement, investment, and security within DoD.

                             Audits    The magnitude of the IT management challenge continues to be extreme-
                                       ly problematic for the Department. A root cause of this difficulty is the
                                       inability of the Department to provide clear guidance to components on IT
                                       management issues such as defining what constitutes an IT system, deter-


28 Semiannual Report to the Congress
                                                                                                   Management Challenges


                                                 mining security standards needed for certifying systems, documenting and
                                                 reporting identified security weaknesses to higher management (to include
                                                 OMB), and specifying what assets to include in the inventory of the Global
                                                 Information Grid (GIG). Further, the Department continues to signifi-
                                                 cantly underreport expenditures for IT because it is unable to identify the
                                                 initiatives and investments it supports (other than through a self-reporting
                                                 mechanism that lacks internal controls) and has no comprehensive inven-
                                                 tory of IT systems to support its reports to OMB and Congress regarding
                                                 system security, privacy, and e‑authentication.

                                                 A DoD OIG report identified that DoD components did not accurate-
                                                 ly report the same IT system security data in the IT Registry and the IT
                                                 Management Application databases. As a result, DoD, OMB, and congres-
                                                 sional committees are making management decisions concerning technolo-
                                                 gy operations, investments, security, interoperability, and architecture, based
                                                 upon erroneous information contained in DoD databases.

                                                                  Another DoD OIG report found that Missile Defense
                                                                  Agency (MDA) officials had not prepared a System Security
                                                                  Authorization Agreement for the Ground-Based Midcourse
                                                                  Defense Communications Network. As a result, MDA offi-
                                                                  cials may not be able to reduce the risk and extent of harm
                                                                  resulting from misuse or unauthorized access to or modi-
                                                                  fication of information of the Ground-Based Midcourse
                                                                  Defense Communications Network, and they also may not
                                                                  be able to ensure the continuity of the network in the event
                                                                  of a disruption.

                                                                          An AAA report determined that the Army did not desig-
                                                                          nate the Joint Network Node (JNN) as an official program
                                                                          of record and developed the system in an informal manner
                                                                          with limited documentation. The Army did not assign JNN
                                                                          an acquisition category, prepare a test and evaluation mas-
                                                                          ter plan, conduct operational testing, hold formal milestone
                                                                          decision reviews, or develop a plan for evaluating secure
                                                                          cellular technology to see if it could be inserted into Army
                                                                          battlefield systems to improve voice communications on the
                                                                          move. The Army Vice Chief of Staff directed further analy-
                                                                          ses of JNN, which resulted in a strategy that allows for earlier
                                                                          insertion of technological developments that will be used in
                                                                          the Warfighter Information Network-Tactical program and
A payload launch vehicle carrying a prototype exoatmospheric kill
vehicle is launched for a planned intercept of a ballistic missile target
                                                                          the identification of a decrement of about $710 million.
over the central Pacific Ocean.


                                                                                                      Office of the Inspector General 29
Management Challenges


                                       An AFAA audit found that (1) Defense Travel System (DTS) managers,
                                       where possible, modified the DTS implementation schedule to eliminate
                                       duplicate travel systems; (2) Air Force financial managers eliminated the
                                       contractor-maintained Integrated Automated Travel System and replaced it
                                       with the existing Reserve Travel System; and (3) reserve component per-
                                       sonnel jointly eliminated, where possible, development efforts pertaining to
                                       each Component’s order writing system. As a result, the Air Force reduced
                                       the number of active travel systems from 11 to 5. Once the Air Force fully
                                       implements DTS, only three travel systems will remain--DTS and two sys-
                                       tems supporting the Reserves and the Guard.

                      Investigations   DCIO agents regularly coordinate and train with other national intelligence
                                       and law enforcement agencies involving counterintelligence, criminal and
                                       fraud computer-evidence processing, analysis, and diagnosis in computer
                                       investigations and computer forensics. Various information technology
                                       programs are depicted below.

                                       The DCIOs continued to provide a full-time representative to the Joint Task
                                       Force for Global Network Operations (JTF-GNO), Law Enforcement and
                                       the Counterintelligence Center (LECIC), in Arlington, Virginia. The JTF-
                                       GNO is tasked with defending the DoD’s Global Information Grid, while
                                       the LECIC works to deconflict criminal and counterintelligence computer
                                       intrusion investigations among the DCIOs, Army Military Intelligence, and
                                       the Counterintelligence Field Activity (CIFA). The DCIS representation is
                                       the current chief of the LECIC.

                                       DCIS also moved forward with a host of sweeping initiatives to professional-
                                       ize its Computer Crimes Program. A new set of policies and procedures forms
                                       the foundation for these initiatives, based on the philosophies of “Flexible
                                       Standardization” and “Dynamic Professionalism.” Flexible Standardization
                                       grants DCIS a certain degree of latitude in employing procedures predicated
                                       on over‑arching general best practices. Dynamic Professionalism consists
                                       of progressive and continuous efforts to ensure that personnel are properly
                                       trained and proficient, deliver legally sufficient work products that add value
                                       to investigations, and exceed customer service expectations. During this
                                       reporting period, DCIS computer crimes agents provided computer foren-
                                       sics support to over 100 DCIS investigations.

                                       For example, in Colorado, Rafael Nunez-Aponte, a Venezuelan national,
                                       was convicted of illegally accessing and intentionally damaging a protected
                                       computer system belonging to the DoD. He was sentenced to 7 months
                                       imprisonment, and was required to pay restitution of $10,548. A joint
                                       investigation led to the identification and prosecution of Nunez-Aponte and


30 Semiannual Report to the Congress
                                                                     Management Challenges


                         several others affiliated with “World of Hell,” a group of computer hackers
                         who assisted each other with intrusions they made into government, busi-
                         ness, and corporate computers.

                         The DoD continues its distinction as the world’s largest purchaser of goods
acquisition              and services. In FY 2005 alone, DoD spent $267 billion on contract actions.
processes and            There are about 1,300 weapon acquisition programs valued at $2.3 trillion
contract                 over the collective lives of these programs. In addition, during FY 2005,
                         DoD submitted approximately 49,000 Military Interdepartmental Purchase
management               Requests, valued at $6 billion, to the General Services Administration,
                         Department of Transportation, and Department of Interior for the purchase
                         of goods and services. Every acquisition dollar that is not prudently managed
                         results in that dollar not being available to fund the Secretary of Defense’s
                         top priorities, such as the GWOT and joint warfighting capabilities.

                Audits   The DoD OIG conducted an acquisition review of the Objective Individual
                         Combat Weapon (OICW) to determine whether internal controls in the
                         DoD 5000 series of guidance were effectively being implemented. The
                         audit disclosed that the Army acquisition community prematurely initiated
                         actions to begin acquisition of Increment I of the OICW before the require-
                         ments community validated that the warfighter had a need for the weapon.
                         Increment I was the basis for a family of small arms, including replace-
                         ment of the M16 and M4 family of small arms, the M249 squad automatic
                         weapon, and selected M9 pistols. As a result of the audit, the Army can-
                         celled the request for proposal for Increment I and was reassessing its total
                         small arms capability gaps and materiel requirements. As of March 2006,
                         the Army has already put $36 million to better use by delaying the acquisi-
                         tion of Increment I and could put another $566 million to better use if the
                         Joint Requirements Oversight Council does not validate a requirement for
                         Increment I. Army enforcement of the internal controls in the DoD 5000
                         series of guidance would have prevented this situation from occurring.

                         Similarly, DoD OIG reported that the Navy is at risk on the acquisition of
                         the Common Submarine Radio Room by not adhering to internal controls
                         in the DoD 5000 series of guidance. Specifically, the Navy Acquisition
                         Executive approved the program for entry into low-rate initial production
                         in June 2005 before obtaining an assessment of the operational effectiveness
                         and suitability of the system as required. As a result, the Navy has increased
                         the risk that initial production units will not perform as intended and will
                         require retrofit costs associated with fielded and deployed units. Again, Navy
                         adherence to requirements in the DoD 5000 series of guidance would have
                         provided assurance that the fielded units met warfighter requirements.



                                                                        Office of the Inspector General 31
Management Challenges


                                                    A DoD OIG report on the Ballistic Missile Defense System found that the
                                                    DoD audit community continued to identify ways that the Department
                                                    could improve acquisition of weapon system programs, including iden-
                                                    tifying system engineering requirements and planning fully for system
                                                    sustainment.

                                                                                              An AAA report concluded that the
                                                                                              current logistics support contract
                                                                                              for Stryker vehicles included suffi-
                                                                                              cient incentives to ensure that the
                                                                                              contractor provided needed ser-
                                                                                              vices, but did not include sufficient
                                                                                              incentives to ensure the contractor
                                                                                              controlled costs. The report also
                                                                                              found that the Army faces signifi-
                                                                                              cant risk in relying on the life-cycle
                                                                                              support cost estimates to support a
                                                                                              decision on long-term logistics sup-
                                                                                              port for the Stryker vehicles because
                                                                                              enough information is not avail-
                                                                                              able to reliably estimate the cost
                                                                                              of logistics support or to evaluate
                                                                                              the difference between the support
Army Stryker vehicles kick up plumes of dust as they conduct a patrol near Mosul, Iraq.       alternatives.

                                                    An AFAA review of preliminary planning guidance and criteria for OMB
                                                    Circular A-76 determined that the guidance did not provide field activities
                                                    adequate direction for implementing the revised May 2003 OMB circular.
                                                    Specifically, the guidance did not adequately address the areas of baseline
                                                    costing period, collecting support contract costs, criteria on capital assets, or
                                                    clearly establish firewalls between Performance Work Statement and Most
                                                    Efficient Organization teams. Additionally, the guidance did not provide
                                                    implementing organizations with adequate direction to address baseline
                                                    costing issues inherent in the standard DoD costing software program.

                                                    An AFAA report disclosed that major commands and direct reporting units
                                                    provided inaccurate and incomplete support contract data in response to the
                                                    annual President’s Budget Exhibit 15 (PB-15) and the Air Force Vice Chief
                                                    of Staff data calls. Specifically, actual FY 2004 obligated dollars reported
                                                    were misstated, and both future year support contract cost projections and
                                                    contract man-year equivalents were erroneously calculated. As a result, the
                                                    contractor support data were of limited use for Air Force corporate decision-



32 Semiannual Report to the Congress
                                                                  Management Challenges


                      making purposes, and furthermore these errors and omissions resulted in
                      erroneous PB-15 reporting to Congress.

                      DoD Directive 7640.2, “Policy for Follow-up on Contract Audit Reports,”
                      as amended August 16, 1995, prescribes DoD policies and procedures,
                      including the requirement that reports be resolved within 6 months of issu-
                      ance and closed within 12 months. At the end of this semiannual reporting
                      period, 471 reports with costs questioned of about $1.2 billion exceed the 6
                      month requirement for resolution and 277 reports with costs questioned of
                      $807.6 million exceeded the 12 month requirement and were not closed.

financial             The DoD financial statements are the largest, most complex, and most diverse
                      financial statements in the world. The Department faces financial manage-
management            ment problems that are complex, long‑standing, pervasive, and deeply root-
                      ed in virtually all business operations throughout the DoD. These problems
                      have hindered the ability to provide reliable, timely, and useful financial and
                      managerial data to support operating, budgeting, and policy decisions.

                      The DoD OIG is working closely with the Department to address long-
                      standing financial management problems and supports the DoD goal of
                      achieving a favorable audit opinion for the DoD Agency-wide financial state-
                      ments and the major DoD Components. The Under Secretary of Defense
                      (Comptroller)/Chief Financial Officer (CFO) issued the DoD Financial
                      Improvement and Audit Readiness Plan as part of an initiative to improve
                      financial management within the Department. The DoD OIG supports the
                      objective of the plan, which is to provide ongoing, cross-functional collabo-
                      ration with DoD Components that will yield standardized accounting and
                      financial management processes, business rules, and data to better support
                      the war-fighting mission in a more effective environment. DoD OIG also
                      supports the Department’s ongoing efforts to target achievable, incremen-
                      tal change and to initiate the change necessary for continual, sustainable
                      improvement in financial management.

             Audits   The DoD OIG issued disclaimer opinion reports, and related reports on
                      internal control and compliance with laws and regulations, on the FY 2005
                      DoD Agency-wide financial statements and seven other component finan-
                      cial statements whose audits are required by OMB. In addition, DoD OIG
                      issued an unqualified opinion on the FY 2005 Military Retirement Fund
                      financial statements and a qualified opinion on the FY 2005 Medicare-
                      Eligible Retiree Health Care Fund financial statements. The DoD OIG cited
                      the following material internal control weaknesses in the DoD Agency-wide
                      report: financial management systems; fund balance with Treasury; inven-
                      tory; operating materials and supplies; property, plant, and equipment; gov-


                                                                     Office of the Inspector General 33
Management Challenges


                                       ernment-furnished material and contractor-acquired material; environmen-
                                       tal liabilities; intragovernmental eliminations; accounting entries; Statement
                                       of Net Cost; and Statement of Financing. DoD OIG also issued reports on
                                       the FY 2005 DoD Agency-wide special purpose financial statements and the
                                       FY 2005 intragovernmental agreed-upon procedures required by OMB.

                                       The DoD OIG issued reports on six DoD financial systems. In performing
                                       the audits, we tested the design and operating effectiveness of the controls
                                       in operation. The controls in place to ensure compliance with DoD infor-
                                       mation assurance policies appeared to be suitably designed, but tests of the
                                       design and operating effectiveness indicated inconsistencies in the adherence
                                       to DoD policies. Specifically, DoD OIG found design control weaknesses
                                       regarding access controls in the areas of user and access rights, physical and
                                       logical controls to detect unauthorized access, and audit trails. Additionally,
                                       tests of operating effectiveness identified primary deficiencies in authoriza-
                                       tion, completeness, change controls, and configuration management.

                                       In addition to the reports on internal control and compliance with laws
                                       and regulations that DoD OIG issued with the financial statement
                                       opinion reports, DoD OIG also issued individual audit reports on the
                                       Department’s internal controls and compliance with specific laws and reg-
                                       ulations. One DoD OIG audit report on the Department’s compliance
                                       with the Government Performance and Results Act (GPRA) of 1993 iden-
                                       tified specific GPRA requirements with which the Department’s FY 2001
                                       strategic plan did not comply. The report contained recommendations for
                                       preparing the next required strategic plan which the Department issued in
                                       February 2006, two months after the DoD OIG issued its final report. The
                                       Department commented that the deficiencies cited in the report would be
                                       corrected in the new strategic plan, and DoD OIG will audit the new plan
                                       during the second half of FY 2006 to evaluate the Department’s compliance
                                       with GPRA requirements.

                                       Another DoD OIG audit report detailed internal control weaknesses in
                                       the Air Force General Fund disbursement cycle that resulted in violations
                                       of several laws and regulations. Specific laws and regulations cited in the
                                       report include the Antideficiency Act, Emergency Wartime Supplemental
                                       Appropriations Act, Federal Acquisition Regulation, Defense Federal
                                       Acquisition Regulation Supplement, and Air Force Instructions.

                                       Another DoD OIG report determined that the National Committee for
                                       Employer Support of the Guard and Reserve (ESGR) did not adequately
                                       administer and manage aspects of its operations, specifically in the areas
                                       of control environment and personnel management, travel and expense


34 Semiannual Report to the Congress
                                              Management Challenges


accountability, and acquisition and contracting. The report also found that
contracting procedures in support of ESGR operations were not followed.
Specifically, a sole source justification was not properly certified, out‑of‑scope
activity was allowed, surveillance was inadequate, and an effective ordering
and receiving process for fulfillment contracts was not established. As a
result, ESGR cannot be assured that it received the best contracting solu-
tions and paid fair and reasonable prices for goods purchased. Further,
ESGR cannot be assured that the contractor performed the requirements of
the contract and that ESGR received the goods purchased. Recommended
improvements in the areas of management accountability and control, and
following contracting procedures will enable ESGR to operate more effec-
tively and efficiently.

The Senate Select Committee on Intelligence requires audit opinions on
the FY 2007 Defense Intelligence Agency, National Security Agency, and
National Geospatial-Intelligence Agency financial statements. In anticipa-
tion of this requirement, DoD OIG issued classified reports with recom-
mendations to improve the financial management and internal controls at
these agencies. The DoD OIG will followup on prior recommendations
and conduct additional financial-related audits and reviews of internal con-
trols of these intelligence agencies in FY 2006 to prepare for the FY 2007
financial statement audits.

An AAA report found that the Project and Contracting Office’s (PCO) finan-
cial management system and processes were effective generally for ensuring
the accurate recording of commitments, obligations, and disbursements.
However, control weaknesses that were related to the handling of military
interdepartmental purchase requests, making nonconstruction contract pay-
ments and Iraqi vendor payments, and reviewing fund status did exist. The
report also found that the PCO generally had adequate controls to ensure
that operating costs were recorded properly. However, the PCO needed to
maintain more supporting documentation; improve the timeliness and cod-
ing of contract transactions; improve the process for submitting, approving,
and reconciling timecards; and monitor funds status at a budget line item
level.

An AFAA report concluded that Air Force financial managers could improve
the capital lease accounting process. Specifically, financial managers estab-
lished and maintained effective capital lease valuation procedures; however,
they could increase reliability over the capital lease accounting process by
developing and instituting procedures to periodically verify that financial
reports accurately included all capital lease activities. Management initi-
ated and completed corrective actions during the audit to adjust accounting


                                                 Office of the Inspector General 35
Management Challenges


                                       records to reflect only current capital leases and to validate the completeness
                                       of capital leases reported.

                                       The AFAA conducted an audit to determine whether Air Force financial
                                       records fairly presented selected aspects of General Fund accounts pay-
                                       able owed to the public. The audit concluded that Defense Finance and
                                       Accounting Service (DFAS) personnel did not establish and maintain effec-
                                       tive internal controls and processes for summarizing and adjusting accounts
                                       payable data. Specifically, personnel did not (1) appropriately reconcile
                                       monthly data, (2) effectively develop a month-end data transfer process, (3)
                                       report all monthly accounts payable transactions, and (4) properly retain
                                       adjusting transaction support. Management took action during the audit
                                       to research variances and successfully identified processing procedure errors,
                                       reaccomplished reconciliations for the audited period, and established and
                                       documented business rules, thereby improving the overall summarization
                                       process.

                     Investigations    The DoD loses millions of dollars annually because of financial crime, pub-
                                       lic corruption, and major thefts. Through the investigative efforts of DCIO
                                       special agents, abuses in the procurement process, such as the substitution
                                       of inferior products, overcharges, bribes, kickbacks, and cost mischarging,
                                       are exposed. Additionally, the DCIOs have partnered with acquisition and
                                       financial agencies to proactively identify areas of vulnerability. Examples of
                                       DCIO efforts to combat financial threats to DoD follow.

                                       The DoD OIG Data Mining Directorate, DFAS, and the DCIS have teamed
                                       together to identify DoD freight transportation payment systems that are
                                       vulnerable to fraud and other abuse. PowerTrack, an Internet-based freight
                                       payment system, is the DoD’s primary method for paying for freight trans-
                                       portation and has streamlined the payment process by electronically allow-
                                       ing carriers to bill shippers for payment.

                                       An investigation was initiated based upon information from a newspaper
                                       article that alleged that a DoD contractor purchased Congressman Randall
                                       “Duke” Cunningham’s house at an inflated price and later sold the house
                                       at a loss of $700,000. It was further alleged that the Congressman was
                                       living rent free on the same contractor’s boat. Investigation revealed that
                                       Congressman Cunningham made recommendations and took other official
                                       action in order to influence the U.S. Congress’ appropriation of funds to
                                       benefit the DoD contractor in exchange for money, travels, antiques, fur-
                                       nishings, and other things of value. On November 28, 2005, Cunningham
                                       entered into a plea agreement and pled guilty to conspiracy and tax evasion.
                                       After entering his plea, Cunningham resigned from Congress and in March


36 Semiannual Report to the Congress
                                            Management Challenges


was sentenced to 100 months confinement, followed by 3 years of super-
vised probation. He was also ordered to make restitution of $1,804,031 for
back taxes, and to forfeit $1,851,508 in real estate and other property he
received as bribes.

A joint investigation, based on information filed in a qui tam law suit, found
that Hexcel Corporation engaged in a conspiracy with other defendants to
fix prices and divide the market on materials used in many DoD and aero-
space programs, as well as commercial applications. The company agreed
to pay the Government $11.5 million as part of a settlement agreement to
resolve the allegations and avoid civil litigation. The agreement also required
the contractor to pay $1 million to the relator’s for fees, cost, or expenses.
Previous settlement agreements were reached in this investigation with four
other Defense contractors totaling $35 million to resolve the same allega-
tions. These companies also were required to pay the relator’s for fees, costs,
or expenses in the amount of $3.8 million in connection with the qui tam
action.

Linda, Stephanie and Fred Marlow, the wife, daughter and father of Kevin
Marlow, a contracting officer with the Defense Information Systems Agency
(DISA), and David Tynio, a graphics company owner and a DoD sub-con-
tractor, were sentenced to a total of 50 months confinement and 36 months
probation, and ordered to pay $54,871 in restitution. An investigation
revealed that the contracting officer orchestrated a scheme to steer $18.1
million in contracts, and directed that $500,000 in bribery payments be
made to his company and several “straw” companies that were established to
serve as conduits to mask the bribery payments.

Gene Boyce, Stephen Wiley and Barbara Spellar, two former DoD employ-
ees and an employee of a DoD contractor pled guilty to charges of con-
spiracy and conspiracy to accept illegal gratuities. They were sentenced to a
total of 71 months confinement, 108 months probation, and 200 hours of
public service. An investigation revealed that two freight delivery contrac-
tors gave bribes and gratuities to U.S. Navy employees in exchange for DoD
freight shipping contracts. The bribes and gratuities included cash pay-
ments, hunting supplies, concert and airline tickets, and an “open tab” at a
local restaurant. The individuals were also ordered to pay a total of $798,164
in restitution.

The University of Connecticut agreed to a $2.5 million civil settlement to
settle false claims charges relative to grant applications and invoices that
contained incorrect or overstated expense information. An investigation
disclosed that the university had improperly charged certain expenses, such


                                               Office of the Inspector General 37
Management Challenges


                                       as excessive compensation, to the DoD and other federal agencies in connec-
                                       tion with several research grants.

                                       As a result of a joint investigation, based on information filed in a qui
                                       tam lawsuit, Booz Allen, Ernst and Young, and KPMG agreed to pay the
                                       Government $25.1 million to resolve allegations of overbilling. The con-
                                       tractors overbilled the Government, including various agencies within the
                                       DoD and DoD contractors, for travel-related expenses while receiving
                                       rebates on travel expenses from airlines, hotels, rental car agencies, credit
                                       card companies, and travel service providers. The companies did not con-
                                       sistently disclose the existence of these travel rebates to the Government
                                       and did not reduce travel reimbursement claims by the amounts of these
                                       rebates as required by the contracts and applicable provisions of the Federal
                                       Acquisition Regulations. The agreement also required the contractors to pay
                                       the relator’s attorney’s fees and expenses in the amount of $1.1 million.

                                       As a result of a joint investigation, based on information filed in a qui tam
                                       lawsuit, Fluor Daniel, Inc., a DoD contractor, agreed to pay the Government
                                       $9.7 million to resolve the potential liability and claims resulting from
                                       improperly billing the Government. The investigation found that Fluor
                                       reorganized and changed its accounting practices to improperly bill the
                                       Government a disproportionate share of accounting costs, facilities assets,
                                       executive and marketing bonuses, and computer network costs, through an
                                       accounting entity called Fluor Daniel Federal Operations. The agreement
                                       also required the contractor to pay the relator’s attorney’s fees and expenses
                                       in the amount of $2,750,000.

                                       Sea Information Services, Inc. agreed to pay the Government $9.5 million
                                       as a result of a settlement to resolve allegations that the company billed
                                       for unqualified employees on an information technology contract with the
                                       DoD. The joint investigation was the result of a proactive initiative designed
                                       to uncover procurement irregularities related to a major U.S. Navy acquisi-
                                       tion command.

                                       Hunt Building Corporation (HBC), a major DoD contractor, reached a
                                       Comprehensive Repair Agreement to repair damaged family housing in a
                                       military installation in lieu of product substitution charges. An investiga-
                                       tion revealed that HBC utilized non-conforming expansive soils in the con-
                                       struction of 237 family housing units located at Kaneohe Marine Corps
                                       Base, Hawaii. The Navy reported observing distressed conditions in the
                                       completed housing units. HBC agreed to repair all damages to the homes
                                       and replace non-conforming soils at no cost to the government.



38 Semiannual Report to the Congress
                                                                   Management Challenges


                       Science and Engineering Association, Inc. (SEA), a major DoD contractor,
                       reached a civil negotiated settlement to avoid charges of filing false claims
                       and agreed to return $9.5 million to the government. SEA submitted four
                       delivery orders that contained billing irregularities in excess of $56 million
                       for information technology services on the development of a DoD procure-
                       ment issue known as the Defense Integrated Military Human Resource
                       Center.

health care            The DoD military health system (MHS) challenge is to provide world class
                       health care in both peacetime and wartime. MHS must provide quality care
                       for approximately 9.2 million eligible beneficiaries within fiscal constraints
                       while facing growth pressures, legislative imperatives, and inflation that have
                       made cost control difficult in both the public and private sectors. Base
                       Realignment and Closure actions and increased benefits to the Reserve and
                       Guard components also will impact MHS operations. The DoD challenge
                       is magnified because the MHS must also provide health support for the full
                       range of military operations. The increased frequency and duration of mili-
                       tary deployments further stresses the MHS in both the active and reserve
                       Components. To cover the costs of health care for Medicare eligible retirees,
                       retiree family members, and survivors, the MHS was funded at $38.4 bil-
                       lion in FY 2006, including $20.4 billion in the Defense Health Program
                       appropriation, $6.9 billion in the Military Departments’ military person-
                       nel appropriations, $0.3 billion for military construction, and $10.8 billion
                       from the DoD Medicare‑Eligible Retiree Health Care Fund.

              Audits DoD OIG health care audit resources focused on completing an audit of
                       security controls over selected Military Health Care System corporate data-
                       bases, and an audit of controls over payments made to overseas health care
                       providers. Additionally the DoD OIG initiated an audit of the Third Party
                       Collection Program to evaluate the implementation of itemized outpatient
                       billing.

                       A DoD OIG audit assessing the adequacy of security controls (electronic,
                       physical, and personnel) to protect sensitive health care information con-
                       tained in selected MHS corporate databases found that many of the controls
                       were adequate. For areas such as controls over passwords, physical access,
                       disposal of information technology equipment, and personnel security
                       investigations for selected information technology positions, improvements
                       were recommended with which management generally agreed.

                       Another DoD OIG report of TRICARE Management Activity (TMA)
                       that dealt with controls over payments made to overseas health care pro-
                       viders focused on one country where paid health care claims had risen by


                                                                      Office of the Inspector General 39
Management Challenges


                                       about 2,135 percent from FY 1998 through FY 2003 ($2.87 million to
                                       $64.19 million) despite the beneficiary population remaining fairly con-
                                       stant. The report concluded that the TMA needed to implement additional
                                       controls that would hold providers accountable for claims submitted either
                                       by themselves or on their behalf, and to ensure that supplemental health
                                       insurance plans do not waive beneficiary co‑payments and deductibles.

                                       The NAS performed an audit to determine whether DON complied
                                       with public laws, Federal regulations, and DoD guidance in safeguarding
                                       patients’ protected health information in automated information systems
                                       used by military treatment facilities (MTF). The audit identified a need for
                                       improving policy and procedures to verify whether Composite Health Care
                                       System (CHCS) accounts were appropriately active and whether account
                                       users were properly registered for mandatory privacy and security training.
                                       Approximately 33 percent of active CHCS accounts reviewed required deac-
                                       tivation, and about 13 percent of reviewed MTF staff with active CHCS
                                       access were either unregistered or improperly registered for mandatory pri-
                                       vacy and security training.

                                       An AFAA report disclosed that although the Air Force spent $12 million
                                       on the Hearing Conservation Program during 2004, the program was not
                                       achieving the desired results. Specifically, Air Force officials did not proper-
                                       ly monitor Air Force employees with initial, annual, and termination audio-
                                       grams as required by the Occupational Safety and Health Administration
                                       and DoD directives to protect them from hearing loss. Unless individuals
                                       working in hazardous noise areas are properly identified and receive required
                                       audiograms, the Air Force cannot accurately diagnose workers’ hearing loss
                                       or minimize hearing loss compensation claims or costs, which have risen by
                                       more than 70 percent over the past 3 years.

                      Investigations   To ensure that DoD health care funding is utilized in a proper and effi-
                                       cient manner toward providing quality patient care to DoD beneficiaries,
                                       the DCIOs have aggressively pursued health care investigations involving
                                       “harm to patient,” corruption, kickbacks, and allegations with significant
                                       TRICARE impact. Examples of significant health care fraud investigations
                                       follow.

                                       Dr. Floyd Day and Sherrie Day, the owner and co-owner of Family Medical
                                       Management Services, Inc. (Family Medical), a chain of health care clinics,
                                       were ordered to pay $561,686 to the Internal Revenue Service and were
                                       excluded from conducting business with all federal health care programs.
                                       The sentences and penalties were the result of previous convictions of mak-
                                       ing false statements to the Government. An investigation found that Family


40 Semiannual Report to the Congress
                                                                                                Management Challenges


                                               Medical systematically claimed that its medical director, Dr. Day, had per-
                                               formed nearly all of its health care services, when in fact nurse practitioners
                                               provided the vast majority of the services. Family Medical was reimbursed
                                               by Medicare and TRICARE at a higher rate than was warranted for services
                                               provided by nurse practitioners. Family Medical also had its billing software
                                               altered to systematize the fraud. Mrs. Day was also sentenced to 36 months
                                               probation.

                                               King Pharmaceuticals (King) and Monarch Pharmaceuticals, Inc., a wholly-
                                               owned subsidiary of King, agreed to pay the Government $124,057,318 as
                                               part of a civil settlement to resolve all issues relating to a qui tam complaint.
                                               The complaint alleged that King provided discounts to health maintenance
                                               organizations and other pharmacy benefit managers without allowing for
                                               these discounts when they reported their pricing data to the Government.
                                               This practice negatively impacted the computation of federal ceiling prices
                                               for Government healthcare programs, to include TRICARE. King conduct-
                                               ed an internal investigation to determine its sales volume to the Government
                                               and provided the results to the Government. The results were later used in
                                               the negotiation of the settlement.

logistics                                      The support mechanism that is logistics must be both responsive and cost
                                               effective to ensure the readiness and sustainability of the entire force across
                                                                    all military operations. Specifically, the challenge of
                                                                    logistics includes providing the right force, the right
                                                                    personnel, equipment, and supplies in the right place,
                                                                    at the right time, and in the right quantity. To meet
                                                                    this challenge, DoD is continuously transforming logis-
                                                                    tics by assessing best practices and evaluating new con-
                                                                    cepts that will support all of the functions needed by the
                                                                    joint warfighter. Overall, DoD logistics is a $90 billion
                                                                    per year activity, involving more than a million people.
                                                                    DoD provides supplies, transportation, and mainte-
                                                                    nance for a vast inventory of ships, aircraft, helicopters,
                                                                    ground combat and tactical vehicles, and thousands of
                                                                    additional mission support assets.

                                                                           A DoD OIG report addressed the policy and procedures
                                                                           of the Air Force that concern the return of depot-level
                                                                           reparable assets to repair facilities. The audit determined
                                                                           that the 50 shipments judgmentally sampled were ade-
                                                                           quately documented; however, the Air Force has not
Servicemen from the U.S. Army load hundreds of meals, ready to eat and
water onto a CH-47 Chinook helicopter to support the Federal Emergency corrected a previously reported internal control weak-
Management Agency’s disaster-relief efforts in the Gulf Coast areas devas- ness regarding oversight of depot level reparable assets.
tated by Hurricane Rita.

                                                                                                   Office of the Inspector General 41
Management Challenges


                                Audits   The Air Force proposed corrective actions that include implementing and
                                         installing the Commercial Asset Visibility system. This system should
                                         improve the accountability of assets moving through a contractor repair
                                         process by providing Air Force officials total asset visibility and increasing
                                         the effectiveness of repair decisions. The corrective action completion date
                                         is the fourth quarter of FY 2006. The report contained no recommenda-
                                         tions and required no further action because officials had controls in place
                                         to properly treat and account for depot level reparable assets shipments and
                                         adequately recorded and reported shipments. Also, in its annual statement
                                         of assurance, the Air Force reported the material control weakness concern-
                                         ing accountability and the safeguarding of inventory shipped for repair to
                                         contractor repair facilities.

                                         An AAA audit determined that planned Military Construction, Army proj-
                                         ects in Europe were adequate to support the Army’s proposed restationing
                                         plan. About $334 million in projects at installations scheduled to close as
                                         part of the restationing plan were canceled. Project planners focused future
                                         construction projects at those installations scheduled to remain under the
                                         plan. With limited exceptions, project planners accurately identified pro-
                                         jected requirements for barracks, maintenance facilities, and support facili-
                                         ties. In addition, personnel accurately estimated costs for programmed con-
                                         struction. U.S. Army, Europe and Seventh Army plans to reduce the size
                                         of five facilities to the square footage authorized in planning criteria. As a
                                         result, the cost avoidance is about $953,000.

                                         An AFAA review disclosed that maintenance personnel overhauled C-5
                                         aircraft TF39 engine modules too frequently and without direction from
                                         the reliability-centered maintenance monitor. Consequently, the Air Force
                                         could reduce TF39 engine maintenance costs and save at least $159.6 mil-
                                         lion by choosing a cost optimal overhaul policy and requiring approval
                                         from the reliability-centered maintenance monitor before maintenance per-
                                         sonnel would be allowed to conduct overhauls and incur associated costs.
                                         Additionally, reliability-centered maintenance implementation for 12 of
                                         the 13 designated engine programs was neither complete nor consistently
                                         applied. As a result, the Air Force is practicing reliability-centered main-
                                         tenance on only 8 percent of the designated engine programs and may not
                                         achieve any reliability-centered maintenance-based reductions in the associ-
                                         ated $1.6 billion annual engine maintenance expenses.

                                         An AFAA audit revealed that depot shop flow times (the length of time
                                         unserviceable items spend in repair) were not accurate for 297 (99 percent)
                                         of 300 items reviewed. These errors misstated reparable item requirements



42 Semiannual Report to the Congress
                                                             Management Challenges


                 and related budgets by about $60.1 million. By reducing overstated require-
                 ments, the Air Force can put $37.8 million to better use.

                 An AFAA report on supply item pricing disclosed that although the pricing
                 tool generally computed iterative prices correctly using baseline data, logis-
                 tics management personnel did not properly validate the baseline source
                 of repair costs or percentages used to compute FY 2005 iterative prices for
                 59 (25 percent) of 238 statistically selected stock items. The improper vali-
                 dation resulted in projected FY 2005 sales estimate errors totaling $56 mil-
                 lion, based on planned sales activity. In addition, logistics management per-
                 sonnel did not properly manage data recording for iteratively priced stock
                 items in the official systems thereby contributing to projected repair budget
                 errors totaling $256 million for FYs 2006 through 2011. By reducing the
                 repair budget overestimates, the Air Force can put $196 million to better
                 use.

Investigations   The DCIOs conducted several investigations into the fraud, waste, and abuse
                 in logistic support operations for supplies, transportation and maintenance.
                 Examples of logistics investigations follow.

                 In an effort to protect the integrity of DoD logistics systems, DCIS, in con-
                 junction with other federal law enforcement agencies and military criminal
                 investigative organizations, concluded Operation High Bidder, an under-
                 cover operation that focused upon theft and sale of military related equip-
                 ment through utilization of the Internet, particularly via the EBay Internet
                 auction website. A primary focus of the operation was the theft and sale of
                 ballistic body armor and associated Small Arms Protective Inserts (SAPIs)
                 designed to protect soldiers serving in the U.S. military. Possession and sale
                 of these items by the general public is illegal. Likewise, export restrictions
                 apply to these items. The investigation revealed a widespread network of
                 theft and sale of body armor, SAPIs, and related equipment. Some buyers
                 were identified as convicted felons with violent histories who are prohib-
                 ited by state and federal statutes from owning body armor. Such activity
                 was deemed to be especially egregious in light of the fact that, throughout
                 the course of the operation, DoD was experiencing shortages in supplies of
                 SAPI’s that made adequately outfitting troops in Iraq difficult.

                 Aamullah Khan and Ziad Gammoh, owners of United Aircraft and
                 Electronics, an aircraft parts company, were sentenced for their role in a
                 conspiracy to misrepresent material facts regarding the sale of inferior and
                 non-conforming aircraft parts to commercial and military customers. Khan
                 was sentenced to 15 years and 8 months confinement, 36 months proba-
                 tion, and debarment until 2052 and ordered to pay $5,493,071 in resti-


                                                                Office of the Inspector General 43
Management Challenges


                                       tution. Gammoh was sentenced to 6 years and 5 months confinement,
                                       36 months probation, and debarment until July 2005 and ordered to pay
                                       $5,493,071 in restitution.

                                       An investigation that was initiated as a result of a flight safety alert result-
                                       ed in Apex Manufacturing Company agreeing to pay a $400,000 fine and
                                       $793,061 in restitution as a result of a civil agreement. The company was
                                       convicted of mail fraud for providing DoD with defective substandard
                                       main rotor blade expandable pins that are used on U.S. Army, U.S. Air
                                       Force, and U.S. Immigration and Customs Enforcement (ICE) Blackhawk
                                       Helicopters.

                                       The former Vice President of Hunt Valve Company, Inc. was sentenced to
                                       24 months of confinement and ordered to pay the US government $4.1
                                       million in restitution for conspiring to provide the DoD with non-conform-
                                       ing valves and fraudulent certifications. Hunt Valve was ordered to pay
                                       $666,000 to settle their civil settlement. Four other companies reached a
                                       tentative settlement to pay $12.6 million to settle their civil settlement for
                                       making false statements and false claims. The non-conforming valves are
                                       used on U.S. Navy submarines and surface ships.

                                       PB Fasteners, a Division of Paul Briles Incorporated, California, entered
                                       into a civil settlement with the United States Government and agreed to
                                       pay $2,500,000 in penalties in lieu of false claims charges. The settlement
                                       resulted from an investigation that uncovered the fact that PB Fasteners
                                       manufactured fasteners for the DoD, Department of Transportation, and
                                       the National Aeronautics and Space Administration, without properly per-
                                       forming non-destructive testing required in contract specifications. The fas-
                                       teners are utilized on a wide variety of commercial and military aircraft.

infrastructure                         The challenge in managing approximately 4,700 military installations and
                                       other DoD sites is to provide reasonably modern, habitable, and well-main-
and environment                        tained facilities that cover a spectrum from test ranges to housing. The
                                       Department’s review of defense and security needs resulted in transforming
                                       force structure and prompting a corresponding new base structure. This
                                       challenge of a new base structure is complicated by the need to minimize
                                       spending on infrastructure so funds can be used instead on defense capabil-
                                       ity. Unfortunately, there is an obsolescence crisis in Department facilities,
                                       and environmental requirements have continually grown. Furthermore,
                                       the Department will need to efficiently and effectively implement the Base
                                       Realignment and Closure (BRAC) 2005 recommendations to eliminate
                                       excess capacity which will free up dollars to be used for other purposes.



44 Semiannual Report to the Congress
                                                                                   Management Challenges


                                                                      Implementing the results of “Transformation
                                                                      through BRAC 2005” will pose a significant
                   Comparing BRAC Rounds                              challenge for the Department. At the same
                                                                      time, implementation of BRAC 2005 will
                                                          Annual
                                                                      provide an opportunity for the Department
            Major                   Minor                Recurring
            Base     Major Base Closures and    Costs     Savings     to eliminate excess physical capacity, trans-
           Closures Realignments Realignments (TY $B)   (FY05 $B)     form DoD infrastructure to make it more
 BRAC 88      16          4           23         2.7        0.9
                                                                      efficient, and derive funds that can be put
                                                                      to better use. As part of the challenge,
 BRAC 91      26         17           32         5.2        2.0       the Department must implement the
                                                                      Commission’s recommendations to obtain
 BRAC 93      28         12          123         7.6        2.6
                                                                      optimal savings in the most efficient man-
 BRAC 95      27         22           57         6.5        1.7       ner and with the least disruption to the
                                                                      Department. In today’s environment, the
  Total       97         55          235        22.0        7.3
                                                                      Department needs to consider additional
BRAC 05       33         29          775        24.4        5.5       security measures in DoD buildings. DoD
                                                                      is in the process of implementing the “DoD
                                      Minimum Antiterrorism Standards for Buildings” for new and existing
                                      inhabited buildings. The Department will need to spend additional funds
                                      for security purposes if the antiterrorism standards for buildings are fully
                                      implemented. The amount of funds needed to implement the standards is
                                      unknown at this time.

                                     As of December 31, 2005, DoD has an estimated $65.9 billion in environ-
                                     mental and disposal liabilities. The Department continues to correct past
                                     material control deficiencies in identifying and tracking sites with environ-
                                     mental liabilities and maintaining audit trails for financial liability estimates;
                                     however, the Department needs to improve documentation and supervi-
                                     sory review of environmental liability estimates. The BRAC 2005 decisions
                                     affect the amount and extent of environmental liabilities. It is too early to
                                     know how much cleanup will be required for the bases that are scheduled to
                                     close or how long the cleanup will take to complete.

                                     The Department is in the process of implementing the BRAC decisions, but
                                     the timing and problems encountered to implement the recommendations
                                     will affect the amount of savings available for other uses and the amount of
                                     environmental cleanup needed. The DoD OIG is monitoring the BRAC
                                     2005 implementation that will result in little to no oversight of other infra-
                                     structure and environmental areas.




                                                                                      Office of the Inspector General 45
Management Challenges


                               Audits   An Army Audit Agency report found that Fort Hood maintained appropri-
                                        ate controls over and properly obligated and spent funds it received to sus-
                                        tain barracks. However, funds obligated for sustainment were only 17 per-
                                        cent of the total Department of the Army‑identified requirement of about
                                        $13.6 million for barracks sustainment. Inadequate funding of the overall
                                        sustainment requirement is the primary reason Fort Hood did not fully sus-
                                        tain barracks during FY 2004.

                                        A Naval Audit Service review determined that although the Department of
                                        the Navy (DON) has established controls in the system for managing mili-
                                        tary construction project development, isolated cases still occurred in which
                                        these controls did not fully achieve proper scoping on all projects. Based on
                                        a review of 23 projects, auditors determined that: (1) 18 had valid require-
                                        ments and were properly scoped; (2) 4 had valid requirements, but their
                                        scope should be reduced because the projects were based on inaccurate,
                                        outdated, or incomplete data; and (3) 1 project had a valid requirement,
                                        but it was under-scoped because updated requirements were not being
                                        considered.

                                        An Air Force Audit Agency audit found that overall, Air Force personnel
                                        accurately prepared and adequately supported the government cost esti-
                                        mates and the cost data for the economic analyses of utilities privatization
                                        with minor exceptions. Specifically, the Air Force generally calculated and
                                        supported the Certified Economic Analysis (CEA) model cost input in
                                        accordance with the Air Force Utilities Privatization Policy and Guidance
                                        Manual. However, review of the CEA model inputs disclosed some errors,
                                        which did not affect the economic analyses conclusions, but did result in
                                        minor changes to the CEA model. As a result of privatization, the Air Force
                                        could save more than $33 million over the life of the contracts for 9 of the
                                        11 utility systems.

                                        An Air Force Audit Agency report concluded that installation Remedial
                                        Program Managers did not have relevant, sufficient, and reliable support
                                        for $197 million of environmental remediation estimates at the 5 installa-
                                        tions reviewed. In addition, Air Force restoration officials did not conduct
                                        and document management reviews of remediation estimates. Properly
                                        documented and supported remediation estimates and the integral control
                                        of management reviews of these estimates help provide Air Force environ-
                                        mental officials with accurate information to establish priorities and support
                                        budget requirements.




46 Semiannual Report to the Congress
                                                              Management Challenges


Investigations   The DCIOs conduct numerous investigations into environmental issues and
                 crimes affecting the natural resources so valuable to our defense infrastruc-
                 ture. Several on-going projects and investigations are illustrated below.

                 DCIS prepared and distributed a Fraud Vulnerability Report (FVR) as a
                 result of an investigation into double billing for aviation fuel and ground
                 handling services provided to the U.S. Air Force and the U.S. Army overseas.
                 The FVR identified this area as one where DoD is vulnerable to fraud in
                 other locations worldwide, and made recommendations that would remove
                 the vulnerability in an effort to prevent further abuse of the system. The
                 implementation of the Defense Energy Support Center Aviation Into-Plane
                 Reimbursement Card has largely eliminated the vulnerability of double-bill-
                 ing in those locations where the card is accepted.

                 DCIS participated in a Federal Fraudulent Environmental Training
                 Certificate Task Force. The task force conducted an investigation revealing
                 that approximately 51 fraudulent training certificates were issued to workers
                 who had not completed the required training to obtain jobs involving haz-
                 ardous material removal, including asbestos and lead abatement. The cer-
                 tificates were submitted to obtain work at federal, state and public facilities
                 such as schools and military bases. As a result of the task force investigation,
                 Robert Newsome, the former operations manager for ACS Environmental,
                 and Nicanor Lotuaco, president for Air Power Enterprises were convicted
                 of making false statements, aiding and abetting violations of the Clean Air
                 Act, and conspiracy. Both individuals have been sentenced to a total of 13
                 months of confinement, 60 months probation, special assessment penalty
                 of $400 and a criminal fine of $1 million. The companies have yet to be
                 sentenced.

  Inspections    The Naval Inspector General (NAVINSGEN) conducts Readiness and
                 Quality of Life (QOL) Area Visits at Naval installations worldwide.
                 NAVINSGEN’s Area Visit program provides senior Navy leadership with an
                 independent evaluation of an area’s mission readiness, facilities’ condition,
                 healthcare, housing, environment, safety, command climate, and QOL.
                 The objectives are to identify systemic, Navy-wide issues, assess selected
                 risks to DON, and provide on-site assistance, advice, and advocacy to com-
                 mands and personnel as necessary. NAVINSGEN’s team of military and
                 civilian subject matter experts conducted an Area Visit to installations and
                 tenant commands throughout Japan from August 28, 2005 to September
                 28, 2005. The team visited all major Navy installations in Japan including
                 Fleet Activities Yokosuka, Fleet Activities Sasebo, Fleet Activities Okinawa,
                 and Naval Air Facility Atsugi. the NAVINSGEN also conducted an Area
                 Visit to Southeast and Southwest Asia from January 18, 2006 to February


                                                                 Office of the Inspector General 47
Management Challenges


                                       24, 2006. Navy commands and installations in Bahrain, Diego Garcia and
                                       Guam were visited. Numerous readiness and QOL concerns discovered
                                       during these visits were assessed with recommendations for improvement
                                       forwarded to responsible authorities. Additionally, NAVINSGEN team
                                       members shared with local commands “Best Practices” gained from their
                                       collective assessments and experience.




48 Semiannual Report to the Congress
chapter 4 — oig components

Deputy Inspector            The Office of the Deputy Inspector General for Auditing (ODIG-AUD) con-
                            ducts audits on all facets of Department of Defense (DoD) operations. The
general for                 work results in recommendations for reducing costs, eliminating fraud, waste,
auditing                    and abuse of authority, improving performance, strengthening internal controls,
                            and achieving compliance with laws, regulations, and policies. Audit topics are
                            determined by law, by requests from the Secretary of Defense and other DoD
                            leadership, by Hotline allegations, by congressional requests, and by internal
                            analyses of risk in DoD programs.

            DoD Audit The defense audit community consists of the DoD Office of the Inspector
            Community General (OIG), the Army Audit Agency, the Naval Audit Service, and the
                            Air Force Audit Agency. As a whole, the organizations issued 184 reports,
                            which identified the opportunity for almost $1.4 billion in monetary benefits.
                            Appendix A lists reports issued by central DoD internal audit organizations.
                            Appendix B lists DoD OIG reports with potential monetary benefits, and
                            Appendix C statistically summarizes audit follow-up activity.

                            The Defense Contract Audit Agency (DCAA) provided financial advice to
                            contracting officers in 15,954 reports during the period. The contract audits
                            resulted in more than $2.9 billion in questioned costs and funds that could
                            be put to better use. Appendix D contains the details of the audits performed.
                            Contracting officers disallowed $304.5 million (39.8%) of the $765.5 million
                            questioned as a result of significant post-award contract audits. The contract-
                            ing officer disallowance rate of 40 percent represents a significant increase from
                            the average disallowance rate of 21 percent from the last reporting period.
                            Additional details of the amounts disallowed are found in Appendix E.

      Significant Open Managers accepted or proposed acceptable alternatives for 99 percent of the 256
      Recommendations DoD OIG audit recommendations rendered in the first 6 months of fiscal year
                            2006. Many recommendations require complex and time consuming actions,
                            but managers are expected to make reasonable efforts to comply with agreed-
                            upon implementation schedules. Although most of the 887 open actions on
                            DoD OIG audit reports being tracked in the follow-up system are on track for
                            timely implementation, there were 206 reports more than 12 months old, dat-
                            ing back as far as 1994, for which management has not completed actions to
                            implement the recommended improvements. Significant open recommenda-
                            tions that have yet to be implemented follow.

                            	       • Recommendations made in 1997 and subsequent years to make 		
                            	       numerous revisions to the DoD Financial Management Regulations; 		
                            	       clarify accounting policy and guidance; improve accounting processes, 	
                            	       internal controls over financial reporting, and related financial systems


                                                                              Office of the Inspector General 49
OIG Components


                                       	   compliance; and develop a plan for performance characteristics and
                                       	   training requirements for the DoD financial management workforce
                                       	   have resulted in initiatives that are underway to correct financial
                                       	   systems deficiencies and enable the Department to provide accurate,
                                       	   timely, and reliable financial statements.

                                       	   • Recommendations from multiple reports in the high-risk area of
                                       	   personnel security. Some of the most significant of these include: 	
                                       	   development of a prioritization process for investigations;
                                       	   establishment of minimum training and experience requirements and
                                       	   a certification program for personnel granting security clearances;
                                       	   issuance of policy on the access by all contractors, including foreign
                                       	   nationals, to unclassified but sensitive DoD IT Systems; establishment
                                       	   of policy on access reciprocity and a single, integrated database for
                                       	   Special Access Programs; implementation of steps to match the size
                                       	   of the investigative and adjudicative workforces to the clearance
                                       	   workload; development of DoD-wide backlog definitions and
                                       	   measures; monitoring the backlog using the DoD-wide measures; 	
                                       	   and improvement of the projections of clearance requirements for 	
                                       	   industrial personnel. Progress on the unprecedented transformation
                                       	   of the personnel security program is slow but steady. Issues are being
                                       	   actively addressed by interagency working groups.

                                       	   • Recommendations made in 2004 to define network centric warfare
                                       	   and its associated concepts; formalize roles, responsibilities, and
                                       	   processes for the overall development, coordination, and oversight of
                                       	   DoD network centric warfare efforts; and develop a strategic plan to
                                       	   guide network centric warfare efforts and monitor progress.
                                       	   Applicable DoD guidance needs to be updated to reflect definitions
                                       	   that have been developed. However, issues have surfaced regarding the 	
                                       	   appropriate policy document for this purpose, and thus guidance has
                                       	   not been issued.

                                       	   • Recommendations were made in 2004 to clarify guidance on the
                                       	   differences between force protection and antiterrorism in DoD
                                       	   policies and procedures and to ensure that a force protection program
                                       	   has been established throughout the U.S. Pacific Command. Issuance
                                       	   of DoD guidance has been delayed.

                                       	   • Recommendations made in 2003, 2004 and 2005 to address
                                       	   issues regarding information systems security including completion
                                       	   of the information security certification and accreditation process 	


50 Semiannual Report to the Congress
                                                     OIG Components


	   for various DoD systems and development of an adequate Plan of
	   Action and Milestones to resolve critical security weaknesses.
	   These actions need to be completed to address requirements of the
	   Federal Information Security Management Act (FISMA) and related
	   OMB guidance. Although some actions have been initiated, they are
	   not adequate to correct the identified deficiencies.

	   • Recommendations made in a 2004 report to develop and deliver
	   a contract compliant C-130J aircraft and to increase amounts withheld
	   to motivate the contractor to deliver an aircraft that meets contractual
	   requirements. Actions are in process to implement the
	   recommendations but have not been finalized.

	   • Recommendations made in 2004 in the Health Care issue area.
	   These include improvements in the acquisition of direct care medical
	   services such as: reviewing potential solutions to barriers of DoD and
	   Department of Veterans Affairs sharing; and establishment of a
	   pilot program and an oversight process for acquiring direct care
	   services; and improved implementation of requirements regarding
	   Federal Insurance Contributions Act taxes. These also include
	   improvements in the management of pharmaceuticals such as:
	   development of improved policy on management of stock levels and
	   treatment of expiring pharmaceuticals; and improved policy and
	   oversight regarding pharmaceutical returns to ensure the costs for
	   services provided are reasonable and the credits received are complete,
	   and trends are analyzed to determine whether to modify inventory
	   levels or ordering practices. Implementation of the improvements is
	   ongoing.

	   • Recommendations made in 2004 regarding the Performance-
	   Based Logistics Program that include: establishing guidance that
	   defines the requirements, process and procedures for developing a
	   business case analysis to determine potential performance-based
	   candidates; finalizing a standardized data collection format that
	   contains all of the data fields determined necessary to accurately track
	   the status of performance-based logistics efforts; and establishing
	   requirements for quarterly reports or updates to all required fields
	   of the standardized data collection format. Progress is being made but
	   the actions are not complete.




                                              Office of the Inspector General 51
OIG Components

deputy inspector                           The Office of the Deputy Inspector General for Investigations (ODIG-INV)
general for                                comprises the criminal and the administrative investigative components of the
                                           DoD OIG. The Defense Criminal Investigative Service (DCIS) is the crimi-
investigations                             nal investigative component of the DoD OIG. The non-criminal investigative
                                           units include the Directorate for Investigations of Senior Officials (ISO), the
                                           Directorate for Military Reprisal Investigations (MRI), and the Directorate for
                                           Civilian Reprisal Investigations (CRI).

            Defense Criminal      DCIS is tasked with the mission to protect America’s warfighters by conducting
            Investigative Service investigations in support of crucial national defense priorities. DCIS conducts
                                           investigations of suspected major criminal violations focusing mainly on ter-
                                           rorism, product substitution/defective parts, cyber crimes/computer intrusion,
                                           illegal technology transfer, and other crimes involving public integrity including
                                           bribery, corruption, and major theft. DCIS activity in the Middle East theater
                                           is discussed in Chapter 1. DCIS also promotes training and awareness in all
                                           elements of the DoD regarding the impact of fraud on resources and programs
                                           by providing fraud awareness presentations.

                                                                           The      Defense      Criminal      Investigative
                                                                           Organizations (DCIOs), comprised of
                                                                           DCIS, the U.S. Army Criminal Investigation
                                                                           Command, the Naval Criminal Investigative
                                                                           Service, and the Air Force Office of Special
                                                                           Investigations, protect the military and civilian
                                                                           men and women of the Department by com-
                                                                           bating crimes, both domestic and overseas, with
                                                                           highly trained special agents, forensic experts,
                                                                           analysts, and support personnel. Examples of
                                                                           the DCIO’s mission initiatives and investiga-
                                                                           tive accomplishments are detailed in Chapter 3
                                                                           under the nine management challenges.

                                                                           Monetary recoveries of approximately $126
                                                                           million resulted from the investigations by the
                                                                           DCIOs, and are displayed by major categories
                                                                           in Figure 1. Figure 2 (the following page)
                                                                           displays the total companies and individuals
                                                                           indicted and convicted is 426 and 689, respec-
                                                                           tively. Figure 3 (the following page) displays
                                                                           the number of companies and individuals
                                                                           suspended or debarred for this period were 8
                                                                           and 23, respectively. 	
                                       Figure 1



52 Semiannual Report to the Congress
                                                                                OIG Components




       Figure 2                                                      Figure 3



Directorate for     The DoD OIG Directorate for Investigations of Senior Officials conducts
Investigations of   investigations into allegations against senior military and civilian officials and
                    performs oversight of senior official investigations conducted by the Military
Senior Officials
                    Departments.

                    Figures 4 and 5 (the following page) show results of activity on senior offi-
                    cial cases during the first 6 months of FY 2006. On March 31, 2006, there
                    were 217 ongoing investigations into senior official misconduct throughout
                    the Department, representing little change from October 1, 2005, when we
                    reported 236 open investigations. Over the past 6 months, the Department
                    closed 185 senior official cases, of which 32 (17 percent) contained substanti-
                    ated allegations.



                                                                      Office of the Inspector General 53
OIG Components




                                       Figure 4




                                       Figure 5
54 Semiannual Report to the Congress
                                                                            OIG Components


Directorate for     The DoD OIG Directorate for Military Reprisal Investigations (MRI) conducts
Military Reprisal   investigations and performs oversight of investigations conducted by the mili-
Investigations      tary department and defense agency inspectors general. Those investigations
                    pertain to:

                    	      · Allegations that unfavorable actions were taken against members of
                    	      the Armed Forces, non-appropriated fund employees, and Defense
                    	      cotractor employees in reprisal for making protected communications.

                    	      · Allegations that members of the Armed Forces were referred for 	
                    	      mental health evaluations without being afforded the procedural rights
                    	      prescribed in the DoD Directive and Instruction.

                    Whistleblower Reprisal Activity. During the reporting period, MRI and the
                    Military Department IGs received 253 complaints of whistleblower reprisal.
                    The DoD OIG closed 189 reprisal cases during this period. Of those 189 cases,
                    136 were closed after preliminary analysis determined further investigation was
                    not warranted and 53 were closed after investigation. Of the 53 cases inves-
                    tigated, 8 contained one or more substantiated allegations of whistleblower
                    reprisal.

                    MRI and the military departments currently have 501 open cases involving
                    allegations of whistleblower reprisal. Examples of substantiated whistleblower
                    reprisal cases follow.

                    An Air National Guard master sergeant alleged his group commander issued
                    him a letter of reprimand in reprisal for reporting alleged vandalism affect-
                    ing public health and safety to the wing commander. Air Force investigation
                    substantiated the allegation. Corrective action is pending against the group
                    commander.

                    An Army captain alleged his battalion commander issued him an unfavorable
                    officer evaluation report in reprisal for reporting the commander’s abuse of
                    authority to the brigade commander. Army’s investigation substantiated the
                    allegation. Corrective action is pending.

                    A Navy petty officer second class alleged his commanding officer threatened
                    him with non-judicial punishment if he sought a higher level review of his equal
                    employment opportunity complaint. The Navy’s investigation determined that
                    the commander threatened punishment in reprisal for preparing to make a pro-
                    tected communication. The commanding officer was counseled.



                                                                     Office of the Inspector General 55
OIG Components

                                       A nonappropriated fund instrumentality employee alleged he was separated in
                                       reprisal for participating in an inspector general investigation. MRI’s investiga-
                                       tion found that his appropriated fund supervisor recommended the employee’s
                                       termination in reprisal for his protected disclosure. Corrective action is pend-
                                       ing against the supervisor.

                                       Referrals for Mental Health Evaluations. MRI closed twenty cases involving alle-
                                       gations of improper referrals for mental health evaluations during the reporting
                                       period. In six (30%) of those cases, the DoD OIG substantiated that com-
                                       mand officials and mental health care providers failed to follow the procedural
                                       requirements for referring Service members for mental health evaluations under
                                       DoD Directive 6490.1, “Mental Health Evaluations of Members of the Armed
                                       Forces.” The DoD OIG did not substantiate that these mental health referrals
                                       were taken in reprisal for Service members’ protected communications.

                                       Between July 1, 2005 and January 1, 2006, the Civilian Reprisal Investigations
                Directorate for        Directorate (CRI) accomplished two missions of note to the Congress.  First, it
                Civilian Reprisal      reported out the first comprehensive review of a alleged civilian whistleblower
                Investigations         reprisal involving security clearance adjudication in a case involving the National
                                       Security Agency (NSA); second, it coordinated the Office of the Inspector
                                       General’s recertification as Section 2302(c) compliant with the U.S. Office of
                                       Special Council.  OIG DoD is one of two DoD Components to achieve this
                                       distinction, and the first to recertify.

                                       The Office of the Deputy Inspector General for Intelligence (ODIG-INTEL)
deputy inspector                       audits, reviews, evaluates, and monitors the programs, policies, procedures, and
general for                            functions of the DoD Intelligence Community and the intelligence-related
intelligence                           activities within the DoD Components, primarily at the DoD, Service, and
                                       Combatant Command levels, ensuring that intelligence and intelligence-related
                                       resources are properly, effectively, and efficiently managed. The ODIG-INTEL
                                       also conducts oversight of Service and Defense agency reviews of security and
                                       counterintelligence within all DoD test and laboratory facilities.

                                       The DoD OIG, the IGs of the Department of the Air Force, Defense Intelligence
                                       Agency, National Geospatial-Intelligence Agency, National Reconnaissance
                                       Office, and National Security Agency/Central Security Service; the Army Audit
                                       Agency; the Naval Audit Service; the Air Force Audit Agency; and the Defense
                                       Contract Audit Agency completed 104 intelligence-related and other classified
                                       and sensitive reports. The reports are categorized into the areas shown in Figure
                                       6 (following page). A listing and highlights of the 104 reports can be found in
                                       the Classified Annex to this report.



56 Semiannual Report to the Congress
                                                                                               OIG Components


                          intelligence-related reports
     DoD Management                     DoD OIG             Defense           Military                 Total
      Challenge Area                                        Agencies        Departments
Joint Warfighting and Readiness              0                 39                 0                       39

Homeland Defense                             0                   1                  0                      1
Human Capital                                0                   4                  0                      4
Information Technology                       2                   5                  1                      8
Management
Acquisition Processes and Contract           0                   9                  2                     11
Management
Financial Management                         1                   10                 5                     16
Health Care                                  0                   0                  0                      0
Logistics                                    0                   0                  0                      0
Infrastructure and Environment               0                    2                 0                      2
Other                                        1                   21                 1                     23
  total reports issued                       4                   91                 9                    104

                                                      Figure 6


                                     The Intelligence Community Inspectors and Auditors General continued to
                                     coordinate and share information to improve the effectiveness and efficiency of
                                     oversight of DoD intelligence activities. The Intelligence Community Inspectors
                                     General Forum serves as a mechanism for sharing information among inspec-
                                     tors general whose duties include audit, evaluation, inspection, or investiga-
                                     tion of programs and operations of Intelligence Community elements. Within
                                     DoD, the Joint Intelligence Oversight Coordination Group comprises senior
                                     representatives from the Office of the Secretary of Defense, the inspectors gen-
                                     eral of the Defense intelligence agencies, and military department audit, evalu-
                                     ation, and inspection organizations. The objectives of this group are to improve
                                     the effectiveness and efficiency of DoD oversight of intelligence activities by
                                     identifying areas needing more emphasis and deconflicting oversight programs.
                                     See the Classified Annex to this report for information on meetings of these
                                     groups.




                                                                                        Office of the Inspector General 57
OIG Components


deputy inspector                       Previously established in 2002 as the Office of the Deputy Inspector General for
                                       Inspections and Policy (I&P), consisting of Audit Policy and Oversight (APO),
general for                            Investigative Policy & Oversight (IPO), Inspections and Evaluations (I&E), and
policy and                             Defense Hotline, the component was renamed Policy and Oversight (P&O) on
oversight                              February 5, 2006, as a result of a DoD OIG reorganization which combined
                                       the four I&P components with four other divisions:  Quantitative Methods;
                                       Technical Assessment; Audit Follow-up and GAO Affairs; and Data Mining.

                                       The Office of the Deputy Inspector General for Policy and Oversight provides
                                       oversight and policy for Audit and Investigative activities within DoD; manages
                                       the DoD Hotline; conducts inspections and evaluations; provides technical,
                                       statistical, and quantitative advice and support to OIG projects; conducts data
                                       mining; monitors corrective actions taken in response to OIG and Government
                                       Accountability Office (GAO) reports; and serves as DoD central liaison with
                                       GAO on reports and reviews regarding DoD programs and activities.

                   Audit Policy  In accordance with the Inspector General Act of 1978, as amended, the Office
                   and Oversight of Assistant Inspector General for Audit Policy and Oversight (APO), provides
                                       policy direction and oversight for audits performed by over 6,500 DoD audi-
                                       tors in 24 DoD organizations, ensures appropriate use of non-federal auditors
                                       and their compliance with auditing standards and ensures that contracting offi-
                                       cials comply with statutory and regulatory requirements when resolving con-
                                       tract audit report recommendations in accordance with DoD Directive 7640.2,
                                       “Policy for Follow-up on Contract Audit Reports.” During the reporting peri-
                                       od, APO issued two reports that addressed the quality of audits. The reports
                                       are:
                                       	
                                       	       · FY 2005 External Peer Reviews of the Quality Control Systems of
                                       	       the Military Department Audit Agencies (D-2006-6-001, November
                                       	       15, 2005)

                                       	      · Report on Quality Control Review of the PricewaterhouseCoopers
                                       	      LLP and the Defense Contract Audit Agency Office of Management 	
                                       	      and Budget Circular A-133 Audit Report of the Rand Corporation,
                                       	      Fiscal Year Ended September 29, 2002 (D-2006-6-002, December 16,
                                       	      2005)

                                       APO also:

                                       	      · Issued IGDPH 7600.2, “What Makes a DoD Audit Organization
                                       	      World Class?” to provide elements that make a world class audit
                                       	      organization.


58 Semiannual Report to the Congress
                                                   OIG Components


	   · Held a two-day conference for representatives from 18 small Defense
	   audit and internal review organizations on challenges they face and to
	   provide training on various topics.

	   · Provided training and discussions with a CPA firm to address their
	   revised audit approach and documentation for single audit work based 	
	   on our report recommendations.

	   · Provided training on attestation engagements to Army Internal 		
	   Review evaluators.

	   · Developed training on management controls for military inspectors
	   general in Serbia and Montenegro.

	   · Provided training and advice to other OIG personnel for conducting 	
	   the external peer review of the Department of Homeland Security
	   audit operations.

	   · Participated in newly formed Single Audit Policy Workgroup, the
	   Procurement Fraud Working Group, and the Hurricane Katrina 	
	   Working Group.

	   · Issued DoD audit policy on “Audit Organizations Access to Other
	   Component Entities and Reports with Recommendations to Other 		
	   Entities.”

	   · Provided consolidated comments with service audit agencies and 	
	   DCAA on Government Auditing Standards proposed revisions on
	   “Evidence and Data Reliability in Performance Audits,” “Quality 		
	   Control and Assurance,” and “Temporary Exemptions and Guidance 		
	   in Response to Hurricanes Katrina and Rita.”

	   · Provided comments to the American Institute of Certified Public
	   Accountants on proposed Statement on Auditing Standard 			
	   on communication of internal control related matters.

	   · Reviewed 25 revisions to the Federal Acquisition Regulation and
	   Defense Federal Regulation Supplement and provided comments
	   on “Levy on Payments to Contractors,” “Government Property,
	   Acquisition Planning,” “Types of Contracts,” “Inflation Adjustment
	   of Acquisition-Related Thresholds (Matrix),” “Exception to Buy 		
	


                                            Office of the Inspector General 59
OIG Components


                                       American Act for Commercial Information Technology,” and “Earned 		
                                       Value Management Systems.”

                Audit Followup The Audit Followup and GAO Affairs Directorate monitors the progress of
                and GAO Affairs agreed-upon corrective actions being taken by DoD managers in response to
                                       OIG and GAO report recommendations. The Directorate obtains and evaluates
                                       documentation of progress and completion and maintains a complete record of
                                       actions taken. During this 6-month period, final action was completed on 93
                                       reports and 361 recommendations. The Directorate also oversees a process to
                                       facilitate mediation of disputes regarding OIG recommendations to achieve
                                       agreement. Through this process, agreement was reached on 4 reports with 14
                                       disputed issues during the period.

                                       The Directorate also serves as the DoD central liaison with GAO on matters
                                       concerning GAO reviews and reports regarding DoD programs and activi-
                                       ties. This includes monitoring ongoing reviews to facilitate appropriate DoD
                                       actions. This also includes monitoring and facilitating the preparation of DoD
                                       responses to GAO reports to ensure the responses are appropriately coordinated
                                       before release. The Directorate also distributes information regarding GAO
                                       activities to DoD auditing and other oversight organizations to facilitate iden-
                                       tifying unnecessary overlap or duplication. During this 6-month period, the
                                       directorate processed 101 reviews and 152 draft and final reports.

                   Data Mining         The Data Mining Directorate continues its primary mission of expanding and
                   Directorate         enhancing the use of data mining with computer assisted auditing techniques
                                       as analysis tools to combat fraud, waste and abuse in DoD programs. During
                                       this reporting period the Directorate worked jointly with:

                                       	      · DoD OIG and the Service Audit communities on 16 audit reports.

                                       	      · DoD OIG and the Service MCIO communities on 47 investigations
                                       	        involving criminal activity.

                                       In addition, the Data Mining Directorate supported 6 Federal OIGs in setting
                                       up their data mining efforts.

                    DoD Hotline        The DoD Hotline continues its primary mission of providing a confidential
                                       and reliable means for DoD civilian and contractor employees, military ser-
                                       vice members, and the public to report fraud, waste, mismanagement, abuse of
                                       authority, threats to homeland security, and leaks of classified information to
                                       the Department of Defense. During this reporting period, the DoD Hotline
                                       received 6471 contacts from the public and members of the DoD commu-


60 Semiannual Report to the Congress
                                                                                     OIG Components


                             nity, initiated 1505 investigations, and
                             closed 1405 cases. Investigations ini-
                             tiated by the DoD Hotline returned
                             $1,564,596 to the Federal Government
                             during this reporting period. The DoD
                             Hotline received 30 Congressional
                             inquiries and 76 investigative referrals
                             from the Government Accountability
                             Office. The DoD Hotline has also con-
                             tinued an aggressive marketing cam-
                             paign that has included responding
                             to 503 requests from DoD contrac-
                             tors and the military services for DoD
                             Hotline fraud, waste and mismanage-
                             ment posters.

Inspections and              The Inspections and Evaluations Directorate promotes positive change by iden-
Evaluations Directorate      tifying opportunities for performance and efficiency improvements in DoD
                             programs and operations. The Directorate conducts objective and independent
                             customer-focused management and program inspections addressing areas of
                             interest to Congress and the DoD.

 Investigative Policy and The Investigative Policy and Oversight Directorate evaluates the performance
 Oversight Directorate    and develops/implements policy for the DoD law enforcement community and
                             the non-criminal investigative offices of the DoD. The Directorate also manages
                             the IG Subpoena Program for the DCIOs and administers the DoD Voluntary
                             Disclosure Program, which allows contractors a means to report potential civil
                             or criminal fraud matters.

 Quantitative Methods        The Quantitative Methods Directorate ensures that quantitative methods, anal-
 Directorate                 yses, and results used in DoD OIG products are defensible. The Directorate
                             accomplishes this by providing expert statistical/quantitative support and
                             advice to DoD OIG projects, and by assessing the quantitative aspects of DoD
                             OIG products prior to their release. Quantitatively defensible products employ
                             methodology that is technically sound and appropriate for the objectives of the
                             project, employ analyses that are performed correctly and are consistent with
                             the methodology, and appropriately present the quantitative results.

 Technical Assessment        The Technical Assessment Directorate provides technical advice to the DoD
 Directorate                 and conducts assessments to improve the economy, efficiency, and effectiveness
                             of Defense programs, operations, and oversight. The Directorate focuses on
                             acquisition, program management, engineering, and information technology


                                                                              Office of the Inspector General 61
OIG Components


                                       issues. During the reporting period, the Directorate provided technical exper-
                                       tise and assessments that have expanded the audit coverage of systems engi-
                                       neering and information assurance. As a result, Defense programs for systems
                                       engineering and information security have been improved in audited systems.

office of                              The Office of Communications and Congressional Liaison (OCCL) supports
                                       the DoD OIG by serving as the contact for communications to and from
communications                         Congress, and by serving as the DoD OIG Public Affairs Office. The OCCL
and                                    also includes the Freedom of Information Act/Privacy Act Office and Strategic
congressional                          Planning. In addition, the OCCL provides staff support and serves as the liai-
                                       son for the DoD OIG to the President’s Council on Integrity and Efficiency
liaison                                and the Defense Council on Integrity and Efficiency (DCIE). The DoD IG
                                       established the DCIE in 2002 to ensure effective coordination and cooperation
                                       among oversight agencies within the DoD.

        Comments on                    Section 4(a) of the Inspector General Act requires the Inspector General “to
                                       review existing and proposed legislation and regulations relating to the program
        Legislation/Testimony
                                       and operations of [the Department of Defense]” and to make recommenda-
                                       tions “concerning the impact of such legislation or regulations on the economy
                                       and efficiency in the administration of programs and operations administered
                                       or financed by [the Department] or the prevention and detection of fraud and
                                       abuse in such programs and operations.” The DoD OIG routinely receives leg-
                                       islation for review that has been referred to the Department of Defense for
                                       comment.

                                       The DoD OIG is given the opportunity to provide information to Congress by
                                       participating in congressional hearings.

                                       On October 18, 2005, Mr. Thomas F. Gimble, Acting Inspector General, tes-
                                       tified before the Subcommittee on National Security, Emerging Threats, and
                                       International Relations, House Committee on Government Reform regarding
                                       the IG oversight role related to Iraq reconstruction, governance, and security
                                       oversight efforts by the Department of Defense. The Acting IG’s testimony
                                       focused on the DoD IG oversight role which includes providing oversight
                                       of other DoD audit and investigative organizations. To coordinate oversight
                                       efforts and avoid duplication, the DoD OIG participated in the Iraq Inspectors
                                       General Council with representatives from Special Inspector General for Iraqi
                                       Reconstruction, Government Accountability Office, the Department of State

                                       . Mr. Gimble served as the Acting Inspector General from September 10,
                                       2005 through April 7, 2006. He currently holds the title of Principal Deputy
                                       Inspector General.


62 Semiannual Report to the Congress
                                                        OIG Components


Office of the Inspector General, the U.S. Agency for International Development
Office of the Inspector General, the Defense Contract Audit Agency, the U.S.
Army Audit Agency, and U.S. Army Corps of Engineers. At the time of the
hearing, DCAA had issued 622 reports, the Service Audit Agencies had col-
lectively issued 14 audit reports and had 16 ongoing efforts, and the DoD IG
has issued 31 audit reports and had two ongoing efforts on issues pertaining
to the Global War on Terror. The DoD IG efforts pertained to acquisition,
chemical and biological defense, cooperative threat reduction program, export
controls, force protection, and financial and personnel responsibility. Two of
the issued audit reports addressed the use of FY 2004 Emergency Supplemental
Appropriations. DCIS, as part of a Department of Justice Task Force, was
involved in the review of allegations regarding matters that have occurred in
Iraq. DCIS special agents provided investigative support to the CPA which
resulted in numerous recoveries and dismantling of criminal operations to
include a multi-million dollar counterfeiting operation involving Iraqi Dinar,
and the multiple seizures of weapons and explosive devices destined to be used
against coalition forces.

On February 14, 2006, Mr. Thomas F. Gimble, Acting Inspector General tes-
tified before the Subcommittee on National Security, Emerging Threats, and
International Relations House Committee on national security whistleblower
protection. During his testimony, Mr. Gimble discussed whistleblower protec-
tions available to members of the military personnel, DoD civilian employ-
ees, and employees of DoD contractors. Accompanying Mr. Gimble were Ms.
Jane Deese, Director of Military Reprisal Investigations, and Mr. Dan Meyer,
Director of Civilian Reprisal Investigations. The Acting IG testified that DoD
OIG, has two Directorates that are responsible for conducting and oversee-
ing investigations of complaints that military personnel or civilian employees
suffered reprisal for making a disclosure protected by applicable statute. The
Military Reprisal Investigations Directorate has conducted such investiga-
tions for over 20 years. Additionally, in 2003 the DoD OIG established the
Civilian Reprisal Investigations Directorate to to provide an alternate means by
which DoD civilian appropriated fund employees could seek protection from
reprisal. In January of 2006 the DoD IG submitted a Department of Defense
Instruction for formal coordination within DoD. This instruction will govern
the operations of the Civilian Reprisal Investigations Directorate and formalize
the procedures by which it can assist DoD employees claiming reprisal for whis-
tleblowing activities. Significantly, this instruction will extend whistleblower
protections to employees of the DoD intelligence community who are not pro-
vided statutory protection by Office of Special Counsel.




                                                 Office of the Inspector General 63
OIG Components


                                       The DoD OIG has continued to work with the Under Secretary of Defense for
                                       Acquisition, Technology, and Logistics (USD(AT&L)) to amend the Defense
                                       Federal Acquisition Regulation Supplement (DFARS). The proposed change
                                       would implement DoD policy prohibiting any activities on the part of DoD
                                       contractor employees that support or promote trafficking in persons. The pro-
                                       posed change includes a clause for use in contracts requiring performance out-
                                       side the United States. The proposed clause would require the contractor to
                                       establish policy and procedures for combating trafficking in persons and to
                                       notify the contracting officer of any violations and the corrective action taken.

                                       The DoD OIG also regularly reviews new and revised regulations proposed
                                       by the Department of Defense. During this reporting period, the DoD OIG
                                       reviewed 115 draft issuances or re-issuances of DoD directives, instructions,
                                       manuals, and policy guidance.




64 Semiannual Report to the Congress
                                                appendix a

      REPORTS ISSUED BY CENTRAL DOD INTERNAL AUDIT ORGANIZATIONS



Excludes base level reports issued by the Air Force Audit Agency and memorandum reports and consulting reports
issued by the Army Audit Agency.

Copies of reports may be obtained from the appropriate issuing office by calling:

	      DoD OIG							                                                 Army Audit Agency
	      (703) 604-8937						                                           (703) 681-9863
	      http://www.dodig.mil						                                     http://www.hqda.army.mil/aaaweb

	      Naval Audit Service						                                      Air Force Audit Agency
	      (202) 433-5525						                                           (703) 696-7904
	      http://www.hq.navy.mil/NavalAudit				                          www.afaa.hq.af.mil

							

                    Summary of Number of Reports by Management Challenge Area
                                October 1, 2005 – March 31, 2006


                                                                    DoD OIG            Military Depts.      Total
Joint Warfighting and Readiness                                          2                     8             10
Homeland Defense                                                         -                     4              4
Human Capital                                                            1                    13             14
Information Technology Management                                        7                    10             17
Acquisition Processes/Contract Management                               12                    12             24
Financial Management                                                    39                    21             60
Health Care                                                              2                     4              6
Logistics                                                                1                    19             20
Infrastructure and Environment                                           2                    15             17
Base Realignment and Closure                                             -                     7              7
Other                                                                    2                     3              5
 Total                                                                  68                   116            184
For information on intelligence-related reports, including those issued by other Defense agencies, refer to page 55
under Deputy Inspector General for Intelligence, or to the classified annex to this report.

* Partially fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section
5(a)(6) (See Appendix B)


                                                                                       Office of the Inspector General 65
Appendix A


joint warfighting Air Force Audit Agency                                    HUMAN CAPITAL
and readiness
                                       F-2006-0001-FD1000 Prime Base
                                       Engineer Emergency Force Program     DoD OIG
DoD OIG
                                       (01/19/06)
                                                                            D-2006-070 Management of
D-2006-026 Air Force Operational                                            Emergency‑Essential Positions
                                       F-2006-0002-FD3000 Follow-up
Mobility Resources in the Pacific                                           in the U.S. European Command
                                       Audit, Space Operations Crew Force
Theater (CLASSIFIED) (11/17/05)                                             (03/31/06)
                                       Management (02/07/06)
D-2006-041 Operational Mobility:
                                       F-2006-0003-FD3000 Base              Army Audit Agency
Gap-Crossing Resources for the
                                       Support and Expeditionary Site
Korean Theater (CLASSIFIED)
                                       Planning (02/07/06)                  A-2006-0010-FFF Reserve
(12/26/05)
                                                                            Component Readiness Reporting,
                                                                            Army National Guard (11/09/05)
Army Audit Agency                      HOMELAND DEFENSE
                                                                            A-2006-0017-ALE Army Golf
A-2006-0003-FFM Kuwait Defense         Army Audit Agency                    Operations in Europe, U.S. Army
Cooperative Agreement (11/16/05)                                            Installation Management Agency,
                                       A-2006-0029-ALA Funding              Europe Region (11/10/05)
A-2006-0047-ALL Base Closure           Contract Security Guards at Army
Process in the Iraq Area of            Ammunition Installations, Program    A-2006-0019-ALE Followup Audit
Operations (01/11/06)                  Executive Officer, Ammunition        of Laundry and Dry Cleaning
                                       and U.S. Army Joint Munitions        Services, U.S. Army Installation
A-2006-0049-FFF Followup               Command (12/21/05)                   Management Agency, Europe
Audit of Advanced Individual                                                Region (12/02/05)
Training Courses, U.S. Army Air        Naval Audit Service
Defense Artillery School, Fort Bliss                                        A-2006-0061-FFP Followup Audit
(03/07/06)                             N2006-0004 Alternative               of Morale, Welfare, and Recreation
                                       Compensatory Control Measures        Acquisition Practices, U.S. Army
Naval Audit Service                    (11/17/05)                           Installation Management Agency,
                                                                            Korea Region Office (02/07/06)
N2006-0012 Navy Individual             N2006-0015 Chartered Cruise
Personnel TEMPO Accounting             Ships (02/16/06)                     A-2006-0051-FFF Material
(01/06/06)                                                                  Weakness Revalidation - Manpower
                                       Air Force Audit Agency               Requirements Determination
N2006-0019 United States Marine                                             (02/10/06)
Corps Demand on Equipment              F-2006-0001-FD3000 Security
(03/23/06)                             Guard Contract Management            A-2006-0041-FFF Management
                                       (11/15/05)                           of Initial Entry Training Soldiers
                                                                            (02/14/06)



66 Semiannual Report to the Congress
                                                                                                  Appendix A

A-2006-0079-FFM Material             INFORMATION                           D-2006-052 DoD Organization
Weaknesses Closeout on Line                                                Information Assurance Management
of Duty and Incapacitation Pay       TECHNOLOGY                            of Information technology Goods
(03/08/06)                           MANAGEMENT                            and Services Acquired Through
                                                                           Interagency Agreements (02/23/06)
Naval Audit Service                  DoD OIG
                                                                           D-2006-053 Select Controls
N2006-0008 Individual                D-2006-008 Report on the Defense      for the Information Security of
Community Studies – Enlisted         Departmental Reporting System         the Ground-Based Midcourse
Community Reviews (12/08/05)         and Related Financial Statement       Defense Communications Network
                                     Compilation Process Controls          (02/24/06)
Air Force Audit Agency               Placed in Operation and Tests of
                                     Operating Effectiveness for the       Army Audit Agency
F-2006-0002-FD2000                   Period October 1, 2004 through
Nonappropriated Fund Prime           March 31, 2005 (10/24/05)             A-2006-0015-ALA Followup
Vendor Food Purchase Program                                               Audit of Common Hardware
(FOR OFFICIAL USE ONLY)              D-2006-030 Report on                  Systems Notebook Computers, Fort
(03/15/06)                           Diagnostic Testing at the Defense     Monmouth, New Jersey (11/07/05)
                                     Information Systems Agency
F-2006-0001-FD4000 The Deputy        Center for Computing Services         A-2006-0044-FFM Attestation
Chief of Staff of Personnel - Role   (FOR OFFICIAL USE ONLY)               of Standard Procurement System -
Under Human Capital                  (11/30/05)                            Requirements Validation (01/23/06)
Performance Management
(11/23/05)                           D-2006-031 Report on                  A-2006-0071-ALA Joint Network
                                     Penetration Testing at the Defense    Node, Fort Monmouth, New Jersey
F-2006-0002-FD4000 Pilot             Information Systems Agency            (03/07/06)
Selection Methods (12/30/05)         Center for Computing Services
                                     (FOR OFFICIAL USE ONLY)               A-2006-0066-FFM Integrated
F-2006-0003-FD4000 Air Force         (11/30/05)                            Facilities System, Requirements
Academy and Preparatory School                                             Validation (03/08/06)
Oversight Framework                  D-2006-042 Security Status
(03/15/06)                           for Systems Reported in DoD           A-2006-0082-FFI Attestation
                                     Information Technology Databases      Review of Investment and Cost
F-2006-0004-FD4000 Pilot             (12/30/05)                            Benefit Estimates for the Publication
Training Methods (03/27/06)                                                Content Management Program
                                     D-2006-046 Technical Report on        Initiative (03/14/06)
                                     the Defense Property Accountability
                                     System (FOR OFFICIAL USE
                                     ONLY) (01/27/06)




                                                                                  Office of the Inspector General 67
Appendix A


Naval Audit Service                    D-2006-007 Contracts Awarded to      D-2006-066 Report on the
                                       Assist the Global War on Terrorism   Procurement Processes and
N2006-0003 Safeguarding                by the U.S. Army Corps of            Procedures for the C-40 Lease
Department of the Navy Protected       Engineers (10/14/05)                 and Purchase Programs and C-
Health Information in Medical                                               22 Replacement Program (C-40)
Automated Information Systems          D-2006-010 Contract Surveillance     (FOR OFFICIAL USE ONLY)
(11/10/05)                             for Service Contracts (10/28/05)     (03/28/06)

N2006-0013 Summary Report              D-2006-027 Contract Award and        Army Audit Agency
– Information Security Within the      Administration for Coupling Half
Navy (01/13/06)                        Quick Disconnect (11/23/05)          A-2006-0016-ALI Contracting
                                                                            and Cooperative Agreements, U.S.
N2006-0017 Navy Legacy                 D-2006-055 Spare Parts               Property and Fiscal Office, Indiana
Applications and Databases             Procurement From TransDigm, Inc.     Army National Guard (11/18/05)
(02/27/06)                             (FOR OFFICIAL USE ONLY)
                                       (02/23/06)                           A-2006-0028-ALM Stryker
Air Force Audit Agency                                                      Contract Logistics Support Costs,
                                       D-2006-058 Source Selection          Office of the Project Manager,
F-2006-0001-FB2000 Reliability         Procedures for the C-5 Avionics      Stryker Brigade Combat Team
of Data Supporting Air Force           Modernization Program (02/28/06)     (12/06/05)
Information and Logistics Systems
(11/15/05)                             D-2006-059 Air Force Procurement     A-2006-0036-ALA Earned Value
                                       of 60K Tunner Cargo Loader           Management (12/22/05)
F-2006-0002-FB2000 Air Force           Contractor Logistics Support
Travel Systems (03/03/06)              (03/03/06)                           A-2006-0045-ALL Audit of
                                                                            Training Resource Model Inputs --
                                       D-2006-060 Systems Engineering
ACQUISITION                                                                 Acquisition Contracting, U.S. Army
                                       Planning for the Ballistic Missile
PROCESSES AND                                                               Tank-Automotive and Armaments
                                       Defense System (FOR OFFICIAL         Life Cycle Management Command,
CONTRACT                               USE ONLY) 03/02/06                   Warren, Michigan, and Rock Island,
MANAGEMENT                                                                  Illinois (01/10/06)
                                       D-2006-061 Source Selection
                                       Procedures for the Navy              A-2006-0053-ALR Followup of
DoD OIG                                Construction Capabilities Contract   Audit Report A-2002-0492-AMW,
                                       (FOR OFFICIAL USE ONLY)              Government Purchase Cards,
D-2006-001 Audit of the Common         03/03/06                             U.S. Army Materiel Command
Submarine Radio Room (10/03/05)
                                                                            (01/27/06)
                                       D-2006-065 Procurement               A-2006-0062-FFH Attestation
D-2006-004 Acquisition of the          Procedures Used for F-16 Mission     Review of Army and Air Force
Objective Individual Combat            Training Center Simulator Services   Exchange Service External Contract
Weapon (FOR OFFICIAL USE               03/24/06                             Oversight (01/27/06)
ONLY) (10/07/05)


68 Semiannual Report to the Congress
                                                                                                    Appendix A


A-2006-0083-ALL Audit of               FINANCIAL                             D-2006-015 Independent Auditor’s
Retrograde Operations (Task                                                  Report on the Fiscal Year 2005 Army
Order 87), Audit of Logistics Civil
                                       MANAGEMENT                            General Fund Financial Statements
Augmentation Program Operations                                              (11/08/05)
in Support of Operation Iraqi          DoD OIG
Freedom (03/21/06)                                                           D-2006-016 Independent Auditor’s
                                       D-2006-002 Civilian Payroll and       Report on the Fiscal Year 2005 Navy
Naval Audit Service                    Withholding Data for FY 2005          Working Capital Fund Financial
                                       (10/06/05)                            Statements (11/08/05)
N2006-0007 Use of General
Services Administration 	              D-2006-006 Management of the          D-2006-017 Independent Auditor’s
Leased Vehicle Fuel Credit Card at 	   National Committee for Employer       Report on the Fiscal Year 2005 Navy
Selected Department of the Navy        Support of the Guard and Reserves     General Fund Financial Statements
Activities (12/06/05)                  (10/06/05)                            (11/08/05)

N2006-0011 Marine Corps                D-2006-009 Independent                D-2006-018 Independent Auditor’s
Management of Service Contracts        Examination of Valuation and          Report on the Fiscal Year 2005
(12/27/05)                             Completeness of U.S. Army Corps       Air Force General Fund Financial
                                       of Engineers Buildings and Other      Statements (11/08/05)
Air Force Audit Agency                 Structures (10/28/05)
                                                                             D-2006-019 Independent Auditor’s
F-2006-0001-FC1000 Review of           D-2006-011 Foreign Military Sales     Report on the Fiscal Year 2005
Air Force Preliminary Planning         Trust Fund Cash Management            Air Force Working Capital Fund
Guidance and Criteria for OMB          (11/07/05)                            Financial Statements (11/08/05)
Circular A-76 (03/03/06)
                                       D-2006-012 Controls Over Funds        D-2006-020 Independent Auditor’s
F-2006-0002-FC1000 Summary             Used by the DoD for the National      Report on the Fiscal Year 2005
of Independent Review Official         Drug Control Program (11/07/05)       U.S. Army Corps of Engineers,
Costing Issues (03/16/06)                                                    Civil Works Financial Statements
                                       D-2006-013 Compiling and              (11/08/05)
F-2006-0001-FC3000 Support             Recording Financial Adjustments
Contract Data Validation               Related to DoD Commercial             D-2006-021 Endorsement of
(02/07/06)                             Payments (11/08/05)                   the Qualified Opinion on the
                                                                             FY 2005 DoD Medicare-Eligible
                                       D-2006-014 Independent Auditor’s      Retiree Health Care Fund Financial
                                       Report on the Fiscal Year 2005 Army   Statements (11/08/05)
                                       Working Capital Fund Financial
                                       Statements (11/08/05)                 D-2006-022 Independent Auditor’s
                                                                             Report on the Department of
                                                                             Defense FY 2005 Agency-Wide
                                                                             Principal Financial Statements
                                                                             (11/12/05)


                                                                                    Office of the Inspector General 69
Appendix A

D-2006-023 Endorsement of the          D-2006-037 Puget Sound Naval          D-2006-050 Accuracy of Navy
Unqualified Opinion on the FY          Shipyard Mission-funded Prototype     Contract Financing Amounts
2005 Military Retirement Fund          (12/09/05)                            (02/13/06)
Financial Statements (11/04/05)
                                       D-2006-038 DoD Compliance             D-2006-054 DoD Process for
D-2006-024 Independent Auditor’s       with the Government Performance       Reporting Contingent Legal
Report on the FY 2005 DoD              and Results Act of 1993 (12/13/05)    Liabilities (02/24/06)
Special-Purpose Financial Statements
(11/18/05)                             D-2006-039 Internal Controls Over     D-2006-056 Vendor Pay
                                       the Compilation of the Air Force,     Disbursement Cycle, Air Force
D-2006-025 Accuracy of Air             General Fund, Fund Balance With       General Fund: Contract Formation
Force Contract Financing Amounts       Treasury for FY 2004 (12/22/05)       and Funding (03/06/06)
(11/14/05)
                                       D-2006-043 Army Management            D-2006-057 Corrective Actions for
D-2006-029 Potential                   of the Army Game Project Funding      Previously Identified Deficiencies
Antideficiency Act Violations          (01/06/06)                            Related to the National Geospatial-
Identified During Audit of                                                   Intelligence Agency Financial
the Acquisition of the Pacific         D-2006-045 Endorsement of             Statements (CLASSIFIED)
Mobile Emergency Radio System          the Deloitte & Touche LLP             (02/28/06)
(11/23/05)                             Management Letters on the FY
                                       2005 Military Retirement Fund         D-2006-062 Internal Controls
D-2006-032 Independent                 Financial Statements Opinion Audit    Over Compiling and Reporting
Accountant’s Report of Agreed-Upon     (FOR OFFICIAL USE ONLY)               Environmental Liabilities Data
Procedures on the FY 2005 Chief        (01/10/06)                            (03/15/06)
Financial Officer’s Representations
for Federal Intragovernmental          D-2006-047 Independent Auditor’s      D-2006-063 Internal Controls
Activity and Balances (12/02/05)       Report on the DoD FY 2005             Over Departmental Expenditure
                                       Detailed Accounting Report of         Operations at Defense Finance and
D-2006-033 Defense Finance             the Funds Obligated for National      Accounting Service Indianapolis
and Accounting Service Corporate       Drug Control Program Activities       (03/10/06)
Database User Access Controls          (01/26/06)
(12/07/05)                                                                   D-2006-064 Appropriated Funds
                                       D-2006-048 Reliability of Financial   Distribution Within the Program
D-2006-034 Accuracy of the             Data Accumulated and Reported         Budget Accounting System
Contributions to the Medicare-         by the Space and Naval Warfare        ()3/17/06)
Eligible Retiree Health Care Fund      Systems Centers (FOR OFFICIAL
(12/07/05)                             USE ONLY) (01/31/06)                  D-2006-068 Implementation of
                                                                             the Business Enterprise Information
D-2006-035 FY 2004 DoD                 D-2006-049 Audit of the FY 2004       Services for the Army General Fund
Superfund Transactions (12/07/05)      Marine Corps Entitlements and         (03/31/06)
                                       Withholding (02/10/06)



70 Semiannual Report to the Congress
                                                                                                     Appendix A


Army Audit Agency                      A-2006-0052-ALR Followup               N2006-0002 Auditor General
                                       Audit of Aged Accounts, U.S. Army      Advisory Report on Military Sealift
A-2006-0007-FFM Independent            Aviation and Missile Command           Command Financing Mechanism
Auditors Report for FY 05 American     (01/26/06)                             (11/08/05)
Red Cross Financial Statements
(10/21/05)                             A-2006-0046-ALA Fund                   N2006-0016 Special Operations
                                       Accountability for Fiscal Year 2004    Fund (CLASSIFIED) (02/24/06)
A-2006-0006-FFP Review of the          Iraq Relief and Reconstruction
Army Management Control Process        Funds, Project and Contracting         N2006-0018 Aircraft Engine
FY 05, US Army Pacific, Fort           Office, Washington, DC (01/31/06)      Management System (03/22/06)
Shafter, Hawaii (11/02/05)
                                       A-2006-0065-ALR Followup               Air Force Audit Agency
A-2006-0002-FFM Review of the          of Audit Report AA 01-443,
Army Management Control Process        Compilation of Army Working            F-2006-0001-FB3000 Air Force
FY 05, Deputy Chief of Staff, G-2      Capital Fund Fiscal Year 2000 1307     Working Capital Fund Tri-Annual
(11/03/05)                             Accounting Report (02/13/06)           Review Process - Depot
                                                                              Maintenance Activity Group
A-2006-0011-FFM Review of              A-2006-0059-FFM Review of the          (02/07/06)
the Army Management Control            Army Management Control Process
Process FY 05, Office of the Surgeon   FY 05, Assistant Secretary of the      F-2006-0004-FD3000 Intelligence
General/U.S. Army Medical              Army (Financial Management and         Contingency Funds - Fiscal Year
Command (11/03/05)                     Comptroller) (03/03/06)                2004 (03/01/06)

A-2006-0012-FFM Review of Army         A-2006-0081-ALL Audit of               F-2006-0002-FB3000 General
Management Control Process FY          Unliquidated Obligations, Audit        Fund and Working Capital Fund
05, Chief Information Officer/G-6      of Logistics Civil Augmentation        Capital Lease Assets and Liabilities
(11/17/05)                             Program Operations in Support of       (03/03/06)
                                       Operation Iraqi Freedom (03/17/06)
A-2006-0013-FFM Defense                                                       F-2006-0003-FB3000 Selected
Property Accountability System         A-2006-0090-ALE Followup Audit         Aspects of General Fund Accounts
Material Weakness Closeout,            II of the Commander’s Emergency        Payable (03/06/06)
Criminal Investigative Division        Response Program and Quick
Laboratory, Fort Gillem, Georgia       Response Fund, Multi-National
(11/17/05)                             Security Transition Command – Iraq
                                       (03/31/06)
A-2006-0020-FFM Review of
the Army Management Control            Naval Audit Service
Process FY 05, U.S. Army Network
Enterprise Technology Command/         N2006-0001 Fiscal Year 2004
9th Army Signal Command                Implementation of the Federal
(11/23/05)                             Managers’ Financial Integrity Act at
                                       Selected Naval Activities (10/31/05)


                                                                                     Office of the Inspector General 71
Appendix A


HEALTH CARE                            LOGISTICS                               A-2006-0043-ALI Contract
                                                                               Management of Equipment
                                                                               Transition Sites, U.S. Army Reserve
DoD OIG                                DoD OIG                                 Command, Fort McPherson,
                                                                               Georgia (02/10/06)
D-2006-003 Security Controls           D-2006-040 Air Force Controls
Over Selected Military Health          Over the Return of Depot-Level          A-2006-0055-ALM Impact of
System Corporate Databases             Reparable Assets (12/22/05)             Warranties on Weapon System
(FOR OFFICIAL USE ONLY)                                                        Maintenance Costs (02/13/06)
(10/07/05)                             Army Audit Agency
                                                                               A-2006-0064-FFM Defense
D-2006-051 TRICARE Overseas            A-2006-0018-ALL Logistics Civil         Property Accountability System
Controls Over Third Party Billing      Augmentation Program Support            Material Weakness Closeout, Night
Agencies and Supplemental Health       Unit Training, Logistics Civil          Vision and Electronic Sensors
Insurance Plans (FOR OFFICIAL          Augmentation Program Support            Directorate, Fort Belvoir, Virginia
USE ONLY) (02/10/06)                   Unit Headquarters, Fort Belvoir,        (02/24/06)
                                       Virginia (11/17/05)
Army Audit Agency                                                              A-2006-0060-FFM Defense
                                       A-2006-0022-ALL Logistics Civil         Property Accountability System
A-2006-0005-FFH Audit of               Augmentation Program, U.S. Army         Material Weakness Closeout, Fort
Contracts for Medical Goods and        Materiel Command (11/28/05)             Bragg, North Carolina (03/06/06)
Services, Contract DADA09-03-
P-0961, Neurosurgeon Services,         A-2006-0014-ALM Depot-Level             A-2006-0086-ALM Coordination
William Beaumont Army Medical          Maintenance for Secondary Items,        Between Local and National Level
Center (10/20/05)                      Phase I - Repair Versus Procurement     Reset, Fort Hood, Texas (03/30/06)
                                       Decisions, U.S. Army Tank-
A-2006-0068-FFH Contracts              Automotive and Armaments Life           A-2006-0089-ALE Followup Audit
for Medical Goods and Services,        Cycle Management Command                of Requirements for Nontactical
Contract W81K00-04-D-0001              (12/14/05)                              Vehicles, U.S. Army Installation
(Medical Processing Assistants)                                                Management Agency, Europe
(02/23/06)                             A-2006-0032-ALE Followup Audit          Region (03/30/06)
                                       of Ammunition Accountability--
A-2006-0070-FFP Followup Audit         Reserve Storage Activity, Miesau,       Air Force Audit Agency
of Healthcare for DA Civilians         U.S. Army, Europe and Seventh
Stationed Overseas, Eighth U.S.        Army (12/14/05)                         F-2006-0001-FC2000 C-17
Army, Korea (02/28/06)                                                         Aircraft Engine (F117) Maintenance
                                       A-2006-0063-ALR Increasing              Operations (11/15/05)
Air Force Audit Agency                 Safety Levels for Spare Parts, Office
                                       of the Deputy Chief of Staff, G-4       F-2006-0002-FC2000 Aircraft
F-2006-0001-FD2000 Hearing             (1/31/06)                               Engine Reliability-Centered
Conservation Program (01/05/06)                                                Maintenance (11/16/05)



72 Semiannual Report to the Congress
                                                                                                     Appendix A

F-2006-0003-FC2000 U-2                Army Audit Agency                       A-2006-0034-FFE Environmental
Maintenance (03/15/06)                                                        Liabilities (02/15/06)
                                      A-2006-0008-ALO Followup
F-2006-0001-FC4000 Depot Stock        Audit of Privatization of Utility       A-2006-0075-ALE Capital
Level Days (11/09/05)                 Distribution System, Fort Hamilton,     Purchases and Minor Construction
                                      New York (11/03/05)                     in Europe, U.S. Army Installation
F-2006-0002-FC4000 Readiness                                                  Management Agency, Europe
Spares Package Requirements           A-2006-0024-FFE Followup Audit          Region (03/09/06)
(11/15/05)                            of Army Wastewater Systems, Office
                                      of the Assistant Chief of Staff for     A-2006-0076-ALE Military
F-2006-0003-FC4000 Supply             Installation Management (12/02/05)      Construction Requirements in
Discrepancy Report Program                                                    Europe (03/17/06)
(11/15/05)                            A-2006-0026-ALO Barracks
                                      Sustainment, Restoration, and           Naval Audit Service
F-2006-0004-FC4000 Shop Flow          Modernization, U.S. Army Garrison,
Time Data Accuracy (12/02/05)         Fort Hood, Texas (12/09/05)             N2006-0005 Military
                                                                              Construction, Navy Projects
F-2006-0005-FC4000 Supply Item        A-2006-0030-FFD Civil Works             Proposed for Fiscal Year 2007
Pricing (02/07/06)                    Project Cooperation Agreements,         (11/21/05)
                                      Office of the Assistant Secretary
INFRASTRUCTURE                        of the Army (Civil Works) and           Air Force Audit Agency
                                      U.S. Army Corps of Engineers
AND ENVIRONMENT                       (12/13/05)                              F-2006-0002-FD1000 Housing
                                                                              Tenant Liabilities (03/03/06)
DoD OIG                               A-2006-0027-FFF Followup Audit
                                      of Military Training Service Support-   F-2006-0003-FD1000 Utilities
D-2006-028 DoD Reporting              Pilot Test, Fort Gordon, Georgia        Privatization Economic Analysis
System for the Competitive Sourcing   (12/16/05)                              - First Quarter Fiscal Year 2006
Program (11/22/05)                                                            (03/16/06)
                                      A-2006-0031-FFP Followup Audit
D-2006-036 Public-Private             of Quartermaster Laundry Service        F-2006-0004-FD1000
Competition for Environmental         - Korea, Eighth U.S. Army, Seoul,       Environmental Remediation
Services at the Navy Public Works     Korea (12/22/05)                        Estimates (03/27/06)
Center, San Diego, California
(FOR OFFICIAL USE ONLY)               A-2006-0058-FFP Barracks
(12/08/05)                            Improvement Program, U.S. Army
                                      Garrison, Hawaii (01/24/06)

                                      A-2006-0033-FFE Remediation at
                                      Aberdeen Proving Ground, Aberdeen
                                      Proving Ground, Maryland
                                      (02/10/06)


                                                                                     Office of the Inspector General 73
Appendix A


BASE REALIGNMENT                       F-2006-0005-FB4000 2005 Base
                                       Realignment and Closure - Joint
AND CLOSURE                            Cross-Service Group Data
                                       Collection (03/01/06)
Naval Audit Service
                                       OTHER
N2006-0009 Independent
Attestation Review of Financial 	
Statements for the Charleston Naval    DoD OIG
Complex Redevelopment Authority
No-Cost Economic Development           D-2006-044 Controls Over the
Conveyance (12/21/05)                  Export of Joint Strike Fighter
                                       Technology (FOR OFFICIAL USE
N2006-0010 Auditor General             ONLY) (01/11/06)
Advisory – 	 Opportunities for
Management Improvements Over           D-2006-067 Controls Over Exports
No-Cost Economic Development           to China (03/30/06)
Conveyances Within the
Department of the Navy (12/22/05)      Army Audit Agency

Air Force Audit Agency                 A-2006-0035-FFD Workload
                                       Survey: Iraq Reconstruction, Corps
F-2006-0001-FB4000 2005 Base           of Engineers (12/20/05)
Realignment and Closure - Air Force
Data Collection (11/09/05)
                                       Naval Audit Service
F-2006-0002-FB4000 2005 Base
Realignment and Closure - Air Force    N2006-0006 Internal Controls
Analysis (01/05/06)                    Over the Personnel Security
                                       Function at Fleet and Industrial
F-2006-0003-FB4000 2005 Base           Supply 	Center Puget Sound
Realignment and Closure - Cost of      (FOR OFFICIAL USE ONLY)
Base Realignment Actions               (11/23/05)
(01/19/06)
                                       N2006-0014 Peer Review of Marine
F-2006-0004-FB4000 2005                Corps Nonappropriated Fund Audit
Base Realignment and Closure -         Service (02/14/06)
NOISEMAP Reliability (02/07/06)




74 Semiannual Report to the Congress
                                                   appendix B

               dod oig audit reports issued containing quantifiable
                           potential monetary benefits


                                                                                 Potential Monetary Benefits
                           Audit Reports Issued                                 Disallowed      Funds Put to
                                                                                  Costs 1
                                                                                                  Better Use
D-2006-026 Air Force Operational Mobility Resources in the Pacific
Theater (U) (11/17/2005)                                                            N/A                  2,000,000
D-2006-027 Contract Award and Administration for Coupling Half
Quick Disconnect (11/23/2005)                                                       N/A                  3,300,000
D-2006-043 Army Management of the Army Game Project Funding
(1/6/2006)                                                                          N/A                 13,412,943
D-2006-049 Audit of the FY 2004 Marine Corps Entitlements and
Withholding (2/10/2006)                                                             N/A                   800,000
D-2006-055 Spare Parts Procurements From TransDigm, Inc.
(2/23/2006)                                                                         N/A                 34,400,000
D-2006-059 Air Force Procurement of 60K Tunner Cargo Loader
Contractor Logistics Support (3/3/2006)                                             N/A                 20,341,000
Totals                                                                                                $74,253,943
1
    There were no OIG audit reports during the period involving disallowed costs.

*Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section
5(a)(6) (See Appendix A).




                                                                                        Office of the Inspector General 75
                                                       appendix C*

                                               followup activities


                DECISION STATUS OF DOD OIG ISSUED AUDIT REPORTS AND
               DOLLAR VALUE OF RECOMMENDATIONS THAT FUNDS BE PUT TO
                               BETTER USE ($ in thousands)
                                                                  Funds Put
                                Status                     Number To Better
                                                                    Use 1
          A.       For which no management decision had been made by the
                   beginning of the reporting period.                                               22              $0
          B.	      Which were issued during the reporting period.                                   67            74,254
                   Subtotals (A+B)                                                                  89            74,254
          C.	      For which a management decision was made during the                              47            23,641
                   reporting period.

                  (i) 	   dollar value of recommendations that were agreed to
                          by management.
                          - based on proposed management action
                          - based on proposed legislative action
                (ii)	     dollar value of recommendations that were not agreed
                          to by management.                                                    23,6412
          D.	     For which no management decision has been made by the
                  end of the reporting period.                                       42        50,613
                  Reports for which no management decision was made within
                  6 months of issue (as of March 31, 2006).                          73            0
          1 There were no DoD OIG audit reports issued during the period involving “questioned costs.”
          2 On these audit reports management has agreed to take the recommended actions, but the
            amount of agreed monetary benefits cannot be determined until those actions are completed.
          3 DoD OIG Report No. D-2004-064, “Acquisition of the Boeing KC-767A Tanker Aircraft,”
            March 29, 2004; DoD OIG Report No. D-2005-054, “DoD Information
            Technology Security Certification and Accreditation Process,” April 28, 2005; DoD OIG
            Report No. D-2005-062, “Audit of Contract Financing Payments,” May 10, 2005; DoD OIG
            Report No. D-2005-093, “Technical Report on the Standard Finance System,” August 17,
            2005; DoD OIG Report No. D-2005-094, “Proposed DoD Information Assurance
            Certification and Accreditation Process,” July 21, 2005; DoD OIG Report No. D-2005-099,
            “Status of Selected DoD Policies on Information Technology Governance,” August 19, 2005;
            and, DoD OIG Report No. 05-INTEL-13, “Incident Reporting and Forensic Capabilities,”
            May 27, 2005, had no management decision as of March 31, 2006, but action to achieve a
            decision is in process. (Action to achieve a decision on Report D-2004-064 was on hold
            pending a DoD decision on the tanker replacement program. The decision was made on
            April 13, 2006.)
         * Fulfills requirements of Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section 5 (a) (8) (9) & (10).

76 Semiannual Report to the Congress
                            FOLLOWUP STATUS REPORT*

            STATUS OF ACTION ON CENTRAL INTERNAL AUDITS
                        Period ending March 31, 2006
                               ($ in thousands)
                                                            Funds Put
                        Status                       Number to Better
                                                              Use 1
OIG DoD
  Action in Progress - Beginning of Period                                252             $0
  Action Initiated - During Period                                         47              0
  Action Completed - During Period                                         57           10,734
  Action in Progress - End of Period                                      242             02
Military Departments
  Action in Progress - Beginning of Period                                6493        2,802,854
  Action Initiated - During Period                                        129         1,015,622
  Action Completed - During Period                                        262         1,627,588
  Action in Progress - End of Period                                      516         1,815,776

1 There were no OIG DoD audit reports issued during the period involving “questioned costs.”
2 On certain reports (from prior periods) with audit estimated monetary benefits of $7,136
  million, we agreed that the resulting monetary benefits can only be estimated after completion
  of management action, which is ongoing.
3 Incorporates retroactive adjustments.


* Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3,
  Section 5(b)(2) & (3).




                                                                             Office of the Inspector General 77
                                                    appendix D

                                  CONTRACT AUDIT REPORTS ISSUED1
                                                ($ in millions)
                                   October 1, 2005 through March 31, 2006



                                            REPORTS          QUESTIONED FUNDS PUT TO
TYPE OF AUDIT           2
                                             ISSUED EXAMINED   COSTS3    BETTER USE
Incurred Costs, Ops Audits,
Special Audits                                 10,507           $63,097.2              $386.6                  $63.54
Forward Pricing Proposals                       4,271           $60,808.0                ---                 $2,403.65
Cost Accounting Standards                       1,002             $82.8                $47.2                     ---
Defective Pricing                                174             (Note 6)              $19.2                     ---
Totals                                        15,954           $123,988               $453.0                 $2,467.1
Note 1. This schedule represents Defense Contract Audit Agency (DCAA) contract audit reports issued during the 6 months
ended March 31, 2006. Both “Questioned Costs” and “Funds Put to Better Use” represent potential cost savings. Because of
limited time between availability of management information system data and legislative reporting requirements, there is mini-
mal opportunity for DCAA to verify the accuracy of reported data. Accordingly, submitted data is subject to change based on
subsequent DCAA authentication.

Note 2. This schedule represents audits performed by DCAA summarized into four principal categories, which are defined as:
   Incurred Costs – Audits of direct and indirect costs charged to Government contracts to determine that the costs are
reasonable, allocable, and allowable as prescribed by the Federal Acquisition Regulation, Defense Federal Acquisition
Regulation, and provisions of the contract. Also included under incurred cost audits are Operations Audits, which evaluate a
contractor’s operations and management practices to identify opportunities for increased efficiency and economy; and Special
Audits, which include audits of terminations and claims.
   Forward Pricing Proposals – Audits of estimated future costs of proposed contract prices, proposed contract change
orders, costs for redeterminable fixed-price contracts, and costs incurred but not yet covered by definitized contracts.
   Cost Accounting Standards – A review of a contractor’s cost impact statement required due to changes to disclosed
practices, failure to consistently follow a disclosed or established cost accounting practice, or noncompliance with a CAS
regulation.
   Defective Pricing – A review to determine whether contracts are based on current, complete and accurate cost or pricing
data (the Truth in Negotiations Act).

Note 3. Questioned costs represent costs that DCAA has questioned because they do not comply with rules, regulations, laws,
and/or contractual terms.

Note 4. Represents recommendations associated with Operations Audits where DCAA has presented to a contractor that
funds could be used more effectively if management took action to implement cost reduction recommendations.

Note 5. Represents potential cost reductions that may be realized during contract negotiations.

Note 6. Defective pricing dollars examined are not reported because the original value was included in the audits associated
with the original forward pricing proposals.

78 Semiannual Report to the Congress
                                              appendix E

                    STATUS OF action on
          significant post‑award contract audits1
                                    Period Ending March 31, 2006
                                            ($ in millions)

                                     Number of
                                      Reports Costs Questioned Disallowed Costs6

Open Reports:

    Within Guidelines2                     301                 $422.5                       N/A7

    Overage, greater than 6
    months3
                                           471               $1,204.8                       N/A

    Overage, greater than 12
    months4                                277                 $807.6                       N/A

    In Litigation5                         84                $1,791.8                       N/A

Total Open Reports                       1,133               $4,226.7                       N/A

Closed Reports                             327                 $765.5                $304.5 (39.8%)


1
  This schedule represents the status of Defense Contract Audit Agency reports on incurred costs, defective
   pricing, equitable adjustments, accounting and related internal control systems, and noncompliances with
   the Cost Accounting Standards as reported by the Army, Navy, Air Force, Defense Contract Management
   Agency, and TRICARE. Contract audit followup is reported in accordance with DoD Directive 7640.2,
   “Policy for Followup on Contract Audit Reports.” Because of limited time between availability of the data
   and reporting requirements, there is minimal opportunity to verify the accuracy of the reported data.
2
  These reports are within the time frames established by OMB Circular A-50, “Audit Followup”, and DoD
   Directive 7640.2 as described in footnotes 3 and 4 below.
3
   OMB Circular A-50 requires that audit reports be resolved within 6 months after report issuance. Generally,
    an audit is resolved when the contracting officer determines a course of action which is documented and
    approved in accordance with agency policy.
4
  DoD Directive 7640.2 states that audit reports are overage if not dispositioned within 12 months from date
   of issuance. Generally, disposition is achieved when the contractor implements audit recommendations, the
   contracting officer negotiates a settlement with the contractor, or the contracting officer issues a final
   decision pursuant to the Disputes Clause.
5
  Of the 84 reports in litigation, 3 are under criminal investigation.
6
  Disallowed costs are costs sustained by the contracting officer in negotiations with contractors.
7
   N/A (not applicable)


                                                                                          Office of the Inspector General 79
                                                              appendix F

 Status of Dod oig reports more than 12 months old with
                  final action pending 1,2
                                                    (As of September 30, 2005)

         Report                                                                       Reason Action Not               Principle
     Number/Title/Date                       Description of Action                       Completed                  Action Office
   94-062, Financial Status of Air    Changes to policy guidance to include        Coordination issues within DoD USD(C)
   Force Expired Year Appropria-      refunds receivable arising from matters in   continue to be addressed.
   tions, 3/18/1994                   litigation.
   96-156, Implementation of the      Implement system changes to correct       Correction of this material weak- DFAS
   DoD Plan to Match Disburse-        weaknesses in the automated prevalidation ness involves a long-term effort.
   ment to Obligations Prior to       process.
   Payment, 6/11/1996
   97-100, Asset Presentation on      Clarify accounting guidance for the report- Awaiting an opinion from the      USD(C)
   Military Department Gen-           ing of progress payments to ensure con-     FASAB on financial statement
   eral Fund Financial Statements,    sistent presentation by the DFAS Centers presentation issues.
   2/25/1997                          on Military Departments General Fund
                                      financial statements and future DoD con-
                                      solidated statements.
   97-112, Air Mobility Command       AMC is to develop a methodology for       Competing management priori-        USTRANSCOM
   (AMC) Financial Reporting of       keeping PP&E current and providing ac- ties.                                  DFAS
   Property, Plant, and Equipment     curate and useful information to DFAS for
   (PP&E), 3/19/1997                  preparation of financial statements.
   97-134, Disposal of Munitions Change regulations to advance identifica-         Personnel turnover has delayed   USD(AT&L)
   List Items in the Possession of tion of munitions list items to the early       implementation of the Manual.
   Defense Contractors, 4/22/1997 stages of the acquisition process.
   97-187, Communications             Revise the Joint Operation and Planning Final coordination in process         JS
   Capability Within the DoD to       and Execution System to include command after completion of changes to
   Support Two Major Regional         and control and non-command and control overarching doctrine on the war
   Conflicts Nearly Simultaneously,   communications requirements to better        planning process.
   7/14/1997                          ensure planning will support future regional
                                      conflicts.
   98-022, Reporting of Contract Develop guidance regarding presentation Awaiting an opinion from the               USD(C)
   Holdbacks on the DoD Financial of holdbacks on interim progress payments FASAB on financial statement
   Statements, 11/17/1997         in the financial statements and publish that presentation issues.
                                  guidance in the Financial Management
                                  Regulation.
   98-049, DoD Sensitive Sup-         Report is classified.                        Actions still ongoing.           USD(I)
   port Focal Point System (U),
   1/20/1998
   98-052, Defense Logistics Agen- Issue accounting and billing policy for req- Publication of the DoD FMR        USD(C)
   cy Past Due Federal Accounts    uisitions under the Shelter for the Homeless revision has been delayed pending
   Receivable, 1/22/1998           Program. Chapter 5 of DoD FMR Volume the resolution of significant policy
                                   11B is being revised to implement the guid- issues.
                                   ance.

 1 Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section 5(b)(4).
 2 For this reporting period, there are no disallowed costs on reports over 12 months old with final action pending.



80 Semiannual Report to the Congress
98-063, Defense Logistics         Revisions to DLA Instruction 4155.24,          A decision was made to combine DLA
Agency Product Quality Defi-      “Quality Assurance Program for DLA             the draft directive and instruc-
ciency Program, 2/5/1998          Inventory Control Points.”                     tion back into a single regulation
                                                                                 format.
98-067, Access Reciprocity        Standardize Special Access Program (SAP) Competing management priori- USD(I), Army,
Between DoD Special Access        eligibility implementing criteria and de- ties; however, some corrective ac- Navy, AF
Programs, 2/10/1998               velop a centralized SAP database.         tions were outside DoD’s span of
                                                                            control. Unprecedented transfor-
                                                                            mation of the personnel security
                                                                            program has delayed implementa-
                                                                            tion.
98-100, Fund Balance With       Issue Standard Operating Procedures to the Implementation strategy changes DFAS
Treasury Account in the FY 1996 DFAS centers for reporting undistributed and unique reporting issues caused
Financial Statements of the De- balances in the monthly Accounting Report delays. DFAS revised the format
fense Business Operations Fund, 1307.                                      for the report, but the related
4/2/1998                                                                   DoD FMR guidance is still being
                                                                           developed.
98-116, Accounting for Defense Revise procedures for handling accounts           Competing management priori-   DFAS
Logistics Agency Supply Manage- receivable. Implement standard general           ties.
ment Receivables, 4/20/1998     ledger in accounting systems.
98-124, Department of De-         Implement peer review program and estab- Competing management priori- USD(I)
fense Adjudication Program,       lish continuing education standards and a ties. Impacted by transformation
4/27/1998                         program for the professional certification of the personnel security program.
                                  for adjudicators.
98-170, Army National Guard       Revise and issue NGB Regulation 385-15 Lack of funding and personnel.         NGB
and U.S. Army Reserve Com-        and NGB Pamphlet 385-15 that addresses
mand Small Arms Indoor Firing     identification and abatement of lead con-
Ranges, 6/30/1998                 tamination for indoor ranges, including mi-
                                  gration outside the immediate range area.
99-078, Outsourcing of Defense Perform an outsourcing study for account- Extensive time due to need to      DeCA
Commissary Agency Operations, ing positions.                             conduct regional consolidation/re-
2/5/1999                                                                 organization.
99-102, Chemical and Biological Report is classified.                            Lack of management responsive- Army
Warfare Defense Resources in the                                                 ness.
U.S. European Command (U),
3/4/1999
99-159, Interservice Availabil-   Revise Joint Service Regulation to require Delays have been experienced in    Army
ity of Multiservice Used Items,   consistent item management wherever eco- coordinating and issuing policy.
5/14/1999                         nomical and safe. Services provide training
                                  on disposal authority for multi-service used
                                  items and requirements related to excess
                                  assets quantities.
99-186, DoD Export Licens-        Develop a process for identifying and estab- Delays in coordinating and issuing USD(P)
ing Processes for Dual-Use        lishing assessment priorities related to the policy.
Commodities and Munitions,        cumulative effect of technology transfers.
6/18/1999
99-191, Compilation of the FY     Explain material abnormal balances             Corrective actions have not been DFAS
1998 Financial Statements for     reported on the financial statements, and      verified.
Other Defense Organizations,      disclose and explain in the financial state-
6/24/1999                         ment notes.




                                                                                                     Office of the Inspector General 81
   99-250, Construction and Reha- Revise and issue NGB Regulation 385-15 Lack of funding and personnel.                 NGB
   bilitation of Reserve Component, and NGB Pamphlet 385-15 that addresses
   9/13/1999                        identification and abatement of lead con-
                                    tamination for indoor ranges, including mi-
                                    gration outside the immediate range area.
   D-2000-075, Administration and Improve administration and management Awaiting publication of CAPR           AF
   Management of Civil Air Patrol, of the Civil Air Patrol Program nonexpend- 67-1 in order to revise CAP-USAF
   2/15/2000                       able equipment items. Update regulations guidance.
                                   and Statement of Work to establish roles,
                                   responsibilities, policies and procedures.
   D-2000-110, Export Licens-        Improve guidance regarding the determi-           Delays in coordinating and issuing USD(P),
   ing at DoD Research Facilities,   nation of the need for “deemed” export            policy.                            USD(AT&L)
   3/24/2000                         licenses in the event of foreign national
                                     visits to, or assignments to, DoD research
                                     facilities.
   D-2000-111, Security Clearance Establishment of timeframes to expedite              Corrective action delayed by the USD(I), DSS
   Investigative Priorities, 4/5/2000 investigative priorities.                        transfer of the personnel security
                                                                                       investigative function from DSS
                                                                                       to OPM. Impacted by transfor-
                                                                                       mation of the personnel security
                                                                                       program.
   D-2000-130, Foreign National Update existing guidance to provide                    Delays in coordinating and issuing Navy
   Access to Automated Information adequate procedures for authorizing and             policy.
   Systems (AIS), 5/26/2000        controlling access by foreign nationals to
                                   information available on AISs and Local
                                   area networks.
   D-2000-134, Tracking Security     The current database will be modified to          Extensive time/resources needed DSS
   Clearance Requests, 5/30/2000     retain all pertinent historical information       to modify an automated system.
                                     (including dates/times for every occurrence       Impacted by transformation of the
                                     -- e.g., deletions, case type, changes, cancel-   personnel security program.
                                     lations, duplicates, conversions, reinstate-
                                     ments, etc.)
   D-2000-139, Controls Over       Awaiting revisions to the Financial Manage- Delays in coordinating and issuing
   the Integrated Accounts Payable ment Regulation, Volume 10, Chapters 3 policy.                                 USD(C)
   System, 6/5/2000                and 12.
   D-2000-140, Compilation of        DFAS has initiated the Business Manage- Delays in coordinating and issuing DFAS
   the FY 1999 Department of the     ment Redesign to better integrate financial policy, and extensive time needed
   Navy Working Capital Fund         and business management data. DFAS is for system changes.
   Financial Statements, 6/7/2000    also working with the Navy to reconcile
                                     inventory-related general ledger account
                                     balances to supporting records.
   D-2000-153, Compilation of the DFAS is implementing procedures to           An audit addressing abnormal bal- DFAS
   FY 1999 Financial Statements   remove duplicate and abnormal balances. ances will be conducted to verify
   for Other Defense Organiza-    Any remaining abnormal balances are to       the implementation of corrective
   tions (ODO) - General Funds, be accompanied by footnotes that fully dis- actions.
   6/23/2000                      close the causes for these balances. DFAS is
                                  documenting the processes used to compile
                                  the ODO financial statements.




82 Semiannual Report to the Congress
D-2000-177, Revaluation of         USD(C) evaluating policy and systems         Management corrective actions on USD(C)
Inventory for the FY 1999 De-      changes to implement and support a latest schedule.
partment of the Navy Working       acquisition cost valuation method and a di-
Capital Fund Financial State-      rect cost historical valuation method. These
ments, 8/18/2000                   would be long-term solutions for improving
                                   the financial presentation of net inventory.
D-2001-016, Security Controls Navy will assess the potential risks to the Personnel reductions have delayed Navy
Over Contractor Support for Year security baseline requirements for reno-     implementation of corrective
2000 Renovation, 12/12/2000 vated systems for which risk assessments are actions.
                                 lacking and accredit or reaccredit renovated
                                 systems in accordance with DoD guidance.
D-2001-018, Management and Army assumed responsibility to update         Delays in coordinating and issuing Army
Oversight of the DoD Weather Joint Instruction AR 115-10/ AFI 15-157, policy.
Program, 12/14/2000          to require coordination of meteorological,
                             oceanographic, and space weather require-
                             ments across all Military Departments to
                             promote interoperability and avoid duplica-
                             tion.
D-2001-035, Management of          DLA examine viability of the Defense Inac- Original action is no longer the DLA
Potentially Inactive Items at      tive Item Program (DIIP) as a cost effective optimum solution, alternative ac-
the Defense Logistics Agency,      and beneficial program to DoD.               tion is being taken.
1/24/2001
D-2001-037, Collection and       Develop, test and deploy Patient Safety      Additional time required to obtain ASD(HA)
Reporting of Patient Safety Data Reporting Program.                           operational capabilities.
Within the Military Health Sys-
tem, 1/29/2001
D-2001-044, Accreditation Poli-    Update DISA Instruction 630-230-19,       Delays continue in coordinating     DISA
cies and Information Technology    “Automated Data Processing, Information and issuing policy.
Control at the Enterprise Center   Systems Security Program,” July 1996 to
Mechanicsburg, 2/9/2001            establish and implement specific guidance
                                   related to the reaccreditations of sites.
D-2001-059, Armed Servi-           Actions are underway to improve the         Extensive time needed to estab-   Army, Navy, AF
ce Blood Program Readiness,        Defense Blood Standard System (DBSS) to lish policy and implement other
2/23/2001                          ensure that the system meets all user and changes.
                                   mission needs, ensures asset accountability
                                   and inventory accuracy. Also actions are
                                   underway to ensure consistent deployment
                                   and use of DBSS throughout DoD.
D-2001-065, DoD Adjudication Identify and process additional adjudicative Competing management priori- DSS, USD(I)
of Contractor Security Clearances resources for Defense Industrial Security       ties. Impacted by transformation
Granted by the Defense Security Clearance Office (DISCO). Establish-              of the personnel security program.
Service, 2/28/2001                ment of continuing education standards
                                  to facilitate the certification of professional
                                  adjudicators. Issue guidance on profes-
                                  sional certification and continuous training
                                  program for all adjudicators.
D-2001-071, Navy Financial Re- Revise the Defense FAR Supplement to in- Lack of management responsive- USD(AT&L)
porting of Government-Owned clude the updated DoD property account- ness.
Material Held by Commercial ability procedures.
Shipyard Contracts, 3/2/2001




                                                                                                    Office of the Inspector General 83
 D-2001-081, Financial Repor-      Modify the Washington Headquarters         Delays due to deficiencies in the   WHS
 ting at the Washington Head-      Services Allotment Accounting System to hardware configuration. The
 quarters Services, 3/15/2001      correctly post prior period adjustments.   system is being upgraded.
                                   Also, develop query interfaces for each
                                   general ledger account that can be used to
                                   research detailed transactions supporting
                                   account balances.
 D-2001-085, The 2000 DoD      Identify each financial management posi- Extended time required to imple- USD(C)
 Financial Management Improve- tion by component, series, skill, require- ment a complex, multi-phase,
 ment Plan, 3/19/2001          ments, and grade level; and identify the   DoD-wide program.
                               appropriate training required, and combine
                               the requirements into the Department-wide
                               FM training plan.
 D-2001-099, Use of Contract       Modify the Financial Management Regula- Extensive time required for            USD(C)
 Authority for Distribution        tion, Volume 11B, to include procedures changes to financial policies.
 Depots by the Defense Logistics   that require that all use of contract author-
 Agency, 4/16/2001                 ity is adequately posted and liquidated in
                                   the DoD working capital fund accounting
                                   records at the activity group level.
 D-2001-109, DoD Payroll                                                       Management stated that the rec- DFAS
 Withholding Data for FY 2000, Develop the capability to maintain, and         ommended action was too costly.
 4/27/2001                     query, historical payroll data.                 Alternative long-term action is
                                                                               being taken.

 D-2001-111, Acquisition of the The Navy plans to review and revalidate   Extensive time required for devel- Navy
 Airborne Laser Mine Detection the Airborne Laser Mine Detection System opment and approval of docu-
 System, 5/2/2001               (ALMDS) Operational Requirements          ments.
                                Document in the normal course of prepara-
                                tion for the planned FY 04 Milestone III
                                decision.
 D-2001-118, Public/Private        Issuance of guidance regarding legal support Interim guidance issued. How- USD(AT&L)
 Competition at Lackland Air       to a most efficient organization study team. ever, extensive time needed to
 Force Base, 5/14/2001                                                          develop, coordinate and issue for-
                                                                                mal policy. Awaiting input from
                                                                                OGC, DoD.
 D-2001-121, Use of the DoD Jo- Establish process to verify JTA standards   Delayed inclusion of recommend- USD(AT&L)
 int Technical Architecture in the in acquisition documents and incorporate ed changes in the Defense Acqui-
 Acquisition Process, 5/14/2001 additional language needed in DoD 5000 sition Management Guidebook.
                                   series guidance.
 D-2001-124, U.S. Special Ope- Report is classified.                           Lack of management responsive- JS
 rations Command Use of Alter-                                                 ness.
 native or Compensatory Control
 Measures (U), 5/18/2001
 D-2001-129, Contracting         Implement procedures to better assess price   Coding and data discrepancy       DLA
 Officer Determinations of Price reasonableness and institute corrective ac-   problems had to be resolved;
 Reasonableness When Cost or tions for future contracts.                       new tools and processes are being
 Pricing Data Were Not Obtai-                                                  developed.
 ned, 5/30/2001
 D-2001-133, Deliberate Plan-      Report is FOUO.                             Lack of management responsive- EUCOM
 ning for Meteorological and                                                   ness.
 Oceanographic Operations,
 6/1/2001


84 Semiannual Report to the Congress
D-2001-135, Prevalidation of    Develop cost-effective automated methods Correction of this material weak- DFAS
Intergovernmental Transactions, to expand prevalidation.                 ness involves a long-term effort.
6/6/2001
D-2001-136, Defense Clearance Establish procedures to revise and maintain    Additional time needed to develop USD(I)
and Investigations Index Data- DCII user codes. Issue guidance to imple-     and implement procedures. Im-
base, 6/7/2001                 ment OPM policy on constructing pseudo        pacted by transformation of the
                               social security numbers for foreign nation-   personnel security program.
                               als require CAFs to determine the use of
                               pseudo SSNs for payroll purposes and use
                               these numbers in the DCII.
D-2001-141, Allegations to the    Amend DoD 5200.2-R to address secu-           Extended time needed to issue       USD(I), DSCA
Defense Hotline on the Defense    rity investigation requirements for foreign policy. Delayed completion of
Security Assistance Management    national contractor employees. Delay          contract resulted in delay in final
System, 6/19/2001                 additional work until security investigations code review.
                                  obtained by contractor employees and exist-
                                  ing computer code is tested.
D-2001-148, Automated Trans- Issue policy to address information assur-      Personnel turnover has delayed   ASD(NII), USD(C)
portation Payments, 6/22/2001 ance requirements for commercial auto-         issuing and implementing policy.
                              mated processes.
D-2001-153, Pentagon Reserva- Forms are to be developed to identify the Implementation has been delayed WHS
tion Maintenance Revolving    appropriate construction costs to be used by higher management priorities.
Fund, 7/2/2001                in transferring completed projects from the
                              construction in progress account to the real
                              property accounts.
D-2001-155, Compilation of the Maintain standard operating procedures       Corrective actions have not been DFAS
FY 2000 Navy Working Capi- and documentation to provide an audit            verified.
tal Fund Financial Statements, trail, and maintain complete documenta-
7/3/2001                       tion and audit trails for budgetary informa-
                               tion.
D-2001-158, Compilation of the Management will establish an action plan Management corrective actions on DFAS
FY 2000 Army General Fund Fi- to meet revised requirements for reconciling schedule.
nancial Statements at the Defense suspense accounts.
Finance and Accounting Service
Indianapolis (Sustaining Forces),
7/13/2001
D-2001-163, Accounting Entries Revise FMR, Volume 11B, Chapter 5 to        Publication of the DoD FMR        USD(C)
Made in Compiling the FY        reflect changes to inventory valuation and revisions has been delayed due to
2000 Financial Statements of    reporting; and revise DoD FMR, Volume significant policy issues.
the Working Capital Funds of    4, Chapter 3 to require the recoding of
the Air Force and Other Defense accounts receivable for credits due when
Organizations, 7/26/2001        DoD working capital fund supply activities
                                return inventory items that do not conform
                                to the purchase agreement or contract.
D-2001-164, Implementation        USD(AT&L) define and build a financial Organizational realignment of          USD(AT&L)
of a Cost-Accounting System for   architecture that incorporates cost account- program has delayed actions.
Visibility of Weapon Systems      ing requirements for weapon system life
Life-Cycle Costs, 8/1/2001        cycle costs.
D-2001-169, U.S. Special Oper- Financial Management Regulation revision Extensive time required for con- USD(C), USSO-
ating Command’s Reporting of to aid DoD Components in identifying          sideration of changes to financial COM
Real and Personal Property Assets what organization should report specific policies.
on the FY 2000 DoD Agency- property, equipment, and on the reporting
wide Financial Statements,        of automated processing equipment.
8/2/2001

                                                                                                    Office of the Inspector General 85
   D-2001-170, U.S. Transporta-     Develop system changes to differentiate      Management corrective actions on USTRANSCOM
   tion Command’s Reporting of      among USTRANSCOM, Air Mobility               schedule.
   Property, Plant, and Equipment   Command (AMC), and Defense Courier
   Assets on the FY 2000 DoD        Service (DCS) assets. Reconcile all system
   Agency-wide Financial State-     records for USTRANSCOM, AMC and
   ments, 8/3/2001                  DCS against actual assets, and make a prior
                                    period adjustment. Create electronic inter-
                                    faces between the logistics and the account-
                                    ing systems for transferring data.
   D-2001-175, Application of       Implement a mission or business area ap- Delays in issuing and implement- ASD(NII)
   Year 2000 Lessons Learned,       proach for managing information technolo- ing policy.
   8/22/2001                        gy investments; and implement an oversight
                                    process for complete repair, retirement, or
                                    replacement of systems that used date-win-
                                    dowing techniques during the year 2000
                                    conversion process.
   D-2001-189, Multiple Award        Reemphasize the need to ensure competi-     Management actions are delayed USD(AT&L)
   Contracts for Services, 9/30/2001 tion on multiple award tasks and delivery   pending an audit of GSA con-
                                     order contracts.                            tracts awarded for DoD.
   D-2002-004, Import Processing Revise USFK Regulation 55-72 to update Development problems and fund- USFK
   of DoD Cargo Arriving in the  requirements and implement a cost-effi-   ing shortfalls in FY 2005.
   Republic of Korea, 10/4/2001 cient system for the automated processing
                                 of customs forms using an electronic data
                                 interchange.
   D-2002-006, Classified Chemi- Report is classified.                           Lack of management responsive- Navy
   cal and Biological Report (U),                                                ness.
   11/16/2001
   D-2002-008, Controls Over the    Improve guidance on criteria for proper and Delays in coordinating and issuing DFAS, MC
   Computerized Accounts Pay-       accurate receipt and invoice documenta-      policy.
   able System (CAPS) at Defense    tion; improve organizational structures to
   Finance and Accounting Ser-      provide better internal controls, especially
   vice Kansas City (DFAS-KC),      separation of duties.
   10/19/2002
   D-2002-010, Armed Services       Establish a plan, controls, assessment    Long-term actions on schedule.        Army, Navy, AF,
   Blood Program Defense Blood      requirements and training related to the                                        ASD(HA)
   Standard System, 10/22/2001      Defense Blood Standard System (DBSS)
                                    upgrade. Also, establish procedures to
                                    ensure effective deployment of those DBSS
                                    upgrades.
   D-2002-020, Audit Report on      SECNAVINSTR 11101.73B has been              Extensive time needed to revise     Navy, MC
   General Officer Quarters at      revised. The Marine Corps will update       policies
   Kaneohe Bay, Hawaii Camp         their policies and a resident guide will be
   Pendleton California, and Al-    developed. Corrective actions are complete
   bany, Georgia, 12/5/2001         on all but 2 of the report’s 8 recommenda-
                                    tions.
   D-2002-024, Navy Fleet           Report is classified.                        Corrective actions are on schedule.Navy, PACOM
   Hospital Requirements (U),
   12/12/2001
   D-2002-028, Classified Report Report is classified.                           Long-term corrective actions are   PACOM, USFJ
   on Environmental Program - Ja-                                                on schedule.
   pan (U), 12/28/2002




86 Semiannual Report to the Congress
D-2002-035, Protection of       Report is classified.                        Long range corrective actions are
Strategic Systems Against Radio                                              on target.                        ASD(NII)
Frequency Threats (U), 1/4/2002
D-2002-038, Financial Report-     Review all abnormal general ledger ac-      Corrective actions have not been DFAS
ing for the Other Defense Or-     counts; identify and document the causes of verified.
ganization General Funds at the   net abnormal balances; and when possible
Defense Finance and Accounting    correct the balances.
Service San Antonio, 1/14/2002
D-2002-056, Controls Over Ven- Revise the Financial Management Regula- Delays in coordinating and issuing USD(C)
dor Payments Made for the Army tion to incorporate the requirements of 5 policy.
and Defense Agencies Using the CFR 1315. Improve security over access to
Computerized Accounting Pay- CAPS. Provide for automated interfacing of
able System (CAPS), 3/6/2002 data between CAPS and both the Standard
                               Procurement System and the Corporate
                               Electronic Funds Transfer database.
D-2002-060, Management of         Revise procedures to review terminal items Original action is no longer the DLA
Terminal Items at the Defense     with no registered users in the Defense    optimum solution, alternative ac-
Logistics Agency, 3/13/2002       Inactive Item Program (DIIP), for obsoles- tion is being taken.
                                  cence, and quantify the number of terminal
                                  National Stock Numbers (NSNs) that are
                                  determined to be obsolete after NATO and
                                  foreign governments review the NSNs.
D-2002-071, DoD Management Track each prefinanced project in the            Extended time required to recover EUCOM
of the North Atlantic Treaty     NATO Security Investment Program,          forecasted recoupments.
Organization Security Investment including the likelihood of NATO Infra-
Program, 3/26/2002               structure Committee authorization, actions
                                 required to obtain NATO authorization,
                                 and an estimated recoupment date.
D-2002-073, Financial Mana-       Use transactional data from a central-        Slow system development process. DFAS
gement Ending Balance Adjust-     ized database to populate general ledger
ments to General Ledger Data      accounts in the Defense Departmental
for the Army General Fund,        Reporting System (DDRS) Budgetary and
3/27/2002                         continue efforts to analyze and correct
                                  causes for current adjustments; Use transac-
                                  tional data to generate a general ledger data
                                  file for DDRS Budgetary.
D-2002-075, Controls Over the Strengthen controls to modify contract       Corrective action requires long-   USD(AT&L)
DoD Purchase Card Program, with banks to prevent accounts from being term development of risk-assess-
3/29/2002                     reopened after notification to close, and    ment tools.
                              provide reports on oversight reviews. Cor-
                              rective actions are complete on all but 1 of
                              the original 14 recommendations.
D-2002-076, Funding Invoi-     Revise Financial Management Regulation, Lack of management emphasis.           USD(C)
ces to Expedite the Closure of Chapter 10, Appendix B, number 7, “Ac-
Contracts Before Transitioning counting Requirements for Expired and
to A New DoD Payment System, Closed Accounts, “ to require that the DoD
3/29/2002                      activity to which a program has transferred
                               be responsible for providing current-year
                               funding.




                                                                                                   Office of the Inspector General 87
  D-2002-079, Delivery and          USFK Regulation 55-355, “Korea Traffic Time needed in the development USFK
  Receipt of DoD Cargo In-          Management” is being revised to include of specific policies and checklists.
  bound to the Republic of Korea,   specific cargo delivery information. The
  4/15/2002                         Eighth U.S. Army Command Inspection
                                    Program (CIP) will include delivery infor-
                                    mation. A new checklist will be incor-
                                    porated into the CIP schedule by the 4th
                                    Quarter FY 2002.
  D-2002-084, Guidance for the      Report is FOUO.                             Extended time needed to coordi- EUCOM
  Global Command and Control                                                    nate and issue policy.
  System Common Operational
  Picture, 5/1/2002
  D-2002-088, Acquisition of the Implement improvements in defining op-         Extensive time needed to restruc- USD(AT&L)
  Joint Service Lightweight Stand- erational requirements, evaluating produc-   ture program to implement an
  off Chemical Agent Detector,     tion readiness, and test planning.           evolutionary, incremental acquisi-
  5/10/2002                                                                     tion strategy.
  D-2002-091, Accountability        Comply with guidance for storage of       Action is ongoing, however, con- Army
  and Control of Materiel at the    maintenance materiel and the preparation strained by competing priorities.
  Corpus Christi Army Depot,        and submission of management reports for
  5/21/2002                         review; perform annual physical inventory
                                    and quarterly reviews of materiel.
  D-2002-095, Chemical and        Report is classified.                         Lack of management responsive- Army
  Biological Defense Individual                                                 ness.
  Protective Equipment in Central
  Command and European Com-
  mand Area (U), 5/30/2002
  D-2002-103, Certification of the Through a contractor/government team-        Transition from a sustainment     Army, NGB
  Reserve Component Automation ing effort, establish functional performance     contract to a performance-based
  System (RCAS), 6/14/2002         measures to better assess both the initial   contract was delayed to allow the
                                   and future impact of RCAS on supported       contractor to perform against the
                                   functionalities.                             established performance criteria
                                                                                for a full 6-month period.
  D-2002-107, Army Transition       Research Development and Engineer-          Corrective actions are on schedule.Army
  of Advanced Technology Pro-       ing Centers (RDECs) should incorporate
  grams to Military Applications,   performance goals necessary for technology
  6/14/2002                         transitions in Science & Technology project
                                    managers performance plans.
  D-2002-108, Standard Procure- Identify the responsibilities the certifica- Delays in coordinating and issuing ASD(NII)
  ment System Certification and tion and accreditation actions or steps to policy.
  Accreditation Process, 6/19/2002 be performed by the program manager and
                                   Component organizations.
  D-2002-109, Army Claims Ser- Modify Chapters 1 and 3 of DoD FMR          Extended time required to develop USD(C)
  vice Military Interdepartmental Volume 11A to include specific guidance and coordinate new guidance.
  Purchase Requests, 6/19/2002 for congressionally enacted pilot programs
                                  that authorize interagency orders, other
                                  than those used in the performance of
                                  Economy Act orders and project orders.
  D-2002-112, Report of the       Reengineer the industrial prime vendor        Long-term, multi-phase process DLA
  Industrial Prime Vendor Program (IPV) program. Incorporate fixes to pro-      to reengineer the industrial prime
  at the Air Force Air Logistics  gram weaknesses into IPV Generation II.       vendor program.
  Center, 6/20/2002




88 Semiannual Report to the Congress
D-2002-117, Review of FY         Report is classified.                           Corrective actions are on schedule.DIA
2001 Financial Statement for the
Defense Intelligence Agency (U),
6/25/2002
D-2002-121, Security: Controls Report is classified.                             Lack of management responsive- USD(I)
Over Biological Agents (U),                                                      ness.
6/27/2002
D-2002-122, Environmen-           Develop a more detailed DoD instruction Extended time required to develop USD(P&R)
tal Community Involvement         on Sustainable Ranges Outreach. Continue and coordinate the new DoD
Program at Test and Training      work on implementation of the new Direc- Instruction.
Ranges, 6/28/2002                 tive and development of the new instruc-
                                  tion.
D-2002-127, Audit Report on       Implement a system to capture material       The DoD FMR update was              DFAS
DoD Compliance with Internal      internal software costs; identify the appro- delayed due to adjudication issues;
Use Software Accounting Stan-     priate actions needed to properly value and and actions to properly value and
dards, 7/9/2002                   support all financial statement amounts and support all financial statement
                                  publish these actions in financial improve- amounts is complex.
                                  ment plans; update DoD FMR Volume 4,
                                  Chapter 6; and develop a strategy and a Key
                                  Milestone Plan.
D-2002-131, Terminal Items        DLA will modify the existing stock reten- Original action is no longer the        DLA
Managed by the Defense            tion policy to review terminal items that are optimum solution, alternative
Logistics Agency for the Navy,    excluded from the Defense Inactive Pro-       action is being taken.
7/22/2002                         gram (DIIP). In addition, plan to complete
                                  a new study to quantify the costs of inactive
                                  items.
D-2002-140, Measurement of        Establish and implement procedures to          Delays were caused by installation Army, Navy, AF,
Water Usage by DoD Compo-         verify that the DCWASA routinely inspects      and program compatibility issues WHS
nents Serviced by the DC Water    and reports results of inspections for DoD-    and other technical difficulties,
and Sewer Service, 8/20/2002      owned water meters; develop and imple-         and contract terminations.
                                  ment effective controls and procedures to
                                  verify that the DCWASA accurately reads
                                  water meters; establish and implement a
                                  maintenance program.
D-2002-153, Reprocessed Medi- Issue policy and guidance on the reuse of Significant time required to                ASD(HA), Army,
cal Single-Use Devices in DoD, single-use devices (SUD) and work with    address/resolve issues with FDA            Navy, AF
9/30/2002                      FDA to work toward clarifying SUD label- and Services.
                               ing requirements. The MILDEPs Surgeons
                               General issue implementing guidance and
                               ensure adequate awareness and training is
                               provided.
D-2003-001, DoD Integrated        Develop integrated natural resource man-       The plans for two installations    Army, Navy, AF
Natural Resource Management       agement plans for military installations and   have been held up pending
Plans, 10/1/2002                  coordinate the plans with the other Federal    the resolution of litigation and
                                  and State agencies involved in the process.    coordination issues.
D-2003-003, Controls for the      The DLA and the Services need to improve Corrective actions are on schedule. DLA, Navy, AF,
DoD Aviation Info-Plan Reim-      management controls and establish writ-                                      MC
bursement Card, 10/3/2002         ten policies that define the methods and
                                  responsibilities for using the Aviation Into-
                                  Plane Reimbursement Card.




                                                                                                         Office of the Inspector General 89
   D-2003-018, Validity of Regis-      Establish procedures to withhold payments Management corrective actions on DFAS
   tration in the Central Contractor   to contractors and vendors until they are schedule.
   Registration (CCR) Database,        properly registered with a valid Tax Identifi-
   10/30/2002                          cation Number in the CCR database.
   D-2003-021, Export Controls         Report is confidential.                       Extensive time is needed to coor- USD(P),
   Over Biological Agents (U),                                                       dinate and issue policy guidance. USD(AT&L),
   11/12/2002                                                                                                          DATSD(C/BD)
   D-2003-030, Financial Re-           Revise DoD FMR to allow the Air Force to      Publication of the DoD FMR           USD(C)
   porting of Deferred Mainte-         present all material categories of deferred   revisions has been delayed due to
   nance Information on Air Force      maintenance as major asset classes in ac-     significant policy changes resulting
   Weapons Systems for FY 2002,        cordance with Federal accounting require-     from OMB A-136 revisions.
   11/27/2002                          ments.
   D-2003-034, Adjustments to     Revise the Financial Management Regula- Management corrective actions on USD(C)
   the Intergovernmental Payments tion to specify the documentation required schedule.
   Account, 12/10/2002            to support adjustments from account
                                  F3885, ‘Undistributed Intergovernmental
                                  Payments,’ to closed appropriations. The
                                  guidance should describe the documenta-
                                  tion required to identify the proper expen-
                                  diture account, the responsible fund holder,
                                  and the payment date.
   D-2003-040, Chemical and            Report is classified.                         Lack of management emphasis       MC
   Biological Defense Individual                                                     and a change in applicable DoD
   Protective Equipment in the                                                       guidance
   Pacific Command Area (U),
   12/31/2002
                                       AT&L is working with OMB to address           Corrective actions are on schedule.USD(AT&L)
   D-2003-056, Public/Private          any overhead ambiguities in OMB Circular
   Competition for the Defense         A-76, proposing additional guidance to
   Finance and Accounting Service      clarify costing policies, and providing defi-
   Military Retired and Annuitant      nitions for direct and indirect costs as well
   Pay Functions, 3/21/2003            as a revised definition for overhead.
   D-2003-057, Accountability          Perform inventories and quarterly review of Corrective actions are on schedule.Navy
   and Control of Materiel at the      all materiel in storage, adjust records and
   Naval Air Depot, Jacksonville,      return excess materiel to the supply system.
   3/5/2003
   D-2003-064, Report on Accoun- Air Force is completing physical inventory, Implementation of new process to AF
   tability and Control Of Materiel reconciling with the Wholesale and Retail account for inventory.
   at the Warner Robin Air Logis- Shipping System, and turning in excess
   tics, 3/20/2003                  materials to supply. The Air Force will issue
                                    a policy directive to ensure proper supply
                                    discipline and use of material metrics in
                                    monthly material reviews.
   D-2003-067, Recoveries of Prior Revise the Financial Management Regula- Management corrective actions on USD(C), DFAS
   Year Obligations, 3/21/2003     tion to be consistent with recovery report- schedule.
                                   ing guidance issued by the OMB and the
                                   Department of the Treasury; and program
                                   the DFAS accounting systems to properly
                                   capture, record, and report recoveries of
                                   prior year obligations.
   D-2003-0071, Acquisition of      Report is classified.                            Corrective actions are on schedule.MC
   Marine Corps Aircraft Simulators
   (U), 4/2/2003

90 Semiannual Report to the Congress
D-2003-072, DoD Compliance AF is updating guidance to be consistent        Publication was delayed to include AF
with the Uniformed and Over- with DoD level guidance.                      any findings from the Federal
seas Citizens Absentee Voting                                              Voting Assistance Program lessons
Act, 3/31/2003                                                             learned report and 2004 Federal
                                                                           Post Election Survey results.
D-2003-073, Reliability of the Report is classified.                       Corrective actions are on schedule.NGA
FY 2002 National Imagery and
Mapping Agency Financial State-
ments and Adequacy of Related
Procedures and Controls (U),
4/2/2003
D-2003-074, Reliability of the Report is classified.                       Corrective actions are on schedule.DIA
FY 2002 Defense Intelligence
Agency Financial Statements and
Adequacy of Related Procedures
and Controls (U), 4/7/2003
D-2003-076, Document Auto-       Report is FOUO.                           Corrective actions are on schedule.DLA
mation and Production Service
Public/Private Competition,
4/8/2003
D-2003-077, Cooperative       The USD(C) tasked the Director, Small and Reorganization initially delayed     USD(C)
Agreements Support the Mentor Disadvantaged Business Utilization (SAD- corrective actions. Actions back
Protégé Program, 4/10/2003    BU) to conduct a preliminary review into a on schedule.
                              potential Antideficiency Act violation.
D-2003-081, DoD Explosives       Restructure the DoD Explosives Safety        Management corrective actions on USD(AT&L)
Safety Program Oversight,        Board and revise DoD guidance to accu- schedule.
4/24/2003                        rately reflect the Board’s roles and respon-
                                 sibilities. Develop a safety management
                                 strategy that requires a comprehensive DoD
                                 explosives safety program.
D-2003-083, Acquisition of       Report is FOUO.                           Program transition delayed testing USSOCOM
the Suite of Integrated Radio                                              and document processing.
Frequency Countermeasures,
4/29/2003
D-2003-085, International DoD Developing an instructional memorandum       Due to significant changes in the USTRANSCOM
Air Freight Tenders, 4/30/2003 which will be posted on the International   program, original action is not be-
                               Tender website. Reference to the memo-      ing continued. A more appropri-
                               randum will be made with each tender        ate action is being pursued.
                               solicitation request.
D-2003-091, Reliability of     Report is classified.                       Corrective actions are on schedule.NSA
the FY 2002 National Security
Agency Financial Statement and
Adequacy of Related Procedures
and Controls (U), 5/14/2003
D-2003-095, Accounting for       Develop business practices for Navy fund Long-term process to develop and DFAS, Navy
Reimbursable Work Orders at      administrators to properly account for        implement improved business
Defense Finance and Accounting   reimbursable work orders. Develop a meth- practices, methodologies, and
Service Charleston, 6/4/2003     odology and provide guidance to prevent guidance.
                                 Navy fund administrators from over obli-
                                 gating at the segment level. Establish edit
                                 checks that align with the business practices
                                 of the Navy.


                                                                                                 Office of the Inspector General 91
  D-2003-096, Protection of Eu- Report is classified.                           Long range corrective actions are Army, Navy, AF, JS,
  ropean Theater Systems Against                                                on target.                        ASD(NII)
  Radio Frequency Threats (U),
  6/4/2003
  D-2003-098, Follow-Up Audit of Ensure that depot-level repair inventory at Shortage of funding and extended Army
  Depot-Level Repairable Assets at commercial contractors and at a DLA stor- time needed to develop and
  Selected Army and Navy Organi- age facility is properly accounted for.     implement needed capability.
  zations, 6/5/2003
  D-2003-105, Management of        Report is FOUO.                              Length of time required for ap-   USD(AT&L)
  Developmental and Operational                                                 proval process to update DoD
  Test Waivers for Defense System,                                              Instructions.
  6/20/2003
  D-2003-106, Administration of     The Director, Defense Procurement and       Corrective actions are on schedule. USD(AT&L)
  Performance-Based Payments        Acquisition Policy (DPAP), will conduct an Normal time required to update
  Made to Defense Contractors,      assessment of the benefits of expanded per- the FAR and DFARS.
  6/25/2003                         formance-based payments implementation.
                                    It will address contracting officer compli-
                                    ance with FAR Part 32.10, and whether any
                                    changes are needed to those policies, the
                                    Performance-Based Payments User’s Guide,
                                    or training resources.
  D-2003-107, DoD Petroleum Report is classified.                               Extended time needed to coordi- AF
  War Reserve Requirements (U),                                                 nate and issue procedural guid-
  6/26/2003                                                                     ance.
  D-2003-110, Information Tech- System enhancements to correct deficien-        Normal time needed to develop     USD(P&R)
  nology Management: Defense cies are in process.                               system enhancements.
  Civilian Personnel Data System
  Functionality and User Satisfac-
  tion, 7/27/2003
  D-2003-114, Defense Logistics Complete the DoD certification and             SSAA delayed at NSA, the DoD DLA
  Agency’s Implementation of the accreditation process for the Air Force Elec- Designated Approving Authority
  Government Information Secu- tronic Key Management System.                   for the system.
  rity Reform, 6/30/2003
  D-2003-115, Allegations Con-      Air Force will prepare an acquisition strat- Further review needed on cost    AF, DCMA
  cerning the Administration of     egy addressing logistics support for the 550- estimates.
  Contracts for Electronic Flight   series Electronic Flight Instruments (EFI)
  Instruments, 6/30/2003            that address sustainment and spare parts.
                                    DCMA (at Lockheed Martin, Fort Worth,
                                    TX) will perform a Contractor Purchasing
                                    System Review (CPSR).
  D-2003-117, Systems Inventory Establish a single repository for business   Management corrective actions on USD(C)
  to Support the Business Enter- systems information, which includes all     schedule.
  prise Architecture, 7/10/2003  data elements necessary for architecture
                                 development and budget. Establish
                                 procedures to ensure that the data are kept
                                 current, consistent, and accurate.
  D-2003-119, Controls Over         Comply with DoD investment policy for Long-term corrective action on          USD(C)
  DoD Medicare Eligible Retiree     the DoD Medicare Eligible Retiree Health schedule.
  Health Care Fund Investments,     Care Fund; issue oversight procedures to
  7/31/2003                         ensure that the DFAS complies with the
                                    investment policy for the DoD Medicare
                                    Eligible Retiree Health Care Fund.



92 Semiannual Report to the Congress
D-2003-121, DoD Fire and         Revise DoDI 6055.6 to address staffing is- Extended time needed to update USD(AT&L),
Emergency Services Program,      sues. Develop modernization plans for fire directive and develop moderniza- Army, Navy
8/12/2003                        and emergency services apparatus.          tion plans.
D-2003-122, Financial Manage-    Issue guidance for unreconcilable contracts; Guidance delayed due to re-writ- USD(C)
ment: Closing the Army’s 1985    update the DoD FMR to specifically ad- ing and coordination issues, and
M1a1 Tank Contract (Con-         dress the requirement to maintain vouchers competing priorities.
tract DAAE07-85-C-A043),         and supporting documentation to facilitate
8/13/2003                        complete contract reconciliations.
D-2003-124, Financial Manage- Reconcile the approximately $2.2 million Management corrective actions on DISA
ment: Certification of a DoD   of invoices that have not been researched to schedule.
Payment for Telecommunications identify potential overpayments and require
Services, 8/22/2003            appropriate credit back to the Defense
                               Information Technology Contracting Orga-
                               nization.
D-2003-128, The Chemi-           As directed by USD(AT&L), Army develop Extensive time needed to develop USD(AT&L), Army
cal Demilitarization Program:    and prioritize a plan for the disposal of DoD-wide strategy for disposal of
Increased Costs for Stockpile    buried chemical warfare materiel. Upon    buried chemical warfare materiel.
and Non-Stockpile Chemical       receipt of the Army plan, USD(AT&L)
Disposal Programs, 9/4/2003      determine which DoD component should
                                 be assigned to implement the plan.
D-2003-132, Air Force Transac-   Establish integrated product teams and        Document processing placed on AF
tion of Advanced Technology      charters for advanced technology develop- hold pending completion of major
Program to Military Applica-     ment efforts. Revise and implement Air        reorganization.
tions, 9/12/2003                 Force Instruction 61-101 to ensure the
                                 status of technology transition plans are re-
                                 viewed at the Applied Technology Councils.
D-2003-133, Report on Controls Emphasize the importance of controls         Management corrective actions on USD(C), DFAS
Over DoD Closed Appropria- over the use of closed appropriations and schedule.
tions, 9/15/2003               monitor compliance with applicable laws
                               and regulations. DFAS establish specific
                               standard procedures to ensure that account-
                               ing personnel approve only legal and proper
                               adjustments to closed appropriations, and
                               validate the canceled balances and report
                               any potential Antideficiency Act violations.
D-2003-134, System Security      Track all major modifications of corporate- Actions delayed due to competing Army
of the Army Corps of Engineers   level automated information systems and priorities.
Financial Management System,     networks to ensure accreditation and reac-
9/15/2003                        creditation actions are initiated in accor-
                                 dance with DoD guidance, and require all
                                 USACE districts to perform site inspections
                                 and prepare action reports that verify physi-
                                 cal security policies.
D-2004-002, Acquisition:         Review conducted and new standard op-     Normal time to write, coordinate, WHS
Selected Purchase Card Trans-    erating procedures developed and imple-   approve, and implement guidance.
actions at Washington Head-      mented. Administrative instructions are
quarters Services and Civilian   being rewritten.
Personnel Management Service,
10/16/2003
04-INTEL-02, DoD Security      Disparities between the contractor and     Extensive time required to update USD(I)
Clearance Adjudication and Ap- military/civilian personnel adjudicative   DoD Regulations.
peals Process (U), 12/12/2003 process will be eliminated with the pending
                               revision to the DoD Regulation 5200.2-R.


                                                                                                 Office of the Inspector General 93
   D-2004-003, Decontamination Report is classified.                             Extensive time needed to coordi- Navy, AF
   Operation Preparedness of Con-                                                nate and issue policy.
   tinental U.S. Based Navy and Air
   Force Units (U), 10/8/2003
   D-2004-006, Acquisition Man- Director, Operational Test and Evaluation Extensive time required to update Army, USD(AT&L)
   agement of the Army’s Allsource will provide an assessment of operational DoD Acquisition guidance.
   Analysis System, 10/10/2003     effectiveness, survivability, and test the
                                   adequacy of the Allsource Analysis Sys-
                                   tem (ASAS) Block II family of systems.
                                   USD(AT&L) will evaluate in accordance
                                   with the dollar thresholds to determine the
                                   appropriate Major Defense Acquisition
                                   Program (MDAP) level.
   D-2004-007, Force Protec-          Report is classified.                      Army, Navy, AF actions are con- USD(P), Army,
   tion in the Pacific Theater (U),                                              tingent on publication of pending Navy, AF
   10/14/2003                                                                    USD (P) guidance.
   04-INTEL-07, Audit of the          Report is classified.                      Classified.                       ATSD(NCB)
   Physical Security of Nuclear
   Weapons (U), 5/3/2004
   D-2004-008, Implementation of Issue and implement guidance to comply Extended time to complete issu-            Army
   Interoperability and Information with DoD Directive 8100.1, Global Infor- ance of numerous related guid-
   Assurance Policies for Acquisition mation Grid (GIG) Overarching Policy,     ance.
   of Army Systems, 10/15/2003 September 19, 2002, which requires the
                                      Army to define how each Army system will
                                      interface within the GIG to achieve joint
                                      interoperability.
   D-2004-009, Allegations            Develop policies and procedures requir-       Extended time needed to com-   Army, AF
   Concerning Controls Over           ing the reconciliation of all transit subsidy plete policy and procedures.
   DoD Transit Subsidies Within       billings received from the Department of
   the National Capital Region,       Transportation.
   10/14/2003
   04-INTEL-10, Audit of the       Assistant to the Secretary of Defense for    Initial coordination delayed due to ATSD(NCB)
   Nuclear Weapons Personnel Reli- Nuclear and Chemical and Biological          delinquent responses. Instruction
   ability Program (U), 6/21/2004 Defense Programs [ATSD{NCB}] will             now under re-coordination.
                                   assess policies, practices, and oversight
                                   to strengthen the reliability program and
                                   ensure the reliability of those working with
                                   and around nuclear weapons. Regulations
                                   and Directives will be updated.
   D-2004-012, Sole-Source Spare Report is FOUO.                                 Corrective actions are on schedule.DLA, Army
   Parts Procured From an Exclusive
   Distributor, 10/16/2003
   D-2004-020, Allegations Con-       Implement a formal acquisition policy that Corrective actions are on schedule.Army, AF
   cerning Improprieties In Award-    integrates the existing roles of various Army
   ing National Guard Contracts,      National Guard and Federal communica-
   11/18/2003                         tion and IT groups. Develop a process
                                      with measurable IT standards and defined
                                      business processes. Coordinate the require-
                                      ments for help desk support to eliminate
                                      duplicate contract costs.




94 Semiannual Report to the Congress
D-2004-023, Financial Manage-     USACE is to prepare an information paper Lack of management responsive- Army
ment: Corps of Engineers Fi-      to outline a plan to address account phase ness.
nancial Management System Ac-     general ledger correlation related weak-
counting Processes, 11/18/2003    nesses and system deficiencies, including
                                  a monthly status report that shows the
                                  progress in correcting these problems.
D-2004-034, Environment:         Clarify requirements for internal assess-   The Corps of Engineers guidance Army
Defense Hotline Allegations      ments.                                      update is on hold pending the
Regarding the Environmental                                                  revision of a higher level Army
Compliance Assessment Process                                                regulation.
at U.S. Army Corps of Engineers,
Portland District, 12/4/2003
D-2004-037, Logistics: Defense Report is FOUO.                               Corrective actions are on schedule.DLA
Reutilization and Marketing
Services Commercial Venture
Contracts for Privatization of
the DoD Surplus Sales Program,
12/30/2003
D-2004-039, Cooperative Threat Negotiate a transparency agreement that         Significant time is required for ne- USD(P), DTRA
Reduction Construction Projects, will allow US verification of the quantity gotiations with sovereign nations.
12/18/2003                       and quality of the material stored in the
                                 fissile material storage facility. Undertake
                                 sufficient activities to come into compliance
                                 with Russian environmental requirements
                                 for water discharge rates.
D-2004-041, The Security of        Fully implement the DITSCAP process          Actions delayed due to competing Army
the Army Corps of Engineers        and security controls for the Army Corps of priorities.
Enterprise Infrastructure Services Engineers Enterprise Infrastructure Services
Wide-Area Network, 12/26/2003 Wide-Area Network.
D-2004-042, Control Over         Report is classified.                       Corrective actions are on schedule.NGA
Obligations at the National Geo-
spatial-Intelligence Agency (U),
1/16/2004
D-2004-047, Implementation of     Program Managers will be able to store     Corrective actions are on schedule.Army
the DoD Management Control        acquisition documents in Virtual Insight
Program for Army Category II      (VIS) so the Milestone Decision Authority
and III Programs, 1/23/2004       can review document status from
                                  development to document approval. Army
                                  Regulations will be updated to reflect new
                                  reporting procedures.
D-2004-050, Management            Revised DoD guidance to clarify the roles Management corrective actions on DAM
Structure of the Cooperative      of responsible offices for the Cooperative schedule.
Threat Reduction Program,         Threat Reduction Program.
2/5/2004
D-2004-053, Defense Threat        Develop detailed guidance on what should Management corrective actions on WHS
Reduction Agency Relocation       be considered when determining whether schedule.
Costs, 2/19/2004                  the relocation cost cap in section 8020 of
                                  the FY 2004 Appropriation Act has been,
                                  or will be, exceeded.




                                                                                                   Office of the Inspector General 95
   D-2004-055, DoD Source             Action is ongoing to 1) reinstate Service     Lack of management responsive- DLA
   Approval Process for Service       & Sales, Inc. as an approved source for       ness.
   & Sales, Inc., a Small Business    licensed items previously supplied to
   Manufacturer, 2/25/2004            DoD and 2) develop guidance for source
                                      approval and reevaluation for critical items.
   D-2004-057, Acquisition: Con-      Conduct a study on existing DoD post-          Management corrective actions on USD(AT&L)
   tracts Awarded for the Coalition   war strategy and establish responsibilities,   schedule.
   Provisional Authority by the       policies, and procedures for the rapid
   Defense Contracting Command-       acquisition of necessary goods and
   Washington, 3/18/2004              services in support of any future post-war
                                      occupation or relief operations.
   D-2004-059, Financial Manage-      Determine the appropriate useful life for Long-term corrective action on        Army
   ment: Assets Depreciation Re-      all USACE-owned assets. Request a waiver schedule.
   ported on the U.S. Army Corps      from the DoD FMR based on USACE-
   of Engineers FY 2002 Financial     unique mission requirements.
   Statements, 3/16/2004
   D-2004-060, Acquisition of the Report is FOUO.                                    Extended time needed to perform USD(AT&L)
   Joint Chemical Agent Detector,                                                    comprehensive evaluation of
   3/30/2004                                                                         detector alternatives.
   D-2004-061, Export Controls:       Expand DoD guidance to encompass all ex- Management corrective actions on USD(P),
   Export Controlled Technology       port-controlled technology and enumerate schedule.                        USD(AT&L)
   at Contractor, University and      the roles and duties of responsible person-
   Federally Funded Research and      nel. Ensure incorporation of appropriate
   Development Center Facilities,     export compliance clauses into solicitations
   3/25/2004                          and contracts.
   D-2004-063, Financial Manage- Improve the financial accountability for            Management corrective actions on Army
   ment: Controls Over U.S. Army buildings and other structures owned by             schedule.
   Corps of Engineers (USACE)      USACE.
   Buildings and Other Structures,
   3/26/2004
   D-2004-064, Acquisition: Ac- Conduct an Analysis of Alternatives (AoA) Normal time needed to conduct               USD(AT&L)
   quisition of the Boeing KC-767A for Military Tanker Aircraft.          the AoA.
   Tanker Aircraft, 3/29/2004
   D-2004-065, DoD Implemen-          Revise Voting Assistance Program guidance      AF publication was delayed to      Navy, AF, MC
   tation of the Voting Assistance    to reflect recent changes to DoD guidance.     include any findings from the
   Program, 3/31/2004                 Improve monitoring of voting assistance        Federal Voting Assistance Program
                                      program and training of service members        lessons learned report and 2004
                                      and spouses. Establish civilian position for   Federal Post Election Survey re-
                                      Service Voting Action Officer.                 sults. Navy consideration of full-
                                                                                     time position has been delayed
                                                                                     due to reorganizations.
   D-2004-066, Allegations Con-       Develop a communications security              Normal time needed to develop Navy
   cerning Personnel Background       (COMSEC) plan. Staff up the Security           policy and recruit qualified staff.
   Investigations and Clearances      Dept. Designate the Information Techno-        Hurricane Katrina delayed com-
   at the Space and Naval Warfare     logy (IT) position Category and sensitivity    pletion of final corrective action.
   Systems Command Information        level of all IT positions.
   Technology Center, 4/9/2004
   D-2004-068, Global Command Report is classified.                                  Long term actions are in process. USFK
   and Control System-Korea (U),
   4/6/2004




96 Semiannual Report to the Congress
D-2004-070, Small Business     DSSC revised its guidance to contracting Normal time to revise the DLA              DLA
Administration Section 8(A)    officers, and DLA is in the process of revis- Acquisition Directive.
Program Contracting Procedures ing the DLA Acquisition Directive.
at the Defense Supply Center,
Columbus, 4/12/2004
D-2004-074, Reliability of the The Army and the Air Force agreed to              Long term actions are on sched-   Army, AF
Automated Cost Estimating        jointly verify, validate, and accredit the next ule.
Integrated Tools Software Model, major release of software,
4/23/2004
D-2004-075, Reliability of the Report is classified.                              Corrective actions are on schedule.NGA
FY 2003 Financial Statements for
the National Geospatial-Intelli-
gence Agency (U), 4/23/2004
D-2004-078, Summary Report          The Director supports using technol-          Changes to the Acquisition work- USD(AT&L)
on the Military Departments’        ogy transitioning as a performance rating     force on hold pending a review
Transition of Advanced Tech-        criteria for science and technology person-   of the overall workforce require-
nology Programs to Military         nel that manage technologies that are more    ments.
Applications, 4/29/2004             advanced in development.
D-2004-079, Reliability of the Report is classified.                              Corrective actions are on schedule.DIA
Defense Intelligence Agency FY
2003 Financial Statements (U),
4/29/2004
D-2004-080, Environmental Li-       Implement guidance to improve the             Long-term corrective action on   USD(AT&L),
abilities Required to be Reported   development, recording, and reporting of schedule.                             Army, Navy, AF
on Annual Financial Statements,     environmental liabilities. Establish a qual-
5/5/2004                            ity control program to assess environmental
                                    liability processes and controls. Issue guid-
                                    ance requiring that future environmental
                                    liability electronic cost estimating system
                                    efforts comply with Defense Environmental
                                    Restoration Program Management Guid-
                                    ance.
D-2004-082, DoD Installa-      Report is classified.                              Long-term management corrective EUCOM, Army,
tion Disaster Preparedness and                                                    actions on schedule (EUCOM). Navy, AF
Consequence Management in the                                                     Lack of management responsive-
U.S. European Command (U),                                                        ness (Army, Navy, AF).
5/24/2004
D-2004-083, Acquisition: Man-       Corrective actions are designed to strength- Corrective actions are on schedule.USD(C)
agement of the Centrally Billed     en controls and help managers to identify
Travel Card Program at Defense      potential problem areas in their centrally
Agencies, 5/24/2004                 billed travel card program.
D-2004-084, Antideficiency Act      Allocate all undistributed disbursements    Management corrective actions on DFAS
Investigation of the Research,      to fund holders of DoD closed fixed-term schedule.
Development, Test and Evalua-       appropriations at statutory time of closing
tion Defense-Wide, Appropria-       or provide alternate procedures that will
tion Account 97 FY 1989/1990-       provide positive assurance against future
0400, 5/28/2004                     potential violations.
D-2004-085, DoD Costs of            Deposit unfunded civilian fringe benefits in Awaiting a Comptroller ruling on DTRA
Licensing Space-Related Ex-         the U.S. Treasury as a miscellaneous receipt. whether the actions taken were
ports and Monitoring Satellite                                                    appropriate.
Launches, 5/28/2004




                                                                                                       Office of the Inspector General 97
   D-2004-087, Health Care: DoD ASD (HA), in coordination with the Mili- Normal time for implementation. ASD(HA), Army,
   Management of Pharmaceuti-   tary Surgeons General, develop standard                                  AF
   cal Inventory and Processing policies and procedures for pharmaceuti-
   of Returned Pharmaceuticals, cal inventory management at the Military
   6/17/2004                    Treatment Facilities (MTFs) and also re-
                                quire MTFs to use a pharmaceutical returns
                                company.
   D-2004-089, Acquisition of the The U.S. Army Special Operations Com- Corrective actions are on schedule.Army
   MH-47G Helicopter Service Life mand (USASOC) will produce and Infor-
   Extension Program, 6/14/2004 mation Support Plan (ISP), in concurrence
                                  with the Joint Staff. In addition, USASOC
                                  will submit a request for a one-year Interim
                                  Certificate to Operate.
   D-2004-091, Management of      Define network centric warfare and its        Issues have arisen regarding the ASD(NII), JS
   Network Centric Warfare Within associated concepts; formalize roles, re-     appropriate policy vehicle to use.
   the Department of Defense,     sponsibilities, and processes for the overall
   6/22/2004                      development, coordination, and oversight
                                  of network centric warfare efforts; and de-
                                  velop a strategic plan to guide network cen-
                                  tric warfare efforts and monitor progress.
   D-2004-093, Acquisition and     The DLA will initiate a new fully com-       Normal time for implementation. Army, AF, DLA
   Management of Specialized Ship- petitive acquisition for the containers. The
   ping and Unit-Owned Contain- Army and the Air Force will improve con-
   ers and Related Accessories,    trols over the acquisition and management
   6/30/2004                       of specialized shipping and unit-owned
                                   containers.
   D-2004-094, Acquisition: Direct Develop a joint strategy for acquiring direct Normal time for implementation.   USD(AT&L),
   Care Medical Services Contracts, care medical services and strengthen guid-                                     USD(C),
   6/24/2004                        ance and oversight for those acquisitions.                                     USD(P&R), Navy,
                                    If required, address the issue of required                                     AF
                                    changes for withholding FICA and other
                                    payroll taxes for individual set aside con-
                                    tracts. Develop an oversight process for the
                                    acquisition of direct care medical services.
   D-2004-095, Navy Controls         Establish controls to ensure that depot per- Delays in issuing and implement- DLA, Navy
   Over Materiel Sent to Defense     sonnel request the required demilitarization ing guidance.
   Reutilization and Marketing Of-   instructions for all materiel awaiting dis-
   fices, 6/24/2004                  posal instructions, and to ensure that Navy
                                     organizations either demilitarize materiel or
                                     provide demilitarization instructions to the
                                     depots, prior to requesting for disposal.
   D-2004-099, Reliability of        Report is classified.                     Corrective actions are on schedule.NSA
   National Security Agency FY
   2003 Financial Statements (U),
   7/15/2004
   D-2004-102, Contracting for   The C-130J Aircraft would go through op- Awaiting completion of final test AF
   and Performance of the C-130J erational testing and the Air Force expects report and definitized contract.
   Aircraft, 7/23/2004           to close out all known in-scope deficiencies
                                 prior to the start of future block upgrades.
                                 In addition, future block upgrade modifica-
                                 tions would be performed under separate
                                 Federal Acquisition Regulation Part 15
                                 contracts.


98 Semiannual Report to the Congress
D-2004-103, Contract No.         NAVSEA will revise it’s Contracts Hand- Normal time to revise the Con-        Navy
N00024-02-C-6165 for Consult- book and conduct refresher training for it’s tracts Handbook.
ing Services at the Naval Ship- contracting officers to highlight key points
building, Conversion, and Repair in the justification and approval process.
Facility, 8/2/2004
                                   Recommended actions are designed to      Corrective actions are on schedule.Army
D-2004-104, Purchase Card Use      provide guidance and strengthen controls
and Contracting Actions at the     over use of the Government Purchase Card
U.S. Army Corps of Engineers,      at the Louisville District and at USACE
Louisville District, 7/27/2004     Headquarters levels.
D-2004-106, Selected Controls      Update the performance metric on suspense Management corrective actions on DFAS
Over Army Fund Balance With        accounts to track the progress for reconcil- schedule.
Treasury at Defense Finance &      ing the field accounting records of suspense
Accounting Service Indianapolis,   account balances with the summary Fund
8/5/2004                           Balance With Treasury balance.
D-2004-108, Implementation of      The Air Force was updating and consolidat- Normal time for changes to be    AF
the DoD Management Control         ing reporting policies, particularly empha- incorporated into a system.
Program for Air Force Acquisi-     sizing the ratings and comments within
tion Category II and III Pro-      the System Metrics and Reporting Tool
grams, 8/16/2004                   (SMART) and the Monthly Acquisition
                                   Reports (MARs).
D-2004-110, The Military           USD (AT&L) has undertaken several initia- Normal time for implementation. USD(AT&L),
Departments’ Implementation        tives related to Performance Based Logistics                              Army, Navy
of Performance-Based Logistics     (PBL). The Services will issue policies and
in Support of Weapon Systems,      procedures for implementation of PBL.
8/23/2004
D-2004-114, The Followup on        Develop and implement a management-         Actions delayed due to competing Army
the Government Accountability      driven action plan to ensure that all audit priorities.
Office and U.S. Army Audit         recommendations are properly implement-
Agency Recommendations for         ed for the Corps of Engineers Financial
the U.S. Army Corps of Engi-       Management System.
neers, 9/21/2004
D-2004-115, The Followup on        Develop and implement a management-         Actions delayed due to competing Army
the Government Accountability      driven action plan to ensure that all audit priorities.
Office and U.S. Army Audit         recommendations are properly implement-
Agency Recommendations for         ed for the Corps of Engineers Enterprise
the U.S. Army Corps of Engi-       Infrastructure Services.
neers, 9/21/2004
D-2004-117, Defense Hotline Develop management control documenta- Corrective actions are on schedule.JFCOM
Allegations Concerning the        tion for the Collaborative Force-Building,
Collaborative Force-Building,     Analysis, Sustainment, and Transportation
Analysis, Sustainment, and Trans- System (CFAST).
portation System, 9/24/2004
D-2004-118, Army General           Update the DoD FMR to require the dis- Long-term corrective action on       USD(C), DFAS
Fund Controls Over Abnormal        closure of unresolved abnormal balances for schedule.
Balances for Field Accounting      all proprietary and budgetary general ledger
Activities, 9/28/2004              accounts in the footnotes to the financial
                                   statements. Identify abnormal conditions
                                   impacting both budgetary and proprietary
                                   account balances; notify accounting activi-
                                   ties of abnormal proprietary balances and
                                   require explanations of corrective actions;
                                   and resolve abnormal balances in the bud-
                                   getary accounts.
                                                                                                    Office of the Inspector General 99
   D-2005-003, Financial Man-         Review and revise the DoD FMR, Volume         The DoD FMR is currently being USD(C)
   agement: DoD Antideficiency        14, Chapter 9 guidance on the administra-     revised and is being coordinated
   Act Reporting and Disciplinary     tive controls and requirements over Antide-   with the Office of General Coun-
   Process, 10/14/2004                ficiency Act appropriations and violations.   sel.
   D-2005-006, Acquisition: Over- To improve controls on overseas Govern- Corrective actions are on schedule.DoDEA
   seas Purchase Card Transactions ment Purchase Card transactions by DoD
   by DoD Dependents Schools-Eu- Dependent Schools-Europe, the DoD Edu-
   rope, 10/20/2004                cation Activity agreed to develop guidance
                                   regarding program oversight and issue over-
                                   arching program guidance that is consistent
                                   and complete and is distributed to program
                                   officials. The guidance is also expected to
                                   ensure DoDDS-Europe management pro-
                                   vides the discipline, structure, and climate
                                   necessary to implement effective internal
                                   controls.
   D-2005-009, Pueblo Chemical- Report is FOUO.                                     Extensive time needed to com-   USD(AT&L), Army
   Agent-Destruction Pilot Plant                                                    plete facility redesign
   Project, 11/1/2004
   D-2005-020, Defense Logistics DLA is identifying cost savings realized for Normal time for implementation. DLA
   Agency Processing of Special Pro- the Special Program Requirements (SPR)
   gram Requirements, 11/17/2004 Support Program.
   D-2005-022, Financial Manage-      The contract has been logged and assigned Reconciliation work continues.      DFAS
   ment: Contract Classified as       to a contractor supporting the Commercial
   Unreconcilable by the Defense      Pay Services Contract Reconciliation office
   Finance and Accounting Service,    for reconciliation. Based on the reconcili-
   12/2/2005                          ation, recovery actions will be initiated for
                                      any identified overpayments made to the
                                      contractor.
   D-2005-023, Information         Report is FOUO.                                  Lack of management responsive- ASD(NII)
   Systems Security: Assessment of                                                  ness.
   DoD Plan of Action and Mile-
   stones Process, 12/13/2004
   D-2005-024, Management of          Update Navy manpower and personnel           Corrective actions are on schedule.Navy
   Navy Senior Enlisted Person-       guidance to clearly define acceptable senior
   nel Assignments in Support         enlisted manning levels by establishing a
   of Operation Iraqi Freedom,        minimum senior enlisted manning level as
   12/15/2004                         the baseline for identifying senior enlisted
                                      manning deficiencies that would require
                                      immediate action.
   D-2005-026, Financial Manage-      Reliability of U.S. Army Corps of Engi-  Management corrective actions on Army
   ment: Reliability of U.S. Army     neers, is implementing system changes to schedule.
   Corps of Engineers, Civil Works,   improve the reliability or recording and
   Fund Balance With Treasury and     reporting Fund Balance With Treasury and
   Unexpended Appropriations,         Unexpended Appropriations accounts.
   12/28/2004
   D-2005-027, Contract With          Consider the audit findings before making Action deferred indefinitely until DLA
   Reliant Energy Solutions East,     a determination to proceed with suspension completion of criminal proceed-
   1/28/2005                          action against the contractor              ings by Government against
                                                                                 contractor




100 Semiannual Report to the Congress
D-2005-028, DoD Workforce        Establish minimum training standards for Corrective actions are on schedule.USD(AT&L)
Employed to Conduct Public       competition officials and DoD functional
Private Competitions Under       and technical experts assigned to work on
the DoD Competitive Sourcing     public-private competitions, and advise the
Program, 2/1/2005                DoD component competitive sourcing of-
                                 ficials concerning defining and document-
                                 ing minimum education and/or experience
                                 requirements.
D-2005-031, Endorsement          Report is FOUO.                           Management corrective actions on ASD(HA)
of the Management Letter on                                                schedule.
Internal Controls Over Financial
Reporting for the FY 2004 DoD
Medicare Eligible Retiree Health
Care Fund Financial Statements,
1/31/2005
D-2005-033, Acquisition:         Report is FOUO.                           Lack of management responsive- ASD(NII)
Implementation of Interoperabil-                                           ness.
ity and Information Assurance
Policies for Acquisition of Navy
Systems, 2/2/2005
                                   Issue policy to require program managers Extensive time needed for coordi- AF
D-2005-034, Implementation of to prepare information support plans and nation and issuance of policy
Interoperability and Information obtain supportability certifications before
Assurance Policies for Acquisition milestone decisions for system acquisition
of Air Force Systems, 2/2/2005 programs.
D-2005-035, Existence of        Corps-wide implementation of corrective    Management corrective actions on Army
U.S. Army Corps of Engineers actions regarding Buildings and Other         schedule.
Buildings and Other Structures, Structures is being performed.
2/15/2005
D-2005-037, Implementation       Army is developing policy for Performance Normal time for implementation. Army
of Performance Based Logistics   Based Agreements (PBAs).
for the Javelin Weapon System,
3/7/2005
D-2005-045, FY 2004 Emer-        DLA is reviewing the methodology for      Normal time for implementation. DLA
gency Supplemental Funding for   calculating incremental fuel costs in the
the Defense Logistics Agency,    consolidated DoD Terrorist Response Cost
5/9/2005                         Report and developing standard operating
                                 procedures for calculating and reporting
                                 that cost information.
D-2005-046, Financial Manage- Correct the identified errors and perform Corrective actions have not been Army
ment: Independent Examination a review of other leased and transferred          verified.
of the Rights to U.S. Army Corps structures for similar types of rights errors;
of Engineers Buildings and Other review and update policies and procedures
Structures, 3/25/2005            to prevent future errors; and provide and
                                 document training to consistently imple-
                                 ment the new policies and procedures.




                                                                                                Office of the Inspector General 101
Acronyms:
AF			                    Air Force
ASD(HA)		                Assistant Secretary of Defense (Health Affairs)
ASD(NII)		               Assistant Secretary of Defense (Networks Information Integration)
ATSD{NCB}		              Assistant to the Secretary of Defense for Nuclear and Chemical and Biological Defense Programs
DAM			                   Director, Administration and Management
DATSD(C/BD)		            Deputy Assistant to the Secretary of Defense for Chemical/Biological Defense
DCMA			                  Defense Contract Management Agency
DeCA			                  Defense Commissary Agency
DFAS			                  Defense Finance and Accounting Service
DIA			                   Defense Intelligence Agency
DISA			                  Defense Information Systems Agency
DLA			                   Defense Logistics Agency
DoDEA			                 Department of Defense Education Activity
DSS			                   Defense Security Service
DSCA			                  Defense Security Cooperation Agency
DTRA			                  Defense Threat Reduction Agency
EUCOM		                  European Command
JFCOM			                 Joint Forces Command
JS			                    Joint Staff
MC			                    Marine Corps
NGA			                   National Geospatial-Intelligence Agency
NGB			                   National Guard Bureau
NSA			                   National Security Agency
PACOM			                 Pacific Command
USD(AT&L)		              Under Secretary of Defense for Acquisition, Technology and Logistics
USD(C)			                Under Secretary of Defense (Comptroller)
USD(I)			                Under Secretary of Defense (Intelligence)
USD(P)			                Under Secretary of Defense for Policy
USD(P&R)		               Under Secretary of Defense for Personnel and Readiness
USFJ			                  United States Forces - Japan
USFK			                  United States Forces – Korea
USSOCOM		                United States Special Operations Command
USTRANSCOM		             United States Transportation Command
WHS			                   Washington Headquarters Service




102 Semiannual Report to the Congress
